<html>
<title> - THE PROMISE OF REGISTERED TRAVELER PART I and II</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                   THE PROMISE OF REGISTERED TRAVELER
                             PART I and II

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                     JUNE 9, 2005 and JUNE 16, 2005

                               __________

                           Serial No. 109-19

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                    U.S. GOVERNMENT PRINTING OFFICE

23-847 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     Committee on Homeland Security

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity:
  Oral Statement.................................................     1
  Prepared Statement, June 9, 2005...............................     2
  Prepared Statement, June 16, 2005..............................    54
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity.    55
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security:
  Prepared Statement, June 9, 2005...............................     3
  Prepared Statement, June 16, 2005..............................    57
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................    38
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    44
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    42
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    42
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    69
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    39

                               WITNESSES
                         Thursday, June 9, 2005

Mr. William Connors, Executive Director, National Business Travel 
  Association:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Ms. Brigette Goersch, Director of Security, Greater Orlando 
  Aviation Authority:
  Oral Statement.................................................    30
  Prepared Statement.............................................    31
Mr. Jim Harper, Director of Information Policy Studies, The CATO 
  Institute:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Robert Isom, Senior Vice President, Customer Service, 
  Northwest Airlines, Inc.:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Mrs. C. Stewart Verdery, Jr., Principal, Mehlman Vogel 
  Castagnetti, Incorporated:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7

                                Part II
                        Thursday, June 16, 2005

Mr. Thomas Blank, Acting Deputy Director, Transportation Security 
  Administration, Department of Homeland Security:
  Oral Statement.................................................    58
  Prepared Statement.............................................    60

                             For the Record

  Letter from Mr. Jim Harper.....................................    81


                   THE PROMISE OF REGISTERED TRAVELER



                                 PART I

                              ----------                              


                         Thursday, June 9, 2005

                  House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:05 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Daniel Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Linder, Rogers, Dicks, 
DeFazio, Jackson-Lee, and Thompson.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security Subcommittee on Economic Security, Infrastructure 
Protection and Cybersecurity will come to order.
    The subcommittee is meeting today to receive testimony on 
the Registered Traveler Program being implemented by the 
Transportation Security Administration, TSA. The purpose of the 
hearing is to examine whether the Registered Traveler Program 
is living up to its promise of enhancing security and improving 
efficiency in screening operations at airport checkpoints.
    I would like to welcome everybody today to this hearing.
    The Registered Traveler Program is an important initiative, 
which, when fully implemented, I believe, should improve both 
the effectiveness and efficiency of the TSA airport security 
screening process. Registered Traveler will allow travelers who 
undergo background checks and submit themselves to biometric 
verification to go through expedited security screening 
procedures.
    Unfortunately, however, this program does not appear to 
have progressed as Congress had intended. I, along with many 
other members of Congress, continue to be frustrated by this 
lack of apparent progress with the Registered Traveler Program.
    Congress imagined that this program would be an additional 
layer of voluntary screening and that, as a result, it would 
reduce the number of unknown individuals, alleviate much of the 
need for secondary screening and other checkpoint 
inconveniences and indignities and, most importantly, permit 
TSA resources to focus on the small percentage of travelers who 
are not frequent travelers and who do not voluntary submit 
adequate information to confirm identity.
    Sadly, as it is currently structured, the program may not 
provide any of the originally envisioned operational benefits 
to TSA, the airlines or the traveling public. Instead, it 
appears that we may have in our midst a program of questionable 
benefit.
    Today, we will hear from the perspectives of industry 
observers, outside experts and current program participants on 
problems of the current system and ways it could be made more 
effective. We will have a follow-up hearing next week with the 
Department of Homeland Security to discuss the issues raised 
here today.
    With that, I would like to thank our witnesses for 
appearing before us today. I look forward to hearing your 
perspectives on the Registered Traveler Program, and now I 
would recognize the ranking member of the full committee, Mr. 
Thompson of Mississippi, for any comments he might like to 
make.

     Prepared Opening Statement of the Honorable Daniel E. Lungren

                              June 9, 2005

    [Call hearing to order]
    I would like to welcome everyone today to a hearing of the 
Committee on Homeland Security Subcommittee on Economic Security, 
Infrastructure Protection, and Cybersecurity. This morning, we will 
focus on the Transportation Security Administration's (TSA) Registered 
Traveler program.
    The Registered Traveler (RT) program is an important initiative, 
which, when fully implemented, should improve both the effectiveness 
and efficiency of the TSA airport security screening process.
    RT will allow travelers who undergo background checks and submit 
themselves to biometric verification to go through expedited security 
screening procedures.
    Unfortunately, this program has not progressed as Congress had 
intended.
    I, along with many other Members of Congress, continue to be 
frustrated by the lack of apparent progress with the Registered 
Traveler program.
    Congress imagined the RT program as an additional layer of 
voluntary screening that would reduce the number of unknown 
individuals, alleviate much of the need for secondary screening and 
other checkpoint inconveniences and indignities, and ? most importantly 
? permit TSA resources to focus on the small percentage of travelers 
who are not frequent travelers and who do not voluntarily submit 
adequate information to confirm identity.
    Sadly, as it is currently structured, RT may not provide any of the 
originally envisioned operational benefits to TSA, the airlines, or the 
traveling public.
    Instead, TSA has created a program of questionable benefit.
    Today we will hear the perspectives of industry observers, outside 
experts, and current program participants on problems with the current 
system and ways it can be made more effective.
    We will have a follow up hearing next week with the Department of 
Homeland Security to discuss the issues raised here today.
    With that, I would like to thank our witnesses for appearing before 
us today. I look forward to hearing your perspectives on the Registered 
Traveler program.
    I now recognize the Ranking Member of the Subcommittee, Ms. 
Sanchez.

    Mr. Thompson. Thank you, Mr. Chairman. Thank you very much, 
Mr. Chairman.
    Like you, I look forward to the testimony of the panelists, 
and I look forward also to learning more about the Registered 
Traveler Program.
    Whichever airport I find myself in, I pretty much hear the 
same thing from my fellow travelers, ``There has to be a 
better, more efficient way to process passengers at the 
checkpoints.'' I, too, share their frustrations. I actually 
bought a special pair of shoes that the salesman told me were 
checkpoint friendly. I cannot say that they have been all too 
friendly to me. If you have ever gone out of National Airport, 
the first thing they tell you is take your shoes off, and, if 
you have had the frustration of asking why the policy exists, 
you get the extra check for asking the question.
    So maybe biometrics is the answer. I am not sure. But I 
look forward to it and the public will demand, that we come up 
with something. I am interested in the civil liberties aspect 
of whatever we do.
    We are now understanding that more and more people are 
traveling than they did before 9/11. What are we doing to move 
people along? What are we doing from a temporary standpoint of 
personnel, a number of issues that we tend to look at, Mr. 
Chair, but not really force the agency and others involved to 
do what they need to do so that the public is not 
inconvenienced, but they also are kept safe?
    So I look forward to the testimony, and I yield back the 
balance of the time.
    Mr. Lungren. I thank the gentleman for his comments. I want 
the gentleman to reflect the gentleman used the expression 
``fellow traveler,'' and I did not.
    Other members of the committee are reminded that opening 
statements may be submitted for the record.

    Prepared Opening Statement of the Honorable Christopher Cox, a 
Representative in Congress from the State of California, and Chairman, 
                      Homeland Security Committee

                              June 9, 2005

    Thank you Mr. Chairman.
    I am a strong supporter of the Registered Traveler concept. This 
program should be key to the Transportation Security Administration's 
efforts to return efficiency to airport security screening and minimize 
long waits at security checkpoints.
    Congress intended for TSA to use Registered Traveler as a risk 
management tool, whereby TSA could improve overall security by 
decreasing the pool of unknown travelers and focusing security 
resources on higher-risk passengers. It should be the first step 
towards applying a more rational process to screening air travelers. By 
some estimates, the eight million frequent flyers, roughly, 10 percent 
of all travelers, account for nearly half of all passenger trips, which 
means half of all checkpoint screening. This fact suggests that an 
optimally functioning, voluntary Registered Traveler program could 
enhance security, save money, improve efficiency, and reduce passenger 
frustration and inconvenience.
    Today's hearing will focus on whether the Registered Traveler 
Program is living up to the promise envisaged in the Aviation and 
Transportation Security Act. From reports to the Committee so far, the 
answer to this question appears to be a resounding ``no''.
    The current TSA pilots have been so limited and constricted in 
nature that they have provided few, if any, benefits to Registered 
Travelers--I know, because I am one of them--and have not even begun to 
really test the visionary potential of such a program. I was pleased to 
learn about the new structure for the most recent pilot program in 
Orlando--which will harness the capabilities of the private sector to 
provide a more flexible and innovative approach to registered travel--
and I look forward to hearing testimony today from Orlando and other 
program participants and experts on how we can quickly and securely 
expand Registered Traveler programs.
    Certainly, TSA needs to leverage the security gains from other DHS 
and Federal credentialing or security screening programs and apply them 
to Registered Traveler. It should take immediate action to include in 
Registered Traveler other categories of air travelers that have 
undergone an extensive background check or security clearance process 
(such as airline pilots, flight attendants, and government and military 
employees), which could safely expand this program to the point where 
it could produce real benefits to airports and airlines, and to the 
American taxpayer.
    Despite the difficulties faced so far, the concept behind 
Registered Traveler is quite simple--individuals who voluntarily submit 
personal background information, including biometric samples, 
successfully undergo security background checks, and who travel 
frequently without incident or raising any concerns should not be 
treated as though they were a potential terrorist in waiting. There 
should be streamlined security screening process at airport checkpoints 
and separate lanes for such travelers, in order to expedite their 
travel and reduce backlogs at the other checkpoints as well.
    Of course, there is some risk in this approach, but there is risk 
in our current approach, too. And the alternative is to continue to 
engage in an irrational and costly screening system that drains 
resources and attention from greater risks.
    Registered Traveler offers a step towards the kind of policy that 
TSA should be adopting--one that moves more and more blocks of 
travelers out of extensive checkpoint screening through the use of 
advance credentialing and biometric identification. If implemented as 
envisioned by Congress, Registered Traveler would enable TSA to focus 
on the fraction of travelers who are genuinely of interest.
    I would like to thank the witnesses for appearing today, and I look 
forward to hearing your perspective on this vital program and how we 
can work together to improve it.

    Mr. Lungren. We are pleased to have an expert panel of 
witnesses before us today on the important topic. Let me please 
remind the witnesses that their entire written statements will 
appear in the record, and we ask that you would strive to limit 
your oral testimony to the 5-minute time period allotted.
    The Chair would now recognize Mr. C. Stewart Verdery, Jr., 
principal, Mehlman Vogel Castagnetti, Inc., to testify.
    Sir?

STATEMENT OF C. STEWART VERDERY, JR., PRINCIPAL, MEHLMAN VOGEL 
                       CASTAGNETTI, INC.

    Mr. Verdery. Chairman Lungren and Ranking Member Thompson 
and members of the committee, I thank you for the opportunity 
to return to your committee to discuss the future of the 
Registered Traveler Program.
    I am currently a principal at the consulting firm Mehlman 
Vogel Castagnetti. I am also an adjunct fellow at the Center 
for Strategic and International Studies.
    As you know, I served as assistant secretary for border and 
transportation security policy and planning until my 
resignation from the Department of Homeland Security in March 
of this year. In that capacity, I was responsible for policy 
development for immigration and visas, cargo security, law 
enforcement, as well as transportation security that was 
normally handled in the field by TSA and Customs and Border 
Protection and other BTS agencies.
    Before discussing the specific topic of today's hearing, I 
would be remiss if I did not thank the committee for its 
excellent and extremely important efforts to support the 
department during my tenure.
    As Secretary Chertoff has discussed eloquently in recent 
months, the essential nature of homeland security is risk 
management. In nearly every area where the government has 
assumed the lead role in protecting the public from the 
possibility of a terrorist incident, our programs reflect a 
degree of risk management.
    In areas such as the vetting of foreign nationals for entry 
to our country, inspection of cargo, distribution of 
preparedness funds, many other areas, risk management, for 
better or for worse, is the best and only way to focus our 
immense, but ultimately limited resources on how to reduce the 
terrorist threat.
    However, for the prescreening and physical screening of 
aviation passengers, the government has not yet deployed an 
effective set of programs demonstrating a similar system of 
risk management. Anyone who has watched an elderly grandmother, 
a young child or the business road warrior who flies the same 
route every week go through the same checkpoint process as the 
rest of us can recognize this fact.
    Now the fledgling RT pilots that were mentioned underway 
should not be evaluated as a precursor to what a full-fledged 
program should look like. They were baby steps to ascertain 
public interest and develop operational experience with the use 
of biometrics in a busy airport setting. The pilots have been 
largely well managed and have met expectations, but nobody 
should be surprised if we are somewhat underwhelmed by a series 
of small and stovepipe pilots.
    I may be an atypical participant, but, since I was enrolled 
at Reagan Airport in RT and I have this card, I have flown 
about 50 times around the country, and I have used RT once, and 
that, unfortunately, is the fact when you have these small 
number of pilots.
    However, I am confident we are nearing a time when DHS, in 
partnership with the private sector and the traveling public, 
should be able to deploy new programs to bring a true measure 
of risk assessment to passenger screening. Indeed, the prior 
leadership of BTS was designing the expansion of RT, and that 
effort has now been folded under the larger departmental 
second-stage review underway at DHS.
    As an introductory point, it is not wise to review RT 
without considering how it should and could work in conjunction 
with the Secure Flight passenger prescreening program under 
development at DHS and the existing CAPPS program administered 
by air carriers.
    Secure Flight is designed to collect passenger name record 
information from air carriers about travelers to allow the 
government to take over the function of administering and 
enforcing the no-fly and terrorist watch lists.
    In addition, at least part of the existing CAPPS program 
that determines who is selected for secondary screening is 
likely to remain in place. Under this system, air carriers 
evaluate characteristics about the way tickets were purchased 
to differentiate between normal and elevated risk passengers.
    So, via Secure Flight and CAPPS, TSA and air carriers will 
be receiving small but important amounts of passenger 
information, things like name and date of birth and address, 
that could be utilized in various ways to conduct risk 
management, and it is crucial to remember that the information 
collection and vetting mechanisms we will employ that are key 
should be complementary with CAPPS and Secure Flight.
    Now, in my view, the ideal end state for RT would be an 
effective public-private partnership between the federal 
government, air carriers, airport authorities, contractors and 
profit-motivated program managers. Under no circumstances would 
I advise policymakers to attempt to execute a wholly 
federalized program or to hand over complete responsibility for 
RT to any private-sector entity.
    Instead, the private sector should be allowed to generate a 
variety of options to present the travelers to attract them 
initially to a home airport program with approved participants 
granted RT privileges at any and all TSA checkpoints that are 
operational in any other location. Such a model will allow the 
government to realize enhanced efficiencies at the checkpoint, 
freeing up screener resources to focus on less-known 
individuals, and will provide travelers willing to provide 
personal information with an improved airport and checkpoint 
experience and allow airports and air carriers and their 
partners opportunities to offer innovative and profit-based 
solutions.
    My written testimony details recommendations about these 
end-state principles, and I will just summarize a couple of 
them here.
    The government should provide the underlying decision as to 
the existence of derogatory information that would disqualify 
interested program participants from any expedited security 
procedure.
    Applicants would provide a full slate of 10 fingerprints to 
be run against the Terrorist Screening Center, IDENT and IAFIS.
    Populations being vetted by DHS for other purposes, such as 
HAZMAT drivers or International Registered Travelers or with 
current security clearances, should be also offered a chance to 
participate in RT.
    DHS should maintain a common database of RT enrollees to 
ensure that as enrollees in one location are cleared for 
participation, they are cross-enrolled in other locations.
    While amenities of an RT Program such as free parking or 
non-security measures may be attractive add-ons to the program, 
at its core, RT is and should be a security program and must 
reflect that principle at the checkpoint.
    Thus, TSA should be required to review the specific 
security measures taken at the checkpoint and ascertain which 
can be eliminated for RT participants, and some of these are 
things with jackets and shoes and how laptops are treated and 
how you present your documents and how they deal with minors 
and other people that might be traveling with you.
    Without demonstrable changes at the checkpoint to 
facilitate the transit of vetted individuals, RT will not 
succeed.
    Launching RT generally and operations related to particular 
airports and air carriers will require significant amounts of 
marketing and other activities that are better handled by the 
private sector. As has been demonstrated by the interest in 
Orlando that we will hear about later, there is no shortage of 
models to attract particular participants.
    For some flyers whose principal airport suffers from 
screening delays, merely offering the checkpoint procedure may 
be enough. In others, it may take the checkpoint changes plus 
airport or airline amenities.
    One sensitive issue relates to how participants are 
confirmed at the checkpoint. I envision a baseline procedure 
where RT participants should provide a single print to a 
fingerprint reader to assure a one-to-one match against the 
enrolled participant. The Smart Cards, including biometric, 
biographic information, may be useful to speed up that match, 
but only a real-time check of the individual's fingerprint can 
satisfy the one-to-many check that we need, and US-VISIT has 
provided an excellent real-world case study as to the 
feasibility of real-time use of biometrics.
    The cost of development and deploying RT should be borne 
across several sectors. Participants should pay a one-time base 
application fee to cover the cost to the government of their 
security review. Additional amounts should be added to reflect 
the non-security amenities offered by particular RT providers.
    In conclusion, RT is a program that shows great, but 
unfulfilled promise. With proper oversight and direction from 
DHS, the private sector should be unleashed to satisfy air 
travelers begging for a smarter approach to security.
    I thank you for the opportunity to appear and look forward 
to your questions.
    [The statement of Mr. Verdery follows:]

             Prepared Statement of C. Stewart Verdery, Jr.

                              INTRODUCTION

    Chairman Lungren and Ranking Member Sanchez, I thank you for the 
opportunity to return to your committee to discuss the future of the 
Registered Traveler (RT) program. I am currently a principal at the 
consulting firm Mehlman Vogel Castagnetti, Inc. I also serve as an 
Adjunct Fellow at the Center for Strategic and International Studies, 
although the views in this testimony are my own and do not represent 
CSIS which does not take policy positions.
    As you know, following confirmation by the Senate in 2003, I served 
as Assistant Secretary for Border and Transportation Security Policy 
and Planning until my resignation from the Department of Homeland 
Security in March of this year. In this capacity, I was responsible for 
policy development within the Border and Transportation Security 
Directorate, reporting to Under Secretary Asa Hutchinson and Secretary 
Tom Ridge. BTS was created to coordinate policy development and 
operational activities in the fields of immigration and visas, 
transportation security, law enforcement, and cargo security which 
largely were carried out in the field by BTS agencies--U.S. Customs and 
Border Protection, U.S. Immigration and Customs Enforcement, and the 
Transportation Security Administration.
    Before discussing the specific topics which are the subject of this 
important hearing, I would be remiss if I did not thank this Committee 
for its extremely important efforts to support DHS during my tenure at 
the Department. Among other accomplishments in this regard were the 
intelligence reform bill enacted last year, which included significant 
sections on border and transportation security, and day-to-day 
oversight of our activities which helped focus our priorities and 
responsiveness to the American people.
    As a last introductory point, to the extent that legitimate 
analysis finds fault with the transportation security measures 
implemented by DHS over the past two years, I accept my share of 
responsibility for those shortcomings. I am proud of the efforts the 
first leadership of the Department under Secretary Ridge. I strongly 
believe our initiatives have reduced the vulnerability of our country 
to terrorist attacks, but I also recognize that the country is still at 
the front end of a lengthy effort to craft policies and develop 
operational capabilities before we might be able to declare victory in 
this fight.

                               BACKGROUND

    As Secretary Chertoff has discussed eloquently in recent months, 
the essential nature of homeland security is risk management. In 
remarks to the George Washington University Homeland Security Policy 
Institute on March 16, the Secretary said: ``[W]e need to adopt a risk-
based approach in both our operations and our philosophy. Risk 
management is fundamental to managing the threat, while retaining our 
quality of life and living in freedom. Risk management must guide our 
decision-making as we examine how we can best organize to prevent, 
respond and recover from an attack.''
    Thus in nearly every area where the government has assumed a lead 
role in protecting the public from the possibility of a terrorist 
incident, our programs reflect a degree of risk management. In areas 
such as vetting of foreign nationals for entry to our county, for 
inspections of cargo, for distribution of preparedness funds, for 
development of next generation tools of anti-terrorism devices and 
services, and many others, risk management, for better or for worse, is 
the best way to focus our immense, but ultimately limited, resources on 
how to reduce the terrorist threat.
    However, for the prescreening and physical screening of aviation 
passengers, the government has not yet deployed an effective set of 
programs demonstrating a similar system of risk management. Anybody who 
has flown in the past several years and watched an elderly grandmother, 
young child, or the business ``road warrior'' who flies the same route 
every week undergo the same checkpoint procedure as the rest of us can 
recognize that we have not found a truly effective way to conduct risk 
management at the checkpoint.
    Following the tragic events of September 11, 2001, the Congress 
passed the Aviation and Transportation Security Act (ATSA) government 
which created the Transportation Security Administration and the new 
regime of federalized aviation security measures. This Act and 
subsequent statutory and regulatory mandates have established the legal 
framework which requires aviation passengers to undergo a series of 
prescreening and physical screening measures to identify potential 
terrorists and other persons who might threaten the safety of an 
aircraft or fellow passengers and to detect objects that might be 
utilized to endanger the aircraft or passengers or turn the aircraft 
itself into a weapon.
    Congress also realized that appropriate risk management suggested 
that TSA be allowed to develop innovative programs such as RT to 
fulfill both the security and facilitation missions of the agency. Thus 
TSA launched a series of five RT pilots in 2004, each with a single air 
carrier partnering with a single airport, with small numbers of 
enrollees selected for invitation by the air carrier from their 
frequent flyer membership lists. While the pilots have proved popular 
with the small number of enrollees, they have not yet blossomed into 
the more comprehensive program that the traveling public desires and 
that DHS should pursue. This result is largely due to the facts that 
even for enrollees the availability of RT is restricted to only a 
handful of gates at a particular airport and that the pilots were not 
interoperable.
    This result is not to point a finger at TSA or the vendors selected 
by TSA to assist the pilots as they have managed the program with a 
very small appropriation and under direction from DHS and BTS not to 
expand the pilots until a broader and cohesive program could be 
formulated. As the review process was underway last fall and winter, 
DHS was developing the proposed Screening Coordination and Operations 
office unveiled in the fiscal year 06 budget which would take ownership 
of RT. The process was further complicated by a necessary coordination 
with a proposed international RT pilot operating between the 
Netherlands and the United States. Finally, the transition in DHS 
leadership this winter, followed by Secretary Chertoff's valuable 
Second Stage Review, has halted further deployments until policy and 
structural decisions are made. It is worth noting that the existing 
pilots have provided valuable lessons about the public's interest in RT 
and the use of biometrics.
    However, we are nearing a time when DHS, in partnership with the 
private sector and the traveling public, should be able to deploy new 
programs to bring a true measure of risk management to passenger 
screening.

                     INTERACTION WITH SECURE FLIGHT

    While the subject of this hearing is the Registered Traveler 
program, it is not possible or wise to review RT without considering 
how RT should work in conjunction with the Secure Flight passenger 
prescreening program under development at DHS and the existing CAPPS 
program administered by air carriers. Secure Flight is the final 
version of the prescreening program formerly known as CAPPS II. Secure 
Flight is designed to collect passenger name record (PNR) information 
from air carriers about air travelers before boarding. The primary 
mission of the program is to have the government, via TSA, take over 
the mission of comparing passenger information against appropriate 
``no-fly'' and terrorist watchlists to ensure that such individuals are 
detected and not allowed to board aircraft or to ensure they undergo 
enhanced physical security checks in secondary processing. As part of 
the proposal, TSA has announced plans to test the viability of 
comparing passenger data to commercial data sources to resolve ``false 
positive'' hits arising from the no-fly and watchlist review. In prior 
versions of CAPPS II, TSA had proposed to compare available 
intelligence about threats to passenger information to develop a 
``risk'' score for each passenger to help steer screening resources to 
``unknown'' travelers.
    Meanwhile at least part of the existing CAPPS system to determine 
who is selected for secondary screening likely will remain in place. 
Under this system, air carriers evaluate characteristics about the way 
tickets were purchased to differentiate between normal and elevated 
risk passengers. While I anticipate that the classified criteria 
currently utilized in CAPPS will be reviewed and amended as Secure 
Flight becomes operational, it is important to remember that the 
information reviewed is solely based on the characteristics of the 
ticket transaction, not the individual purchasing the ticket.
    The key point of this discussion for this hearing is that via 
Secure Flight and CAPPS, TSA and air carriers will be receiving small 
but important amounts of passenger information--name, date of birth, 
address, etc--that can be utilized in various ways to conduct risk 
assessment. Under the currently announced implementation plan for 
Secure Flight, that information will only be utilized for the task of 
finding matches on the ``no-fly'' and terrorist watchlists and thus 
will be not used for any broader purpose. However, as the government 
looks at how to deploy RT, it is crucial to remember that the 
information collection and vetting mechanisms it employs may be 
duplicative in part with the existing CAPPS and proposed Secure Flight 
programs.

                REGISTERED TRAVELER: PROPOSED END STATE

    The ideal end state for Registered Traveler would be an effective 
public-private partnership between the federal government, air 
carriers, airport authorities, contractors, and profit-motivated 
program managers. Under no circumstances would I advise policymakers to 
attempt to execute either a wholly federalized program or to hand over 
complete responsibility to RT to any private sector entity or set of 
companies. Instead, the private sector should be allowed to generate a 
variety of options to present to travelers to attract them initially to 
a ``home'' airport program, with approved participants granted RT 
privileges at the TSA checkpoint in any other domestic RT location. 
Such a model will allow the government to realize enhanced efficiencies 
at the checkpoint, freeing up screener resources to focus on less 
known, less vetted travelers, will provide travelers willing to provide 
personal information with an improved airport and checkpoint 
experience, and allow airports, air carriers and their partners 
opportunities to offer innovative, profit-based solutions.
    I recommend that an end state RT program operate under the 
following principals:

Government Decides Eligibility
    The government's primary responsibility is to identify terrorists 
or others who should be denied access to flights or be subjected to 
enhanced physical scrutiny. The government, led by the TSC, maintains 
the database of terrorist lookout information and must provide the 
underlying decision as to the existence of derogatory information that 
should disqualify interested program participants from any expedited 
and streamlined security procedure. Applicants should provide a full 
slate of ten fingerprints so that DHS can screen applicants against 
names in the Terrorist Screening Center's Terrorist Screening Database 
(TSDB), DHS' IDENT system, and DOJ's IAFIS system and can screen 
applicants' biometrics against IDENT and IAFIS. Applicants should be 
refused whose biometric or biographic information indicate any indicia 
of connection to terrorism, prior felony conviction, or pending 
indictment or warrant for a felony. However, due to the small 
differential in screening procedures applied to RT enrollees compared 
to non-enrollees, enrollment in a RT program should normally not 
require an interview with a TSA or other DHS official.
    DHS should maintain a common database of RT enrollees to ensure 
that as enrollees from one location are cleared for participation, they 
are cross enrolled in other RT locations. Such a common database will 
also allow continual revetting of participants as new terrorist 
watchlist and criminal database information is added.
    In addition, because DHS will be privy to any disqualifying 
information about a particular applicant, redress procedures akin to 
those currently offered by TSA to the general public related to the 
``no-fly'' list should be offered to those who feel they were rejected 
for entry into RT by DHS. While participation in RT should be 
considered a privilege, not a right, American citizens deserve an 
opportunity to have law enforcement officials review potentially 
incorrect ``false positives'' before their ability to receive 
government benefits such as RT is jeopardized.
    Within DHS, I strongly support the creation of the proposed 
Screening Coordination & Operations Office which was designed by the 
Administration to harmonize how screening and vetting programs within 
the department are developed and operated. This office should be the 
focal point for the following RT responsibilities:

        * Promulgation of standards for eligibility for RT (i.e. what 
        constitutes disqualifying information or prior criminal 
        activity);
        * Promulgation of standards for cross-enrollment of other 
        vetted persons into RT;
        * Management of enrollee database;
        * Point of contact for private sector partners (airlines, 
        airports, marketers, consortiums);
        * Entrance point for applicant information and DHS portion of 
        fees collected from applicants; and
        * Interface with TSC to determine applicant eligibility.

Government Offers Reduced Screening
    While amenities of a RT program such as free parking or non-
security measures may be attractive add-ons to the program, at its core 
RT is a security program and must reflect that principle at the 
checkpoint. Thus, TSA should be required to review the specific 
security measures taken at the checkpoint and ascertain which can be 
eliminated for RT participants. The list of specific security measures 
which should be reviewed include: removal of jackets and shoes; 
treatment of electronic devices such as laptops; presentation of 
identification documents and boarding passes; the ability to be 
rescreened following an initial alarm; and the treatment of accompanied 
minors and other reduced risk populations. Without demonstrable changes 
at the checkpoint to facilitate the transit of vetted individuals and 
to shift the screening burden to less known travelers, RT will not 
succeed. Moreover, in an environment where the checkpoint procedure has 
not changed, the government should not be involved with the provision 
of non-security amenities to travelers.

Government Offers SAFETY Act Coverage
    For obvious reasons, it is absolutely critical that DHS quickly 
provide SAFETY Act coverage to any qualified RT program and its 
partners. So long as TSA controls the physical checkpoint and handles 
the vetting of enrollees, private sector entities should bear no risk 
for their participation in RT.

Marketing and Non-Security Aspects Should Be Handled by the Private 
Sector
    Launching RT generally and operations related to particular 
airports and air carriers will require significant amounts of 
marketing, advertising, branding and other activities that are better 
handled by the private sector. The government should not be in the 
business of deciding how potential applicants are to be approached or 
what non-security benefits are to be offered to participants. As has 
been demonstrated by the creativity of the private sector in responding 
to interest by the Orlando Airport to launch a privately-run RT pilot, 
including the teams headed by Verified Identity Pass and Lockheed 
Martin and by EDS and Unisys, there should be no shortage of models to 
attract potential participants. For some flyers whose principal airport 
suffers from routinely long screening delays, merely offering a 
streamlined checkpoint process may be sufficient to attract interest. 
For others, it may take the checkpoint changes plus an easier passage 
from one's arrival at the airport to the checkpoint including preferred 
or free parking or other airport amenities. For others, receiving perks 
from air carriers in areas such as preferred counter procedures, 
expedited baggage handling, access to lounges, or flight amenities such 
as upgrades or in-flight services may be attractive to add to the 
checkpoint improvements. It is entirely possible an entire menu of RT 
classes might develop with varying non-security amenities, but always 
built on the premise that a vetted individual can receive an enhanced 
checkpoint experience at any participating RT airport.

Domestic RT Should be Linked to International RT
    The same reasons that make domestic RT programs a smart idea apply 
in the international realm as well. U.S. Customs and Border Protection 
appropriately has been developing registered or trusted traveler 
programs for travel between the U.S. and Mexico, Canada, and Europe. 
While the overlay of the government's responsibility to screen incoming 
foreign visitors as to their eligibility to enter the U.S. adds 
additional dimensions to such programs, enrollees in any international 
RT program should be cross-enrolled in all domestic RT sites as well. 
Such a program to facilitate travel by international visitors may go a 
long way to dispelling the ``Fortress America'' perception that has 
developed unfortunately in many quarters of the globe. It will be 
especially important to harmonize CBP and TSA operations at major 
international gateway airports. DHS will need to provide a smooth 
travel and security experience for U.S. citizens and foreign visitors 
who are enrolled in the international RT and thus domestic RT program 
as they transition through U.S. customs and immigration processing onto 
a domestic flight.

Effective Use of Biometrics
    While a ten-print collection is appropriate for the application 
stage, RT participants appearing at the checkpoint should provide a 
single print to a fingerprint reader to ensure a one-to-one match 
against the enrolled participant. While program cards including 
biometric and biographic information may be useful for the other 
aspects of the RT program, including demonstrating that participants 
should be allowed access to designated lanes, the best one-to-one match 
should come directly from the individual at the checkpoint. US-VISIT 
has provided an excellent real world case study as to the feasibility 
of real-time use of biometrics and that model should be replicated if 
possible in RT. To the extent that operational testing indicates that a 
backup biometric is necessary to positively identify travelers, an iris 
or hand geometry biometric may be useful. I do not support a system 
based on a non-fingerprint biometric as a baseline biometric for the 
simple reason that our criminal and terrorist databases are 
fingerprint-based.

Airport Connectivity Is Required
    One of two major weaknesses of TSA's current RT program is a lack 
of real-time connectivity to the checkpoint to ensure that the latest 
terrorist and criminal information can be compared against 
participants. Building out connectivity to the checkpoint is an ongoing 
TSA priority and would provide assurances that the most accurate 
information is available to find enrollees who have been identified 
after enrollment as posing a threat. The US-VISIT system has 
demonstrated the value of this connectivity to our CBP ports of entry 
and a corollary system needs to be implemented by TSA. If such 
connectivity is not feasible at the time that RT is otherwise ready for 
deployment, manual updates to checkpoint kiosks may be sufficient as an 
interim measure.

Shared Costs
    The costs of developing and deploying RT should be borne across 
several sectors. Participants should pay a one-time base application 
fee to cover the costs to the government for their security review, 
probably in the $50 range. Additional amounts may added to the fee to 
reflect non-security amenities offered by particular RT providers. Fees 
should be collected by each ``host'' airport or their designee with 
appropriate amounts remitted to DHS for their expenses and other 
revenues distributed as negotiated among partners in each venture. In 
addition, for airports where checkpoint delays are a continual problem 
and where new lane construction is logistically feasible, private 
sector partners should be encouraged to use such fee revenues to build 
such designated lanes and/or to pay for dedicated TSA screeners.

Linkage to Other Vetting Programs
    DHS is operating a number of additional vetting programs, including 
hazardous material truck drivers, airport workers, and the TWIC program 
for other transportation workers. In addition, numerous government 
employees and contractors undergo vigorous security vetting as part of 
their clearances for access to sensitive facilities and/or information. 
In an effort to allow TSA to prioritize its screening attention against 
lesser known individuals, RT should be designed to allow individuals 
who have passed an equivalent measure of security review the 
opportunity to participate in RT.

                               CONCLUSION

    In conclusion, the Registered Traveler program continues to show 
great but unfilled promise. With proper oversight and direction from 
DHS based on risk management at the checkpoint, the private sector 
should be unleashed to provide air travelers begging for a smarter 
approach to security a range of options that meet the particular 
conditions at their airport. As is the case with all aspects of 
aviation security since September 11, 2001, both the burden and 
benefits of RT must be shared by the government, the private sector 
entities operating our complex aviation systems, and air travelers 
themselves.
    I congratulate the Committee and Subcommittee for its continued 
cooperation with and oversight of DHS and its component agencies. I 
thank you for the opportunity to appear before you today and look 
forward to your questions.

    Mr. Lungren. Thank you much, Mr. Verdery.
    The Chair would now recognize Mr. William Connors, the 
executive director of the National Business Travel Association, 
for 5 minutes.

  STATEMENT OF WILLIAM CONNORS, EXECUTIVE DIRECTOR, NATIONAL 
                  BUSINESS TRAVEL ASSOCIATION

    Mr. Connors. Good morning, Mr. Chairman, Ranking Member 
Thompson, distinguished members of the subcommittee.
    Mr. Chairman, let me open by bringing you greetings from 
our chapter in Sacramento. I spoke to the leadership of the 
Sacramento Business Travel Association yesterday, and they 
wanted me to convey their support for the Registered Traveler 
Program and also personal greetings to you, sir.
    Ladies and gentlemen, my name is Bill Connors, and I am the 
executive director and CLO of the National Business Travel 
Association. I come here representing the world's largest 
association of corporate travel managers and travel buyers.
    Our 2,500 members annually purchase more than $170 billion 
worth of travel services for their corporations. They purchase 
and manage the travel for a majority of the Fortune 1,000 
companies in this country, and, therefore, indirectly represent 
10s of millions of frequent business travelers.
    We are pleased that this subcommittee saw NBTA as an 
important contributor to this discussion on the Registered 
Traveler Program. For the past 3 years, we have been strong 
proponents of the program, and I thank you for including NBTA 
in this hearing.
    We have submitted our official testimony for the record, 
but I would like to add some personal observations, if I may.
    I am here not only as the spokesman for the National 
Business Travel Association, but also as a registered user of 
the system myself. I am a Registered Traveler here at Reagan 
National Airport, just like Stewart, and I would like to add I 
am a satisfied customer when I can, indeed, use the program.
    NBTA has participated in the launches of the pilot program 
at airports in Minneapolis, Boston and here at Reagan National. 
NBTA strongly supports the extension of the Registered Traveler 
Program far beyond the current limited pilot project.
    I would like to make seven quick points, if I might.
    Number one, NBTA has supported and will continue to support 
the expansion of the RT program, as long as it remains an opt-
in program and as long as it has dedicated security lines for 
participants and, finally, as long as safety and security 
concerns are first and foremost.
    Number two, although wait times at airports have improved, 
the hassle factor is still part of the business traveler's 
vocabulary. Forty-eight percent of our members still report 
that security hassles at airports are hurting the U.S. business 
travel climate and negatively impacting the healthy conduct of 
commerce in this country.
    Number three, in another NBTA study, 14.8 million business 
travelers reported that they would participate in a paid 
Registered Traveler Program. So there is, indeed, a demand for 
this product.
    Number four, our members indicate that corporations 
continue to increase their use of charter aircraft and 
corporate jets largely to avoid commercial travel hassles.
    Number five, providing dedicated lines for frequent 
business travelers will ease congestion in lines for all 
business travelers.
    Number six, NBTA is not opposed to efforts by the private 
sector to provide Registered Traveler services, like those 
being planned in Orlando, providing federal authorities oversee 
and sanction such programs.
    And, finally, number seven, NBTA would advocate that a 
private-sector advisory board be established to gather input on 
all issues related to travel security and travel facilitation, 
and we would be eager and willing participants in such an 
initiative.
    With that, Mr. Chairman, the National Business Travel 
Association applauds this subcommittee for bringing this issue 
to the people. Further, we applaud the members of the 
Department of Homeland Security and TSA for making our 
transportation system the safest and most convenient in the 
world.
    Thank you, Mr. Chairman.
    Thank you, members.
    [The statement of Mr. Connors follows:]

                   Prepared Statement of Bill Connors

    Good morning Mr. Chairman and Members of the Subcommittee, I am 
honored to testify before you today. I appreciate the opportunity to 
present the views and concerns of the customer at today's very 
important hearing on the Registered Traveler Program. My name is Bill 
Connors, and I am the Executive Director & COO of the National Business 
Travel Association (NBTA).
    The National Business Travel Association is the authoritative voice 
of the business travel community, representing more than 2,500 
corporate travel managers and travel service providers who collectively 
manage and direct more than $170 billion of expenditures within the 
business travel industry, primarily for Fortune 1000 companies.
    NBTA believes in strong, effective travel security that does not 
place unnecessary burdens on travelers. We believe that there are 
technological possibilities that would allow the more than 6 million 
frequent business travelers a more rapid screening process. As such, we 
have been a strong supporter of the Registered Traveler concept for 
over three years.
    NBTA has participated in the Registered Traveler openings at 
airports in Minneapolis, Boston and Washington, DC. In addition, I, 
myself, am a member of the Registered Traveler pilot program here at 
Reagan National Airport.
    We are currently experiencing a return of business travel to levels 
seen in 2000. The dip in business travel began with the downturn in the 
economy, and it was exacerbated by the terrorist attacks of September 
11, 2001 and other world events. The business travel slump continued 
into 2003, with security concerns and the ``hassle factor'' having 
negative impacts, along with economic conditions. We saw the beginnings 
of a recovery in 2003 and into 2004, and that recovery continues today.
    Concerns about safety/security, and the impact of security 
procedures on travel have changed booking patterns. For example, more 
companies are using corporate jets and charters than ever before. That 
trend continues today, for most companies, time and value issues are 
second only to safety concerns. In 2002, 26% of companies were using 
corporate jets and charters. In 2004, that number had grown to 33%, and 
a recent NBTA online poll indicates that trend continues.
    In another NBTA survey conducted in 2004, 48% of members stated 
that the security hassle at airports is a factor that is hurting the 
U.S. business travel climate. In another survey done jointly between 
NBTA and the Travel Industry Association released early in 2005, 53% of 
members stated that they would like to participate in a pay Registered 
Traveler program.
    It is therefore no surprise that business travelers and corporate 
travel managers are strong supporters of programs like Registered 
Traveler, which would speed the process at airports, and offer 
voluntary participation. Travel security can be both effective and 
efficient. Providing business travelers the option of strong, expedited 
screening will help make our businesses, our economy and our country 
even stronger.
    As I stated previously, NBTA has supported the Registered Traveler 
Program since the pilot program was rolled out, and we applaud the 
Department of Homeland Security, the Transportation Security 
Administration, and all of the airlines and airports involved in the 
Registered Traveler Pilot Program for their efforts to improve the 
security screening process. NBTA would also strongly encourage those 
who are responsible for managing this program to make it permanent and 
nationally available.
    NBTA is encouraged by expansion of the program to include a private 
sector option. The Known Passenger Program in Orlando will offer the 
first large-scale test of the Registered Traveler concept. If 
successful we encourage TSA to offer similar programs to travelers 
around the country as soon as possible, if the program proves to 
expedite the screening process while ensuring the security of the 
entire system.
    As a member of the Registered Traveler Pilot program here at Reagan 
National Airport, I can tell you from experience that the program is 
currently a welcome opportunity for registered users here in DC. Having 
used the system on several occasions myself here at Reagan airport, I 
have been a satisfied customer. It is hard to say how the program here 
at DCA has performed with limited participation, but based on my 
experiences, we would be happy to see the program expanded 
dramatically.
    I would like all of you to know, from the perspective of someone 
who hears from the business travel community daily, and is responsible 
for bringing their views to you here today, that it has been a good 
beginning. Now I would urge you, as quickly and efficiently as 
possible, to build on that foundation to enable every airport around 
the county to offer this service to its frequent travelers.
    It's time we allowed all and frequent travelers who wish to 
participate in the Registered Traveler Program to do so. We need to 
safely facilitate the healthy conduct of commerce in this county, which 
only serves to make our economy stronger, and our nation more secure.
    Thank you again for giving me the opportunity to come before you 
today and provide the views of the business travelers, corporate travel 
managers and travel service providers. The National Business Travel 
Association would be more than willing to serve in an advisory capacity 
on any and all issues related to passenger screening and the Registered 
Traveler Program. On a broader level, NBTA would recommend the 
establishment of an advisory group to liaise with all government 
agencies working to make our transportation system as efficient and 
safe as possible.
    Thank you.

    Mr. Lungren. Thank you, Mr. Connors.
    The Chair would now recognize Mr. Jim Harper, director of 
information policy studies at the CATO Institute.

    STATEMENT OF JIM HARPER, DIRECTOR OF INFORMATION POLICY 
                  STUDIES, THE CATO INSTITUTE

    Mr. Harper. Thank you, Chairman Lungren, Ranking Member 
Thompson, members of the subcommittee.
    I am pleased to be here to share my views with you about 
the Registered Traveler Program. I think you have a wide 
variety of important perspectives, and I appreciate being one 
of them today.
    At the CATO Institute, I study information policy, things 
like privacy, identification, surveillance, from a civil 
liberties and limited government perspective, and I have looked 
at Registered Traveler from that angle.
    From that perspective, it summarizes like this: The long 
delays and uncertainty at airports amount to a substantial tax 
on travelers' time when they seek to move about within the 
country. Registered Traveler seeks to lower the tax on their 
time using personal information. That is travelers spend 
personal information, spend privacy in order to get back their 
wasted time.
    Now consumers often give up privacy in exchange for 
convenience, so it is not a drop-dead proposal for that reason, 
but giving up privacy to government is a lot more consequential 
than giving up privacy to a private actor.
    There are a number of civil liberties concerns with 
Registered Traveler that I want to return to, but, first, I 
want to try to be a nice guy and pick out a feature of the 
Orlando version of Registered Traveler that I find fairly 
attractive.
    Orlando is slated to use a private company to manage the 
program and particularly to issue biometric cards. A privately 
issued identification card, I think, is a big deal because 
companies like Verified Identity Pass, which will issue the 
biometric card in Orlando, issue privacy policies, and these 
privacy policies are not just nice statements. These privacy 
policies are contracts, and they are subject to law.
    The Verified Identity Pass privacy policy says in 
particular--their contract says--that they will get rid of 
travel information within 24 to 48 hours and maintain it only 
at the airport during that time.
    That is an important anti-surveillance feature that I think 
is one we need to understand and look at because the 
homogeneous identification systems that are growing in this 
country, uniform identification systems, like the state-issued 
driver's license, in the future digital age are more and more 
going to be a surveillance tool, useful both to the public 
sector and the private sector.
    So the use of a privately issued identification card is a 
step towards an essential heterogeneous identification system 
in the United States, and I think it is very important to have 
that kind of thing to preserve the freedom and civil liberties 
that we all enjoy.
    Now picking out this one good element of Registered 
Traveler will certainly raise hackles among my friends in the 
privacy advocate community, so let me be clear that privately 
issued IDs are not a panacea, they do not solve all the civil 
liberties concerns with Registered Traveler or with data 
collection in general, and Registered Traveler does have a 
number of substantial concerns that go with it.
    One is the inequity of using the Transportation Security 
Agency to help segregate travelers, the general public from 
preferred travelers who sign up for the Registered Traveler 
Program. I think it is unseemly at least to have government 
authorities dividing people up along these lines.
    Under its current iteration, the Registered Traveler 
Program offers users no redress whatsoever. There is no due 
process, no responsibility for fairness. There may be redress 
procedures in the future, but they need to be robust.
    Privacy Act protections do not apply to Registered Traveler 
at the current time. These are some of the few insufficient 
protections that Americans have when governments collect 
information about them. That should be resolved.
    Most importantly, I think, the voluntariness of the 
Registered Traveler Program cannot be guaranteed--cannot be 
guaranteed--because none of us know the future, and a 
government program under some unfortunate circumstance in the 
future could be expanded quite quickly into a mandatory 
program.
    Now everybody is searching for common sense, of course. Let 
me put forward some common sense so strong that it hurts. The 
fundamental problem that brings about these civil liberties 
concerns is the provision of federal law enforcement to a 
private industry, to the private air transportation industry.
    I understand completely the emotional and political 
justification for having federal authorities serve as security 
guards for airlines, but this is a massive in-kind subsidy that 
may not bring us the best possible security.
    For more than 30 years, responsibility for airline security 
has been mixed between the government and the private sector. 
In fact, it was on September 11, 1970, that President Richard 
Nixon announced a large expansion of federal involvement in air 
security based on hijackings in the Middle East.
    Unclear lines of authority tend to degrade results, and we 
should ask if it is really best to have so-called public-
private partnerships responsible for security where the 
accountable parties are never certain.
    To summarize, I think the Registered Traveler Program is a 
little bit like putting a strawberry on liver and onions. It is 
meant well, we are working to improve it, but it does not make 
the overall package welcome. Registered Traveler is not 
something I would sign up for and it is not something I would 
recommend, but I certainly appreciate the effort to improve our 
Transportation Security System.
    Thank you.
    [The statement of Mr. Harper follows:]

                    Prepared Statement of Jim Harper

    Chairman Lungren, Ranking Member Sanchez, and Members of the 
Subcommittee--
    Thank you for examining the Registered Traveler program through 
today's hearing. I appreciate the opportunity to share my views with 
you.
    I am Director of Information Policy Studies at The Cato Institute. 
The Cato Institute promotes fundamental American principles of limited 
government, individual liberty, free markets, and peace. The 
Jeffersonian philosophy that animates Cato is often called 
``libertarianism'' or ``market liberalism.'' It combines an 
appreciation for entrepreneurship, the market process, and lower taxes 
with strict respect for civil liberties, and skepticism about the 
benefits of both the welfare state and foreign military adventurism.
    At Cato, I study, write, and speak about the difficult challenges 
of adapting law and policy to the unique problems of the Information 
Age. My areas of study include privacy, data security, identification, 
surveillance, and cybersecurity, as well as intellectual property, 
telecommunications, and Internet governance.
    I am also the Editor of Privacilla.org, a Web-based think-tank 
devoted exclusively to privacy. On the Privacilla site, there are 
hundreds of pages of material about privacy, including book reviews and 
discussions of privacy fundamentals, privacy from government, and 
topics such as online privacy, financial privacy, and medical privacy.
    Recently, I was appointed by the Secretary of the Department of 
Homeland Security to serve as a member of the Department's Data Privacy 
and Integrity Advisory Committee. This group is constituted to advise 
the Secretary and the DHS Chief Privacy Officer on programmatic, 
policy, operational, administrative, and technological issues within 
DHS that affect individual privacy, as well as data integrity, data 
interoperability and other privacy-related issues.
    The Privacy Advisory Committee will have its second meeting in 
Boston next week. We are only beginning our work and deliberations so 
nothing in my testimony, oral or written, reflects the views of the 
Privacy Advisory Committee or any other member of the Committee. I am 
confident, however, that the Privacy Advisory Committee appreciates the 
attention being paid us by Members of Congress. Mr. Thompson, the 
Ranking Member of the full Homeland Security Committee and an ex-
officio Member of this Subcommittee, was good enough to come speak to 
our first meeting in early April, as did Mr. Cannon of Utah, who serves 
on the Judiciary and Government Reform Committees.
    I am currently writing a book on identification called Identity 
Crisis: How Identification is Overused and Misunderstood. It is slated 
for publication early next year and will address many of the issues in 
current airline security programs on at least a theoretical level.
    In my testimony below, I have first done what I can to highlight 
the good elements of the Registered Traveler program. I have many 
reservations about Registered Traveler, which I address second. My deep 
misgivings about the entire system that Registered Traveler tries to 
fix come last, but please consider these equally as carefully. Their 
position at the end of my testimony should not suggest that they are my 
least important contribution. Indeed, they are probably the most 
important.
    Though I am highly concerned with, and critical of, our current 
approach to airline security, I acknowledge without reservation that 
the people working on these policies at the Department of Homeland 
Security and the Transportation Security Administration do so in good 
faith, with the best interests of our country, its people, and our 
tradition of freedom in their hearts.

Registered Traveler Summarized
    Like the beneficent motives of the people at DHS and TSA, there is 
no doubt about the good intentions behind the Registered Traveler 
program. Some relief from the uncertainty and delay for travelers at 
airports is certainly in order. Anything that will restore our air 
transportation system to better functioning is a welcome effort.
    Registered Traveler amounts to the following ``deal'' for air 
travelers: If you submit information to the government and pass a 
background investigation (also paying a fee in some cases), you will be 
given slightly less inspection, on average, at airport checkpoints. 
Registered Travelers will generally have their own lines at checkpoints 
and will not be subject to random secondary screening and other 
security measures in place for the general population.
    Stated in different terms, the program works like this: Airport 
checkpoints now amount to a tax on travelers' in two ways: in 
travelers' time and in their privacy/anonymity. Users of Registered 
Traveler will pay a privacy/anonymity fee by handing information over 
to the government (the fee, paid in lost privacy, is higher than the 
tax, because more personal information is used), and a cash fee in some 
cases. In return, less of their time will be taxed away through waiting 
in lines at airports.\1\
---------------------------------------------------------------------------
    \1\ The plans of Verified Identity Pass, Inc., at the Orlando, 
Florida, airport are discussed in detail below. According to the 
Washington Post, the company expects to have 3.3 million customers for 
its ``Clear'' Registered Traveler identification card within six years 
at annual memberships fees of $100. This estimate holds that far in 
excess of 330 million dollars worth of consumer time each year is 
wasted by the wait times and uncertainty of wait times at airports.
---------------------------------------------------------------------------
    People often trade privacy for convenience which is why some 
estimates of American travelers' participation are relatively high. 
Though there are many reasons for concern, there are interesting 
potential benefits from a version of Registered Traveler slated to 
begin soon in Orlando, Florida.

The Innovative Orlando Version: Privately Issued Identification
    The Orlando version of Registered Traveler includes what I think is 
a fascinating and welcome innovation: the use of a privately issued 
identification card. The Greater Orlando Airport Authority has entered 
into an agreement with a private identification card issuer called 
Verified Identity Pass, Inc. This company will market, issue, and 
operate Orlando's Registered Traveler card under the brand name 
``Clear.''
    Clear will collect information from applicants for Registered 
Traveler, including fingerprints and iris images. These are highly 
accurate biometric identifiers that machines can read fairly well 
today. It will forward applicants' personal information to the TSA so 
that the TSA can investigate the applicants. (As discussed below, 
conditioning travel on government investigation is not OK, but my focus 
in this section is what is good in Registered Traveler.) Once the 
applicant has been approved by the TSA, the Clear card can be used to 
access airport concourses.
    At the airport, the Clear member will place the card in a reader 
and allow his or her finger or iris to be scanned. The scan will be 
compared to the biometric information embedded in the card using an 
algorithm designed for matching these biometrics. Meanwhile, a unique 
identifier on the card will be compared to a database of members' 
identifiers. If the card information matches the person carrying it, 
and if the card identifier is on the list of approved cards, the Clear 
member will continue through the expedited Registered Traveler line.

Privately Issued Identification Cards are Good
    Reading the privacy policy on the Verified Identity Pass Web site 
illustrates why privately issued identification is superior. It is for 
a reason that might be surprising: because the Verified Identity Pass 
privacy policy is a contract. It gives Clear members enforceable legal 
rights and it gives potential applicants information that they can rely 
on when deciding whether to use it. A private identification issuer 
like the Clear program submits itself to enforceable contractual terms 
and commits itself to future actions consistent with its contract.
    Neither of these things is true of government privacy policies or 
the Privacy Act notices published routinely in the Federal Register. 
Privacy Act notices can be changed merely by a new publication. 
Congress and Federal agencies can change the privacy commitments they 
have made, denying recourse to citizens, because these government 
entities are lawmakers not law subjects.
    A program like the Orlando Registered Traveler, operated as it is 
by a private identification card issuer, can be much more protective of 
privacy than a government operated program, about which future privacy 
consequences cannot be predicted. And, as I discuss below, the Clear 
program is more protective of travel information than the government 
programs we have seen.
    For years, the American Association of Motor Vehicle Administrators 
has been trying to build the role of Departments of Motor Vehicles in 
American life and commerce. They are among a small few who seem to 
recognize that identification is an important and useful economic and 
social tool. AAMVA and the DMV bureaucrats they represent are seeking 
to use the power of government to perpetuate the happenstance--the mere 
historical accident--that the most common and recognized identification 
services are provided by governments. It does not have to be this way, 
and it should not be this way.

Uniform Identification Systems Are Bad
    In my forthcoming book, I summarize and build on the work of many 
scholars and advocates who have shown that uniform identification 
systems have significant negative consequences for important interests 
that Americans cherish, both as citizens and as consumers.
    Uniform identification systems enable surveillance by both public 
and private entities. They are a tool that undermines the privacy and 
obscurity people enjoy every day. That is, governments use uniform 
identification to watch and record the movements and actions of 
citizens, often contrary to their interests. Likewise, companies and 
marketers watch and study consumers. This is usually done for the 
purpose of improving customer service, product design, marketing, and 
so on, but many people object to it. They are free to do so and would 
be better able to prevent such monitoring if there were more choice 
among different identification systems.
    Exacerbating the problem, the existence of uniform identification 
systems makes it easier for more institutions to demand identification 
than otherwise would. Most consumers accede to requests for 
identification when they check into hotels, enter buildings, and so on 
because it is easier to do so than to ask why or to refuse. For this 
reason, identification is becoming overused. It is often not actually 
necessary or useful for a transaction, but it gets added for marginal-
to-nonexistent security reasons, or to create the impression of 
security. This kind of identification allows further surveillance. All 
private surveillance creates data that, in the current legal 
environment, government authorities may readily seize.
    Uniform identification systems expose consumers and citizens to 
significant dangers. Our national identifier, the Social Security 
Number, and traditional second identifiers like the mother's maiden 
name are used too often by too many institutions. This makes identity 
fraud easier and more profitable. It means that a fraud on one 
identification system can multiply and by used in many systems, 
including security systems. If each institution used distinct 
identification mechanisms, identity fraud would drop in number and in 
both cost and consequence. (This measure is not without costs itself, 
of course.)
    Likewise, uniform identification systems expose citizens to the 
risk of official confiscation. Currently, access to more and more 
goods, services, and infrastructure is being made contingent on showing 
a single identification, the driver'S license. With this trend, there 
is an increasing risk that authorities may--legally or illegally--take 
away identification documents, effectively depriving people of their 
ability to function in society.
    Most totalitarian governments in history have used uniform 
identification systems as a powerful administrative tool. 
Totalitarianism does not arise because of uniform identification, but 
uniform identification systems help totalitarian governments be that 
way. We are better off, and our freedom stands on stronger footing, if 
we have heterogeneous identification systems, including things like the 
Clear identification card.
    Privately issued identification cards like the Clear card slated 
for use in Orlando will help create the heterogeneous identification 
system that we need in the United States. Though not entirely 
sufficient--not by a long shot--diversity of identification systems is 
one bulwark of liberty that will pay Americans enormous dividends in 
freedom and autonomy during the rapidly advancing digital age.
    Private identification systems can put people, as both consumers 
and citizens, in a better position to control information about 
themselves. The alternative is massive, uncontrolled information 
sharing and data pooling that empowers governments and corporations 
over individuals.

Clear Under the Microscope
    I have sung the praises of private identification cards like Clear, 
noting particularly that they are subject to law rather than the whim 
of lawmakers. This does not mean they are flawless. Along with some 
particular benefits, there are potential drawbacks to the Clear 
identification system, particularly in its interaction with the TSA 
program.
    Foremost, the Clear system appears designed for resistance to 
surveillance of travelers' movements. This is an attractive feature, 
laid out in the privacy policy as a firm contract with members. 
Specifically, Verified Identity Pass tells us:
        For purposes of real-time maintenance and customer support 
        (e.g., if your card doesn't work, we need to be able to run 
        tests to understand why), we will maintain ``log files'' of 
        entrances to local venues. However, we keep such records only 
        at that location, we purge these records automatically every 
        24-48 hours, and we have designed our network so that neither 
        Verified ID nor its subcontractors, including Lockheed Martin 
        Corporation, can track and record Members' activities from 
        location to location.
    Assuming the Clear system works as stated--and if it does not 
Verified Identity Pass is on the hook for deceiving its customers--this 
is a tremendous anti-surveillance feature that has never been seen in 
government operated programs.
    To the extent they revealed information in their Privacy Act 
notices, programs like CAPPS II and Secure Flight have been ambiguous 
about how long they would maintain information about Americans' travels 
in their records. Indeed, the Privacy Act notice for the Registered 
Traveler pilot, covering TSA's portion of the program, says that data 
will be retained ``in accordance with a schedule to be approved by the 
National Archives and Records Administration.'' This is both perfectly 
ambiguous and subject to change by a subsequent Federal Register 
notice, whether or not participants in Registered Traveler might 
object.
    Clear's contractual promise to use a surveillance-resistant data 
destruction policy is a major improvement over the alternatives we have 
seen so far.
    Clear's system is not unambiguously good. I note that they collect 
and store digital images of applicants' fingerprints and irises, 
apparently passing those on to the TSA as well. The data used to 
compare a Clear member with biometric data on a Clear card is not an 
image of the biometric itself but a sort of mathematical description of 
the biometric. Keeping a copy of fingerprint and iris images themselves 
may expose Clear members to future high-tech iterations of identity 
fraud if Verified Identity Pass' systems or TSA's systems are hacked or 
otherwise compromised. There is no obvious rationale for saving images 
of these biometrics or for sharing copies with the TSA.
    Another concern is an apparent conflict between different sections 
of the Verified Identity Pass privacy policy. In section 5, it says it 
will comply with valid subpoenas, court orders, or other legal 
processes that require sharing of Member information with others. This 
suggests, without stating clearly enough, that it will share 
information only in these cases. In section 8(C), the policy says that 
Verified Identity Pass will share information ``[i]f the government 
asks us'' in cases when a member is removed from TSA's list of approved 
Registered Travelers. Loose wording in these two sections combine to 
create flimsy privacy protections against government entities for users 
of the Clear card.
    Of greatest concern, of course, Clear passes identity and 
background information to the TSA, which is subject to none of the 
obligations in the Clear privacy policy. This problem arises from, and 
inheres in, government-provided security programs, discussed in detail 
below.
    It is not for me to decide whether Clear provides adequate privacy-
protective terms to prospective members. Privacy advocates, a watchdog 
press, the exposure brought by this Subcommittee's hearing, and many 
other actors and events will shape whether this product meets with the 
acceptance of consumers. Happily, though, these questions will be 
decided in a marketplace, where consumers have choices, as opposed to a 
government process where they do not.
    Next, I will discuss how this marketplace can be improved.

Avoid Picking Winners and Losers
    Too often with government programs and regulations, winners and 
losers are chosen through superior lobbying or luck rather than the 
merits of how well they serve consumers. In at least two respects, 
Registered Traveler, and the Orlando version of it, can be improved so 
that competition forces providers to serve consumers better.
    Below, I will discuss the relatively large expense of Registered 
Traveler and Clear cards, particularly for people who travel rarely. 
This could create the impression of inequity--a class system--that 
carries the apparent approval and backing of the TSA. I have written 
above about concerns with the privacy terms offered by Verified 
Identity Pass to Clear users, though they are generally good. 
Competition can both lower the price and broaden the appeal of 
Registered Traveler, and potentially improve the privacy protections in 
private identification systems like Clear.
    Registered Traveler should operate using uniform, neutral, and 
published (though, of course, secure) standards and protocols for 
biometric algorithms and for communication between cards and readers. 
This would enable other identification card issuers to enter the 
market, competing to serve Orlando customers and travelers at other 
airports as they come into the program. Uniform standards and protocols 
would also allow the identification cards used for Registered Traveler 
to be used in other settings such as office buildings.
    Under the monopoly granted by the Orlando airport authority, 
Verified Identity Pass appears positioned to collect a relative 
windfall of $80 to $100 per customer per year, according to reports and 
the company's Web site, just for issuing the Clear card. (Some of this 
may go to the TSA to pay for investigations.) In the face of 
competition among identification card issuers, the price to the Orlando 
air traveler could drop quickly. Competitive identification card 
issuers would also likely pick at each others' privacy and anti-
surveillance offerings and try to cater better to consumers' concerns, 
to the extent the TSA's terms allow them to do so.
    Imagining further what might happen in a competitive environment, 
airlines might offer branded Registered Traveler cards to their 
customers for free to build loyalty. They may group cards with other 
concierge services for their best travelers. This is fine for private 
companies to do, though not for the government to affiliate itself with 
(as discussed below). Other card issuers may seek the low end of the 
market and offer Registered Traveler cards as inexpensively as possible 
to the occasional vacation traveler.
    There is a wide array of possibilities and I cannot predict how the 
market for identification services would take shape. None of these 
beneficial practices would overcome the deep flaws in the current 
government-provided air security system discussed below. The background 
investigations done by the TSA could and should also be competitively 
provided based on full permission from travelers. But, so long as this 
system exists, there are potential benefits to consumers and to society 
as a whole from a private identification market. These benefits should 
be harvested.
    Likewise, if it expands Registered Traveler, TSA should offer the 
programs to airports based on neutral standards rather than superior 
lobbying and relationships. It should expand into markets rather than 
airports, so that one airport in a market is not given competitive 
advantage over another.
    People often confuse free-market advocacy like mine with pro-
business advocacy. In fact, unhampered markets are very tough on 
businesses because they force businesses into sharp competition with 
one another to serve consumers. Subjecting the identification business 
to competition will help ensure that it is attractive to consumers and 
oriented to serve their interests, including privacy. Doing whatever is 
possible to prevent distortion of competition among airports should 
also be a goal of Registered Traveler.
    Registered Traveler has some merits--in particular, the use of a 
privately issued identification card. It has plenty of demerits that 
must be considered as well.
Problems with Registered Traveler
    Having sought the good from Registered Traveler, I now turn to the 
bad. There a variety of problems that attach to the program, some of 
which have been alluded to above. It is difficult to intermingle the 
government and private sector as closely as Registered Traveler does. 
In the final sections of my testimony I argue against that entire 
approach. What follows here is a discussion of several issues that 
arise from that policy as it manifests itself in Registered Traveler.

Inequity
    Users of the Registered Traveler system to date have been invitees 
of the airlines and regular business travelers much more than average 
or occasional flyers. It appears that Registered Traveler will 
ultimately be funded by fees, and the version of Registered Traveler 
being adopted in Orlando will be based on an $80 annual fee. In light 
of the fees and inconvenience of joining the program, Registered 
Traveler will probably not be used by occasional travelers and 
travelers of limited means. Thus, Registered Traveler will have all the 
hallmarks of a benefit reserved for the wealthy.
    It is discomforting that TSA agents will be actively involved in, 
and associated with, segregating ``preferred'' passengers from 
everybody else in the flying public. Airlines should be free to segment 
their customers, of course, and business travelers are certainly a 
valuable segment, but Registered Traveler appears likely to put the 
government's imprimatur on these divisions.
    According to the Washington Post, Verified Identity Pass, the 
company that will be providing Clear cards for Orlando, will share 29% 
of the revenue with the airport authority and as much as 22.5% in 
succeeding years, as well as 2.5% of Clear's future nationwide revenue. 
This puts the airport authority in a position to benefit from moving 
travelers from the regular line into Registered Traveler.
    The easiest way to do this is to maintain consistent long lines for 
non-Registered Travelers. Eliminating wait times and uncertainty for 
the general public would reduce the attraction of the Registered 
Traveler program and the airport could lose Clear revenues by doing so.
    At the least, the Orlando airport's incentive structure will be 
clouded by this arrangement. The incentives created by the arrangement 
between Clear and the Orlando airport authority may exacerbate long 
lines and the sense of inequity created by the Registered Traveler 
program, a sense that will be inextricably linked to the TSA and U.S. 
government.
    If airline security were handled by airlines themselves, of course, 
this problem would disappear. Some airlines specifically target the 
business segment and others target the low-fare traveler. Each could 
customize their security programs to meet the tastes and demands of 
their customers.

Fairness, Due Process, and Privacy
    According to the Privacy Impact Assessment for the Registered 
Traveler program's pilot phase, applicants for the Registered Traveler 
program who are denied will not be given the opportunity to appeal or 
have other redress. As the program expands, a significant number of 
people may be unable to participate in Registered Traveler.
    If the system goes forward without a full-fledged redress 
procedure, this will be at least unfair to many people. When government 
action affects property or important liberty interests, this triggers 
the requirements of the constitution's Due Process clause. Given the 
long-recognized liberty interest in travel, it is likely that denying 
people the right to participate in the Registered Traveler program 
without appeal or redress will violate Due Process. Attempting to 
participate in the program, but being denied, may mark a traveler for 
future difficulties when he or she attempts to fly.
    This would be equally true in the Orlando version of the program, 
in which a private company would collect personal information from 
applicants, forward it to the government for the investigation, and 
deny an application based on the government findings. The interposition 
of a private company does not affect the constitutionality or fairness 
of denying applications without recourse.
    There are many other interests that Registered Traveler denies to 
volunteers. Indeed, in a Federal Register notice published just 
yesterday, TSA exempted the system from many protections of the Privacy 
Act, including the right to an accounting of disclosures, the right to 
access one's records, and the requirement that information in a 
traveler's file be relevant and necessary to the TSA's statutory 
purpose.
    Volunteers for the Registered Traveler program may be seeking 
better treatment at airports, but they may end up getting substantially 
worse treatment by their government.

Voluntariness
    Speaking of volunteering, the Registered Traveler brochure on the 
Transportation Security Administration's Web site calls participation 
in the program ``completely voluntary.'' This is true at the present 
time, of course, and nobody intends for Registered Traveler to be 
mandatory--just like no one intended the Social Security Number to be 
used for identification.
    No one can predict the future and no one--lawmaker, bureaucrat, or 
seer--can say for certain that the Registered Traveler program would 
never become mandatory. Indeed, there is good reason to object to the 
program in its entirety simply because it builds a traveler 
surveillance infrastructure and conditions people to accept government 
investigation as a prerequisite for traveling within the United States. 
After some future attack on the United States with significant loss of 
life, Registered Traveler may quickly be extended in any number of 
directions and made mandatory--without regard to its real utility in 
terrorism prevention.
    In addition to the possibility that registration might be mandated 
directly in the future, the ``voluntariness'' of Registered Traveler 
can be eroded by maintaining consistently bad, slow service in the non-
Registered Traveler lines at airports. As discussed above, the Orlando 
airport will have mixed incentives under its arrangement with Verified 
Identity Pass. Were airports and the Transportation Security 
Administration to continually maintain sub-standard service in the 
standard passenger lanes, Registered Traveler could remain voluntary in 
the technical since while becoming practically mandatory if a traveler 
actually wants to get somewhere on an airplane.
    The risk that Registered Traveler could become mandatory is grave.
    Registered Traveler has some merits that I have featured above. A 
number of problems with the program exist. They are rooted in the 
provision of air security to the airlines by the government. This 
premise is a deep and fundamental flaw that I have reserved to the 
latter part of my testimony.

Providing Government Security Services to Private Industry is Error
    Though I have done my best, the Registered Traveler program can not 
be discussed in isolation. The program is intimately bound up with the 
provision of government security services to the airline industry, at 
taxpayer expense. It is also premised on the existence of government 
checkpoints that condition Americans' access to travel, an important 
and long-recognized liberty interest. To travel by airplane today, one 
must submit to seizure and search by government officials and one must 
show identification to government officials as well.
    Though there are plenty of emotional and political justifications 
for it, there is no principled security-based or economic rationale for 
it. Putting government in the private security business opens the door 
to substantial incursions on civil liberties, which are occurring at 
airports daily.
    The instinct to bring the full weight of the government into 
securing air travel is understandable. Attacks on air transportation 
have often had political motivations. The first recorded attack, in May 
1930, saw Peruvian revolutionaries seizing a Pan American mail plane 
with the aim of dropping propaganda leaflets over Lima.
    Hijackings and other terrorist acts often spur knee-jerk, and often 
wasteful or misdirected, responses. In that sense, terrorists often 
succeed at injuring their targets even when the direct effects of their 
actions may be small.
    Because it is so important to understand this, I have attached to 
my testimony an article from the Fall, 2004 issue of Regulation 
magazine called ``A False Sense of Insecurity?'' In it, Ohio State 
University national security expert John Mueller shows that leadership 
in the fight against terror involves informing the public of the real 
risks from terrorist acts rather than just catering to public fears.
    The rash of hijackings to and from Cuba in the late 1960's had 
obvious political motivations and consequences. A spate of eight 
hijackings in January 1969 brought the Federal Aviation Administration 
into the air security business with the creation of the Task Force on 
the Deterrence of Air Piracy. The Task Force developed a hijacker 
``profile'' to be used along with magnetometers to screen passengers.
    In the first few days of September 1970, two American planes, a 
Swiss plane, and a British plane were hijacked and destroyed with 
explosives on the ground in Jordan and Cairo. The perpetrators in the 
Popular Front for the Liberation of Palestine had an obvious political 
motive. They elicited a super-prompt response in the United States 
which was very unlikely to have been carefully calculated for optimal 
terrorism suppression. On September 11, 1970, just days after these 
bombings, President Richard Nixon rushed out a comprehensive anti-
hijacking program that included a Federal marshal program. Since then, 
the Federal Government has had its hand in airline security, mandating 
various security practices and supplying guards at taxpayer expense to 
commercial passenger airlines.
    The attacks of September 11, 2001--thirty-one years to the day from 
President Nixon's move to bring the government into commercial air 
security--horrified all Americans and filled us with anger and dread. 
Congress reacted to the provocation with natural protectiveness. The 
Aviation and Transportation Security Act, signed into law a little more 
than two months after the attacks, increased the government's role in 
airline security even further.
    This politically appealing response was not necessarily the best. 
Had the lines of authority for transportation security never been 
blurred by Federal Government involvement, the al-Qa`ida killers 
planning the 9/11 attacks might have faced a heterogeneous and 
unpredictable security system operated by multiple airlines, each one 
motivated by the fact that their continuing operations relied on 
keeping their passengers safe and secure.
    This is not to say that airlines with full responsibility for 
security would have had perfect anti-terror records or even would have 
defeated the 9/11 plot. The weaponization of planes--a destructive 
technique not seen since the kamikaze attacks by Japanese forces in 
World War II--was a risk that no institution, public or private, seems 
to have considered. At best, though, the responsibility for airline 
security was mixed on 9/11. Unclear responsibility tends to degrade 
results.
    The situation got worse with the airline bail-out, creation of the 
victims' compensation fund, and creation of the Transportation Security 
Agency. These steps have contributed to ``moral hazard'' (in the 
lexicon of insurance economics) around terrorism prevention: Decision-
makers in the companies that control most of America's important 
infrastructure have seen that failing to protect themselves from 
terrorist threats may result in substantial immediate subsidies, 
release from liability, and an ongoing government subsidy of their 
security operations. The fate that the airlines ``suffered'' after 9/11 
was a substantial infusion of various kinds of corporate welfare.

Airport Checkpoints and Identification Requirements Are Suspect
    With good intentions and for good reasons, the Registered Traveler 
program seeks to overcome flaws in the Transportation Security 
Administration's screening program. But it addresses only a narrow part 
of one flaw: the substantial time delay for travelers. There are many 
others.
    Foremost, TSA screening areas are government checkpoints that may 
be unconstitutional and that are certainly defective policy. When 
government officials stop and inspect citizens and their belongings, 
these are Fourth Amendment searches and seizures which, according to 
the terms of that Amendment, must be reasonable.
    Two lines of Supreme Court cases are relevant. In one line (Terry 
v. Ohio), authorities have some level of suspicion about particular 
people that they have stopped. This is clearly not applicable to TSA 
checkpoints at which government officials stop and search everyone. The 
other line addresses checkpoints--in which everyone passing through a 
particular area is seized, if briefly, based on no particular suspicion 
whatsoever.
    The most recent case, Indianapolis v. Edmond (2000), struck down a 
checkpoint set up for general law enforcement purposes. The Supreme 
Court specifically declined to decide whether its decision applied to 
airports or government buildings.
    The future case that addresses checkpoints at long-distance 
transportation centers will have high stakes on both sides if it 
squarely addresses whether exercising the liberty to travel can be 
conditioned by government officials on submitting to search and 
seizure. If suspicionless searches and seizures at airports are 
reasonable under the Fourth Amendment because of the substantial danger 
to the public involved, this limitless rationale will validate 
checkpoints wherever some gross crime could or does occur: shopping 
malls, tunnels, factories, subways and so on. This is a roadmap for 
terrorists who wish to sap our economic strength and the vitality of 
our free people.
    Overlaying these issues is the question of government-mandated 
identification at checkpoints. The recent Hiibel case which validated 
the requirement that someone tell an officer his or her name tracks to 
the Terry v. Ohio Fourth Amendment cases because the subject in that 
case was under suspicion. Suspicionless identification requirements 
have not been tested in the courts. A prominent case called Gilmore v. 
Gonzales pending in the Ninth Circuit may reveal what law or 
regulation, if any, actually requires the showing of identification at 
TSA checkpoints, and whether such a law is constitutional.
    The constitutional questions about checkpoints and government-
mandated identification underscore important policy questions that 
deserve careful, rational consideration. The Fourth Amendment is a 
constitutional rule, but also a sensible policy guideline. Searching 
the 99.99% of Americans who are 110% in support of the United States 
against the terrorists may be a waste of resources and time. These 
resources might be better devoted to far more selective and 
particularized searching, developing human intelligence, following 
leads, and tracking down genuine suspects of crime, terrorism, and 
related conspiracies.
    The theory of identification-based security has significant flaws. 
People tend to believe that knowing who a person is reduces that person 
as a threat. This is true in normal life because in normal life people 
who are known can be held accountable. Terrorists are not accountable, 
however. They are willing to die. Capturing the identity of all who 
would board an airplane does nothing to thwart committed terrorists. 
Checking identification may prop up the mistaken feeling the general 
public has of being safer sitting next to someone who the government 
has ``checked out.'' It is disrespectful folly to deceive the American 
people this way.
    Checking identification for the purpose of comparing air travelers 
to lists of suspects or no-flyers is also deeply flawed and unlikely to 
interdict committed terrorist groups. An MIT study called ``Carnival 
Booth: An Algorithm for Defeating the Computer-Assisted Passenger 
Screening System,'' has shown that terrorists can defeat screening 
programs. By traveling multiple times before carrying out an attack, 
terrorists can determine whether or not they are subject to special 
screening. Those who are not subject to screening can be assigned to 
act. Again, this brittle security policy provides a roadmap to 
terrorists.
    If terror suspects are known, watch lists are analogous to placing 
wanted posters in Post Offices--and then waiting for the criminals to 
go to the Post Office. True terror suspects should be sought out, 
investigated, arrested, and prosecuted. Non-suspects should be free to 
travel.
    Identification can have some role in suppressing the risks of 
terrorist attacks. There is probably a close, but imperfect inverse 
correlation between ``depth'' in the community--children, family, 
ownership, liberal education, etc.--and propensity to terrorism. 
Identification and investigation can reveal such background, but people 
have consistently rejected the background checks envisioned for CAPPS 
II and Secure Flight. Background checking should be a consensual 
service, provided by airports and airlines. Because the correlation is 
imperfect, of course, securing infrastructure against tools and methods 
of attack will always be needed. Searching for weapons or bombs should 
probably remain a part of the security practice in commercial aviation 
for the indefinite future.
    This all presumes that weaponization of a plane remains a risk. It 
does not. Hardened cockpit doors have driven that risk down 
substantially. In fact, that risk was virtually eliminated by 9:57 a.m. 
on the morning of September 11, 2001. That was the time that the 
passengers on United 93 attacked the cockpit. They realized that the 
airline security system had failed them and cooperating with the 
hijackers would not save them. Indeed, it would take the lives of 
others. These passengers at least ensured that their flight would not 
be used as a giant bomb like the others. No joy comes from recounting 
this event, but it does illustrate the better result when security is 
provided by interested parties with a real stake in the outcome.
    To do airline security best, it should be done by the airlines 
themselves, in ways that they find to best protect their, and their 
passengers', interests. They are the ones who have something on the 
line. In case that is a subject of doubt: no air carrier is insurable 
post-9/11, and thus no air carrier is operable, if it does not take 
precautions fully sufficient for the risks to passenger aviation we all 
now recognize.
    Likewise, in a fully private system, every major investigative news 
operation would be poring over airline security and sneaking dangerous 
items onto planes so that they could report on airlines' failings. The 
threat this publicity would bring to passenger levels and revenues 
would put airlines in a security frenzy. Airline security would be 
better and more creatively tested by the nation's enterprising 
reporters under a private system than it is today in the monolithic 
government systems we are limping along with. The strongest tools our 
society has to fight terror are still lying on the ground, unused.
    Airlines are not subject to constitutional limitations like the 
Fourth Amendment. Were airline security restored to private hands, the 
airlines could condition travel on search, identification, or whatever 
other measure they thought would protect their airplanes and 
passengers. They would implement these security practices in ways that 
nest with and balance passenger comfort and privacy, good customer 
service, profitability and all the other interests that businesses must 
serve in order to survive. Each passenger, informed by our watchdog 
press, could choose the airline which he or she believed to be most 
secure.
    Despite my deep reservations about the current stance of airline 
security, I have endeavored to constructively highlight what is good 
and bad about the Registered Traveler program. The emergence of a 
privately issued identification system, subject to contractual 
obligations that protect privacy and resist travel surveillance, is a 
welcome innovation. Whether it will appeal to the public is an open 
question that has many facets. And whether Registered Traveler will or 
should survive is another question. Probably, it should go away as 
airlines retake responsibility for a security role that is properly 
theirs. 
[GRAPHIC] [TIFF OMITTED] 23847.001

[GRAPHIC] [TIFF OMITTED] 23847.002

[GRAPHIC] [TIFF OMITTED] 23847.003

[GRAPHIC] [TIFF OMITTED] 23847.004

[GRAPHIC] [TIFF OMITTED] 23847.005


    Mr. Lungren. Thank you, Mr. Harper.
    The Chair now recognizes Ms. Bridgette Goersch, the 
director of security at the Greater Orlando Aviation Authority.

 STATEMENT OF BRIGITTE GOERSCH, DIRECTOR OF SECURITY, GREATER 
                   ORLANDO AVIATION AUTHORITY

    Ms. Goersch. Chairman Lungren, Ranking Member Thompson and 
distinguished members of the House Committee on Homeland 
Security Subcommittee on Economic Security, Infrastructure 
Protection and Cybersecurity, the Greater Orlando Aviation 
Authority--the authority--greatly appreciates the opportunity 
to submit testimony on the promise of Registered Traveler. We 
respectfully appreciate your subcommittee's interest and 
support of the Registered Traveler Program.
    Orlando National Airport operated by the Greater Orlando 
Aviation Authority is the fourth largest origin and destination 
airport in the United States, with a commitment to excellence 
and customer service, as Florida's busiest airport with over 31 
million passengers annually. Orlando was recognized recently by 
J.D. Powers and Associates as the number one airport for 
customer service in North America and number two in the world 
behind Hong Kong.
    We are honored to have been approached by the 
Transportation Security Administration, TSA, to initiate a 
pilot program exploring the feasibility of a private-sector 
Registered Traveler concept. This program will provide 
convenient, efficient and speedy access to the security 
screening process for Registered Travelers. It is distinguished 
from TSA's Registered Traveler Pilot Programs currently in 
place at five airports across the country in that it divides 
responsibility for implementation between the airport and TSA.
    Under the program, TSA has responsibility for standards, 
security and screening oversight for all aspects of the 
program. The airport's responsibilities incorporate the concept 
of private-sector partnership to market, operate and maintain 
the program consistent with TSA guidelines. The program is 
funded and sustained by the private-sector users. The benefits 
of the program are improved throughput at the checkpoint and a 
predictable travel time schedule for passengers, allowing TSA 
to focus their resources.
    After completing a memorandum of understanding with the 
Transportation Security Administration, the authority initiated 
a request for a proposal process to select a service provider 
partner. The board selected the Verified Identity Pass-Lockheed 
Martin team on June 1, 2005.
    We anticipate beginning enrollments for Registered Traveler 
Program participants by the end of June with actual operations 
beginning mid-July. The pilot program is to operate at Orlando 
for a period of 6 to 12 months. It is the intent to seek TSA 
approval to extend the pilot project into a permanent 
nationwide program with ability to use at many of our country's 
airports.
    The design of the Registered Traveler Program at Orlando 
embodies three principles: enhance security, encourage commerce 
and, three, protect the privacy of passengers' information. A 
key feature of the Orlando Registered Traveler Program is that 
it will be open to all travelers on all air carriers departing 
Orlando International Airport.
    A check-in kiosk will be located at our security 
checkpoints for Registered Travelers to present their card for 
biometric verification and expedited access to security 
screening. The card will be a Smart Card with an embedded 
computer chip allowing the storage of information, and I have a 
card here for each of you to share with you today.
    In order to enroll, an applicant submits two forms of U.S. 
government-issued identification, provides personal and 
biometric information in the form of fingerprints and iris 
scans, and consents to a government security threat assessment. 
Successful applicants will be issued their official enrollment 
card by mail.
    A unique feature of using biometric identifiers in this 
program is that the card can only be used by the Registered 
Traveler as fingerprints and irises are unique to each 
individual. The key elements to success of the Registered 
Traveler Program are focused on privacy concerns and 
demonstration of real benefits.
    Our service provider found in initial surveys that the 
number one concern of passengers as it related to Registered 
Traveler is privacy. We have taken an aggressive approach in 
partnership with our service provider to emphasize the 
protection of information.
    The aviation community is very supportive of the Registered 
Traveler Program, if real benefits can be demonstrated. These 
real benefits include use at multiple airports, dedicated lines 
for security screening and certain exemptions for additional 
security screening.
    In addition, this program could be a venue to accelerate 
the operational testing of new technologies at Registered 
Traveler lanes, adding real benefits while improving security 
processes.
    By expediting the passengers' screening process for those 
enrolled in the program, it should help ease possible 
congestion at the security checkpoints for all travelers. We 
respectfully request your support and look forward to exploring 
and integrating these concepts with TSA at Orlando 
International Airport.
    In closing, we remain steadfast in our commitment and 
purpose to assist our nation in its mission to protect our 
borders and homeland while enabling safe, efficient and timely 
movement of passengers and commerce. Travel is one of our most 
important freedoms. The ability for all citizens to travel 
safely and efficiently is all of our responsibility.
    The Registered Traveler Program reinforces Orlando 
International Airport's commitment to excellence in customer 
service. I, as a representative of the authority, want to 
express my gratitude for the opportunity to present this 
testimony to your subcommittee today. We look forward to 
working with you in building the Registered Traveler Program to 
benefit the traveling public, and I would be happy to answer 
any questions you have.
    [The statement of Mr. Goersch follows:]

             Prepared Statement of Brigitte Rivera Goersch

    Chairman Lungren and distinguished members of the House Committee 
on Homeland Security, Subcommittee on Economic Security, Infrastucture 
Protection, and Cybersecurity:
    The Greater Orlando Aviation Authority (``the Authority'') greatly 
appreciates the opportunity to submit written testimony on ``The 
Promise of Registered Traveler.'' The Authority remains a steadfast 
partner in ensuring the highest standards of public safety and security 
of our homeland and deeply appreciates the leadership and efforts put 
forth by you and your Subcommittee to advance this mission.
    The Authority respectfully appreciates your Subcommittee's interest 
and support of the Registered Traveler Program.

I. Registered Traveler Private Sector Program Background
    Orlando International Airport, operated by the Greater Orlando 
Aviation Authority, is the 4th largest origin and destination airport 
in the United States with a commitment to excellence in customer 
service as Florida's busiest airport with over 31.1 million passengers 
in 2004. Orlando was recently recognized by J.D. Powers and Associates 
as the number one airport for customer service in North America and 
number two in the world behind Hong Kong. We are honored to have been 
approached by the Transportation Security Administration (TSA) to 
initiate a pilot program exploring the feasibility of a private sector 
registered traveler concept.
    This program will provide convenient, efficient, and speedy access 
to the security screening process for registered travelers. It is 
distinguished from TSA's Registered Traveler pilot programs, currently 
in place at five airports across the country, in that it divides 
responsibility for implementation between the airport and TSA. Under 
the program, TSA has responsibility for standards, security, and 
screening oversight for all aspects of the program, including the 
completion of security threat assessments and control of checkpoint 
operations. The airport's responsibilities incorporate the concept of 
the private sector partner to design, construct, market, operate and 
maintain the program, consistent with TSA guidelines. The program is 
funded and sustained by the private sector users. The benefit of the 
program, as capacity returns to the airways, is improved throughput at 
the checkpoint, for passengers a predictable travel time schedule, and 
allowing TSA to focus resources.
    In February 2005, the Authority executed a Memorandum of 
Understanding with the TSA. The Authority initiated a request for 
proposal process to select a Service Provider partner. The Authority 
Board approved the selection of the Verified Identity Pass, Inc./
Lockheed Martin Team on June 1, 2005. We anticipate beginning 
enrollments for Registered Traveler program participants by the end of 
June with actual operations beginning mid July. The pilot program is to 
be operated at Orlando International for a period of six to twelve 
months. It is the intent to seek TSA approval to extend the pilot 
project into a permanent nationwide program with ability to use at many 
of our airports.

II. The Program at Orlando International Airport
    The design of the Registered Traveler Program embodies three 
principles: 1. Enhance security; 2. Encourage commerce, and 3. Protect 
the privacy of passengers information. The components of the program 
are security assessment, enhanced technology using biometric 
identifiers, faster throughput at the checkpoint and ultimately, 
customer satisfaction.
    A key feature of the Orlando Registered Traveler Program is that it 
will be open to all travelers on all air carriers departing Orlando 
International Airport. A check-in kiosk will be located at our security 
checkpoints for Registered Travelers to present their card for 
biometric verification and expedited access to security screening. The 
card will be a ``smart'' card with an embedded computer chip allowing 
the storage of information. In order to enroll, an applicant submits 
two forms of U.S. government issued identification, provides personal 
and biometric information in the form of fingerprints and iris scans 
and consents to a government security threat assessment. Successful 
applicants will be issued their official enrollment card by mail. A 
unique feature of using biometric identifiers in this program is that 
the card can only be used by the Registered Traveler as fingerprints 
and iris' are unique to each individual.

III. Challenges of the Private Sector Registered Traveler Program
    The key elements to success of the Registered Traveler Program are 
focused on privacy concerns and demonstration of real benefits. Our 
service provider found in initial surveys that the number one concern 
of passengers, as it related to Registered Traveler, is privacy. We 
have taken an aggressive approach in partnership with our service 
provider to emphasize the protection of information.
    The aviation community is very supportive of the Registered 
Traveler Program, if real benefits can be demonstrated. These real 
benefits include use at multiple airports, dedicated lines for security 
screening, certain exemptions for additional security screening, such 
as allowing coats and shoes to remain on and laptops to stay in carry-
on luggage. In addition, this program could be a venue to accelerate 
the operational testing of new technologies at Registered Travelers 
lanes, adding real benefits while improving security processes. By 
expediting the passenger screening process for those enrolled in the 
program, it should help to ease possible congestion at the security 
checkpoint for all travelers. We respectfully request your support and 
look forward to exploring and integrating these concepts with TSA at 
Orlando International Airport.

IV. Closing
    Orlando International Airport remains steadfast in its commitment 
and purpose to assist our nation in its mission to protect our borders 
and homeland while enabling safe, efficient and timely movement of 
passengers and commerce. The Registered Traveler Program reinforces 
Orlando International Airport's commitment to excellence in customer 
service.
    Travel is one of our most important freedoms. The ability for all 
citizens to travel safely and efficiently is all of our responsibility. 
The Registered Traveler Program facilitates that right through the 
enhancement of security, the encouragement of commerce and the 
protection of passengers privacy.
    I, as a representative of the Authority, want to express my 
gratitude for the opportunity to present this testimony to your 
Subcommittee. We look forward to working with you in building the 
Registered Traveler Program to benefit the traveling public.

    Mr. Lungren. Thank you very much for your testimony.
    The Chair will now recognize Mr. Robert Isom, the senior 
vice president for customer service at Northwest Airlines.

 STATEMENT OF ROBERT ISOM, SENIOR VICE PRESIDENT FOR CUSTOMER 
               SERVICE, NORTHWEST AIRLINES, INC.

    Mr. Isom. Chairman Lungren, Ranking Member Thompson and 
distinguished members of the subcommittee, thank you for the 
opportunity to present today.
    My name is Robert Isom. I am senior vice president for 
customer service at Northwest Airlines.
    Northwest has long been an advocate for the Registered 
Traveler concept. So, today, it is with some disappointment 
that I have to say that we have some real concerns about the 
state of the program, and we question whether the program 
should even be continued.
    The key objective of the Registered Traveler Program as 
originally envisioned was to find a way to provide the 
necessary level of security for our passengers, while 
simultaneously trying to make the passenger security checkpoint 
screening process as simple and quick as possible for as many 
passengers as possible.
    Working with both Congress and the administration, 
Northwest believed the Registered Traveler Program would 
produce net benefits for everyone. Passengers would enjoy 
quicker movement from curbside to the gate; the TSA would be 
able to allocate its screener personnel and equipment and 
financial resources more efficiently, concentrating more 
heavily on the areas of potential greater risk; and carriers 
like Northwest would benefit from our passengers being able to 
go through airport screening faster, resulting in an improved 
travel experience.
    Of course, Northwest's assessment of the cost and benefits 
of the Registered Traveler Program were based on two important 
assumptions: first, that this program would be run by the U.S. 
government; and, second, that travelers who committed to the 
program, paid their processing fees and successfully passed the 
background checks would receive some benefit in exchange as 
they went through the airport checkpoints at each airport.
    Both of these assumptions are called into question today. 
It has been proposed that the role of the U.S. government in 
this security endeavor be diminished and that the Registered 
Traveler Program be operated going forward as a form of public 
and private partnership, with a very large portion of the 
program and funding decisions being made by private companies 
rather than the government.
    The private companies are seeking to turn the security 
program into a for-profit business opportunity. Meanwhile, 
there are currently no screening benefits provided to the 
Registered Travelers, though we understand that TSA still is 
actively pursuing this.
    Northwest is particularly concerned by some of the 
proposals that have been made on how Registered Traveler might 
attract travelers into the program by offering them ancillary 
services, rather than simply providing a more efficient 
checkpoint experience.
    For example, it has been proposed that prospective 
Registered Travelers be enticed with offers of new airport 
lounge areas, new valet parking services, new preferred 
automobile parking areas, new discounts at airport stores and 
restaurants, new tie-ins with products offered by financial 
services companies, discounted magazine subscriptions.
    Northwest believes that it would be a mistake to let the 
Registered Traveler Security Program be transformed into a club 
membership organization like this.
    The purpose of these enticements, we are told, is to 
convince travelers to sign up for the program, and at least one 
private company has proposed that fees for joining the 
Registered Traveler Program to get these benefits be started at 
$80 and moved up to $100 over the next couple of years, with 
any background check fees to be charged by the TSA added on top 
of those amounts.
    Northwest believes it would be a mistake to allow vendors 
proposing these ancillary benefits and services to skew public 
policy debate on this matter by offering substantial financial 
paybacks to airports and others that agree to retain their 
services.
    The Greater Orlando Aviation Authority, for example, just 
last week accepted the proposal of a vender team that promises 
to give the authority a cut of between 18 percent and 29 
percent of Registered Travelers' enrollment fees depending on 
how the fee is calculated and, on top of that, 2-1/2 percent of 
all revenues received from other airports.
    The vendors propose to do all of this while also offering 
revenue shares to credit card companies, trade associations and 
other affinity groups. The traveler, on the other hand, does 
not receive any benefit in terms of screening. There are no new 
security lines. The travelers will still have to remove shoes, 
laptops from their bags, coats and so on.
    This sort of financial model for the Registered Traveler 
Program is unacceptable. Registered Traveler was supposed to be 
a program that enhances domestic homeland security. Northwest 
is still committed to the original purpose behind the 
Registered Traveler Program, but this program is and must 
remain a security program. The program must generate real 
benefits on its own rather than rely on the sale of ancillary 
benefits to entice travelers to register.
    If the Registered Traveler Program does not remain a 
security program or is not financially sustainable on its own, 
it should be discontinued so the U.S. government's resources 
can be redirected to other important efforts to facilitate 
passenger movement through airport screening lanes as well as 
to enhance the overall quality of security provided to our 
passengers.
    Thank you again for the opportunity to present our views to 
the subcommittee. I would be happy to answer any questions you 
might have.
    [The statement of Mr. Isom follows:]

                  Prepared Statement of Robert D. Isom

    Chairman Lungren, Ranking Member Sanchez, and distinguished members 
of the Subcommittee, thank you for the opportunity to testify here 
today. My name is Robert Isom, and I am Senior Vice President for 
Customer Service at Northwest Airlines.
    Northwest Airlines has long been an advocate for the Registered 
Traveler concept. So today, it is with some disappointment that I have 
to say we have some real concerns about the current state of the 
program, and we question whether the program should even be continued.
    The key objective of the Registered Traveler program, as originally 
envisioned, was to find a way to provide the necessary level of 
security for our passengers while simultaneously trying to make the 
passenger security checkpoint screening process as simple and quick as 
possible for as many passengers as possible. Working both with Congress 
and the Administration, Northwest believed that the Registered Traveler 
program would produce net benefits for everyone. Passengers would enjoy 
quicker movement from curbside to their gate. The Transportation 
Security Administration would be able to allocate its screener 
personnel, equipment, and financial resources more efficiently, 
concentrating more heavily on the areas of potentially greater risk, 
and carriers like Northwest would benefit from our passengers being 
able to go through airport screening faster, resulting in an improved 
travel experience.
    Of course, Northwest's assessment of the costs and benefits of the 
Registered Traveler program were based on two important assumptions. 
First, that this security program would be run by the U.S. Government. 
And second, that the travelers who committed to the program, paid their 
processing fees, and successfully passed the background check process 
would receive some benefit in exchange, as they went through the 
checkpoints at each airport.
    Both of these assumptions are called into question today.
    It has been proposed that the role of the U.S. Government in this 
security endeavor be diminished and that the Registered Traveler 
program be operated going forward as a form of public-private 
partnership, with a very large portion of the program and funding 
decisions being made by private companies rather than the Government. 
The private companies are seeking to turn this security program into a 
for-profit business opportunity. Meanwhile, there are currently no 
screening benefits provided to the registered travelers, though we 
understand TSA is still actively pursuing this.
    Northwest is particularly concerned by some of the proposals that 
have been made on how Registered Traveler might attract travelers into 
the program by offering them ancillary services, rather than simply 
providing a more efficient airport checkpoint screening experience. For 
example, it has been proposed that prospective registered travelers be 
enticed with offers of:
        <bullet> New airport lounge areas.
        <bullet> New valet parking services.
        <bullet> New preferred automobile parking areas.
        <bullet> New discounts at airport stores and restaurants.
        <bullet> New tie-ins with products offered by financial 
        services companies.
        <bullet> Discounted magazine subscriptions.
    The purpose of these enticements, we are told, is to convince 
travelers to sign up for the program. And at least one private company 
has proposed that fees for joining the Registered Traveler program to 
get these benefits be started at $80 and moved up to $100 over the next 
two years, with any background check fees to be charged by TSA being 
added on top of these amounts.
    Northwest believes that it would be a mistake to let the Registered 
Traveler security program be transformed into a club membership 
organization like this.
    Northwest also believes that it would be a mistake to allow the 
vendors proposing these sorts of ancillary services to skew the public 
policy debate on this matter by offering substantial financial paybacks 
to the airports and others that agree to retain their services. The 
Greater Orlando Aviation Authority, for example, just last week 
accepted the proposal of a vendor team that promises to give the 
Authority a cut of:
        <bullet> 23-29% of the registered travelers' enrollment fees 
        (depending on how the fee is calculated) for the first 30,000 
        who register at Orlando. And 18-22.5% of the enrollment fees 
        for subsequent enrollees there.
        <bullet> 2.5% for all enrollment and renewal revenues that the 
        vendors receive from registered travelers at airports other 
        than Orlando.
    And the vendors propose to do all of this, while also offering 
revenue shares to credit card companies, trade associations, and other 
affinity groups that can be persuaded to solicit their members and 
customers to join Orlando's registered traveler program! The traveler 
on the other hand does not receive a benefit in terms of screening. 
There are no new security lines, so as more people sign up, the 
registered traveler line is just as long as the non-registered traveler 
line. There is no change in procedure while going through the line that 
we are aware of. Travelers will still have to remove shoes, laptops, 
coats, etc.
    This sort of financial model for the Registered Traveler program is 
unacceptable. Registered Traveler was supposed to be a program that 
enhances domestic homeland security.
    Northwest Airlines is still committed to the original purpose 
behind the Registered Traveler program. But this program is, and must 
remain, a security program. The program also must generate real 
benefits on its own rather than rely on the sale of ancillary benefits 
to entice travelers to register. If the Registered Traveler program 
does not remain a security program or is not financially sustainable on 
its own, it should be discontinued so the U.S. Government's resources 
can be redirected to other important efforts to facilitate passenger 
movement through airport screening lanes, as well as to enhance the 
overall quality of security provided to our passengers.
    Thank you again for the opportunity to present Northwest's views to 
your Subcommittee. I would be happy to answer any questions that you 
might have.

    Mr. Lungren. I thank you very much.
    And I thank all the witnesses on the panel for their 
testimony.
    At this time, I will recognize myself for 5 minutes to 
start the questioning, following which members will be 
recognized in their order of appearance at the time that we 
started.
    Mr. Connors, you heard Mr. Isom talk about some of the 
suggested perks that would be provided to travelers. It strikes 
me, as one who is a frequent traveler, that I do not care about 
all that stuff. All I want to do is move through.
    I want security, obviously. This program hopefully will 
enhance security, but, if all it did was maintain the level of 
security we had, but actually provided a more rapid movement 
through for all, as you suggest would happen if you had this 
program for some, I would be pleased.
    From the surveys you have from your organization, does it 
appear that is what people are looking for? Are they looking 
for all these perks?
    Mr. Connors. That is exactly what they are looking for, Mr. 
Chairman, and, if you look at our organization, our 
organization represents big corporations, and one of the 
considerations when they send their travelers out on the road 
is: Are our travelers, are my employees going to be productive?
    If they can save an hour or a half an hour in an airport 
and do not have to show up at that airport two hours in advance 
and perhaps if they are in this program only show up 30 minutes 
in advance, then that is productivity for the corporation, that 
is productivity for that person who is on the road.
    So, yes, I think the number one concern of our members and 
the members that they represent, the actual travelers, is 
getting through that checkpoint quickly.
    Mr. Lungren. Mr. Isom, you were describing perks that were 
being identified by certain vendors who were proposing to do 
this?
    Mr. Isom. Yes.
    Mr. Lungren. Ms. Goersch, is that what is contemplated at 
Orlando?
    Ms. Goersch. Not at this time. There are no additional 
features contemplated in the program other than expedited 
security screening process.
    Mr. Lungren. Mr. Verdery, I realize you no longer represent 
TSA, so I am not going to try to hold you to where they are 
now, but, hopefully, you can give us some guidance.
    You mentioned that there ought to be several different 
programs you thought that could work in concert to assist in 
this, and yet you keep referring to the CAPPS program. When I 
ask TSA, ``Why does a 2-year-old granddaughter of mine get a 
secondary search?'' they say, ``Well, that is part of the old 
program.''
    When I say, ``How come members of Congress who, by the very 
nature of our job, often change our purchases and we purchase 
through an organization that is obviously identified as selling 
to members of Congress, get secondary searches?'' I am not 
asking us to be treated specially.
    What I am trying to say is does that make any sense 
whatsoever? When you ask this question, the answer is, ``Well, 
that is part of CAPPS.'' You just have to realize until we do 
something else, it is going to continue to be.
    Is CAPPS something that is sort of hermetically sealed such 
that no changes can be made until such time as, you know, we 
break the seal?
    Mr. Verdery. No, CAPPS, again, is different than CAPPS II, 
which was the old prescreening program that has now been 
morphed into Secure Flight. CAPPS is still running, run by the 
carriers, and it has criteria--I believe they are technically 
classified, but they are well known in many cases--that put 
people in secondary screening.
    They have been changed, and my understanding is that they 
will undergo a thorough review with probably lots of changes as 
Secure Flight is unveiled and begins operations, but that parts 
of CAPPS will continue to exist.
    Mr. Lungren. Okay. Now you suggest that we need a private-
public partnership, and I usually like that, but every time I 
have had a question about why there has been a screw-up, TSA 
says it is the airline's fault, and, when I go to the airlines, 
they say it is TSA's fault. That is the public-private 
partnership I see right now.
    Mr. Verdery. Well, that is the whole point of Secure 
Flight, is to pull the job of matching travelers against watch 
lists, get it off the airlines' backs and bring it into the 
government sphere and have TSA do it, and that is under 
development. The regulations are being developed as we speak.
    This program, as you probably know, has a long kind of 
tortured past, but it is being rolled out this year.
    Mr. Lungren. I am worried about the tortured present and 
future.
    Mr. Verdery. Well, I strongly believe Secure Flight will 
work and will hopefully minimize those kinds of horror stories 
that you mentioned, but it requires passengers turning over 
information to TSA so they can do that scrub.
    Mr. Lungren. Maybe you can explain this to me. When I have 
asked TSA why children, who are obviously under 12 years old, 
are being taken out for secondary search, they tell me that the 
orders to the airlines are that if it comes up on a ticket for 
secondary search and the airline sees it is somebody who is 
under 12, they are supposed to remove secondary search.
    They say, well, they do not do that, and my observation is, 
if you are a TSA employee or supervisor right there at the 
check stand and you see someone in a diaper that is about, you 
know, 25 pounds, no more than 25 pounds, it might occur to you 
that that person is under 12.
    Even though the airline has not told you that that person 
is under 12, what is wrong with changing the program to suggest 
that we allow TSA people to exercise discretion and say, ``You 
know, I think that person is under 12. Even though the airline 
did not tell me not to secondarily search him, we are not going 
to secondarily search him.''
    Is there something in the regulations that prohibits that?
    Mr. Verdery. I am not sure, Mr. Chairman. I believe that 
there is flexibility given to these FSDs at each airport to 
have discretion given to their screeners to deal with those 
kinds of situations with kids and the like.
    Mr. Lungren. Okay.
    Mr. Verdery. I do not believe that it is kind of an 
ironclad rule that they have to search everyone who is marked 
for secondary because of the way their ticket was purchased.
    Mr. Lungren. Okay. I mean, I am not taking it out on you. 
It is just that I am going to keep asking this question until I 
finally get an answer. We will worry about the business 
traveler. I am also worried about the families that are 
traveling and making it so onerous for families to travel that 
they are going to give up on traveling or we make it just an 
unfavorable experience.
    The gentleman from Mississippi, Mr. Thompson, is recognized 
for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like to follow the comment made by Mr. Isom, on 
whether or not the Registered Traveler Program is really going 
to benefit the traveling public. If, in fact, I get in this 
fast lane and I still have to take my shoes off and a lot of 
these other things, what is the benefit?
    Mr. Isom. That is the same question that we are asking. 
When we are dealing with a limited pool of resources, not in 
terms of just screeners at the airport, but also in terms of 
airport real estate and this positioning of screening lanes.
    If we were to dedicate lanes to a select set at the 
detriment of the vast majority of people that need to transit, 
we do, in fact, run into problems with getting people through 
screening, unless there were some enhancements, like not having 
to take out laptops, not having to take off shoes, not having 
to take off overcoats where we could see the benefit as well.
    Unfortunately, though, even in our test program in 
Minneapolis where we have been pioneering that, those benefits 
are not there. So the program is simply just an access lane 
that is used by a very low number of people and simply offers 
access to a lane where you still go through all security 
provisions.
    Mr. Thompson. Now, as I understand the program in the 
pilot, it is only geared toward certain airlines and not 
everybody. So, if I am traveling Continental, I have to still 
go through all of the hoops. Am I correct?
    Mr. Isom. That is the case. In Minneapolis, our pilot 
program covers about 2,300 customers. It involves one 
checkpoint, and it is Northwest passengers.
    Mr. Thompson. Thank you.
    Now the other point that I am concerned about is whether or 
not the cost of this program. How much of it would Northwest, 
to your knowledge, be willing to pick up at this point?
    Mr. Isom. In terms of creating a Registered Traveler 
Program?
    Mr. Thompson. Yes.
    Mr. Isom. None, especially as designed currently. It offers 
no benefit to our passengers, does not improve our operations 
in the least. We do not perceive that it provides a tangible 
security benefit, and, for that reason, we are very opposed to 
paying for it and as well having anyone else establish means by 
which to extract revenue or dollars from our flying customers.
    Mr. Thompson. Okay. Thank you very much.
    Mr. Harper, from the standpoint that we have had a lot of 
problems lately with identity theft, do you see this 
potentially either from that aspect or a civil liberties aspect 
that this is Registered Traveler Program could very well create 
some problems for us?
    Mr. Harper. One of the concerns I expressed in my written 
testimony is that in the Orlando program--and I assume in other 
iterations of RT--a biometric image is collected by both the 
vender and transferred to the TSA, saved by the TSA.
    The biometric image may be very valuable in the future as 
an identifier, and having an image of it is not good practice. 
The comparisons are made using algorithms. Those are 
mathematical descriptions of the thumbprint or the iris, and 
that is okay to save because you cannot reconstruct a 
thumbprint from an algorithm. That is a concern, a futuristic 
concern, but an important one.
    I do think, though, that the use of heterogeneous 
identification systems will ultimately be the solution to the 
identify fraud problem. Identity fraud is premised on the fact 
that there are just a few important identifiers in use today. 
The Social Security number is the most important one. It is 
very useful economically to have that. It is just equally 
useful for criminals to use it.
    So using a variety of different identification systems will 
overall in the long run suppress the amount of identity fraud. 
It is a difficult crime to tackle, obviously.
    Mr. Thompson. I yield back.
    Mr. Lungren. The gentleman yields back.
    The gentleman from Alabama, Mr. Rogers, is recognized for 5 
minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    I would like to ask Ms. Goersch. You heard Mr. Isom's 
description of the Registered Traveler Program. Is that an 
accurate description of your experience in Orlando?
    Ms. Goersch. Well, the program has not started yet. In 
reference to benefits?
    Mr. Rogers. Well, the benefits. Yes.
    Ms. Goersch. The Registered Traveler will have, we are 
envisioning, an expedited screening process, a lane that is 
eventually going to be a dedicated lane for the passengers to 
go through.
    We also agree that there need to be real benefits added to 
that in the form of some of the security screening processes 
that are alleviated, for example, the laptops out of the bags. 
Those things need to be added. The surveys have said over and 
over again these are things that the passengers want in order 
to grow this program and to facilitate this program.
    Currently, one of the things our service provider is 
offering on the privacy issue is absolutely huge. That is one 
of the other biggest concerns. Real benefits and privacy are 
what the passengers want to see to be part of this program.
    What we are going to do in Orlando is offer an identity 
theft warranty, and what that means is that if somebody as 
being part of this Registered Traveler Program is a victim of 
identity theft that they will be made whole by the service 
provider, and we think that is really large, the issue of 
templates versus the biometric information.
    The sample card that you have, you will see where the gold 
area is. That is where the computer chip is going to be. On 
that card, the only things that are going to be stored are an 
identifier of who you are in the system, a picture of you--a 
digital picture--and a template. That biometric will be stored 
in a template, not in its original form.
    Social Security numbers are currently the leading way of 
identity theft today, and the Social Security numbers will not 
be kept in the system. We have to collect Social Security 
numbers only to give to TSA for the security threat assessment 
part. Social Security numbers are eliminated after that.
    Passengers' movements are not tracked. Social Security 
numbers are eliminated, very limited information on the cards, 
only templates that are unique to you and can only be 
identified with you.
    So let's say a card gets lost. Someone is not going to be 
able to extract and become you or get information off the card 
to become you, Mr. Rogers. It is worthless, and a new card 
could be issued with the template information and just the 
number to identify and reference the individual.
    Mr. Rogers. Trust me. I know becoming me would become 
worthless. I believe that.
    Mr. Connors, do you agree with the assessment Mr. Isom 
offered?
    Mr. Connors. I have to be careful, Congressman. Northwest 
Airlines is a good member of NBTA.
    [Laughter.]
    I agree with what Mr. Isom said about conceptually 
Northwest being in favor of this program, as long as it 
provides real benefits to the users, and we agree with that. As 
long as you are actually saving time, getting through and 
making it more convenient, we agree with it 100 percent.
    Mr. Rogers. His indication was he does not see that 
happening, and that is what I wanted to talk about.
    Mr. Connors. Well, I can talk to you as a user here at 
Reagan National, and I have used the system in the pilot 
program, and it has been a great timesaver for me.
    Mr. Rogers. What have you been the benefits that you have 
realized?
    Mr. Connors. Well, I can give you a specific example. I was 
on a flight on American Airlines, and there was a security line 
about 50 people long, and I went right to the Registered 
Traveler booth, put my finger on the scanner, and--poof--walked 
right through. Now I do not avoid the magnetometer. I still 
have to go through that, but I went to the head of the line, so 
to say.
    Mr. Rogers. Did you have to take your shoes off still, take 
your coat off?
    Mr. Connors. Correct. Correct.
    Mr. Rogers. It was just a shorter line.
    Mr. Connors. Yes. But our issue with the current test 
program is the fact that there is only a handful of people in 
it. Now I think it is only 10, 12 people that could pass 
through there a day at Reagan Airport.
    Mr. Rogers. So, if a lot of people participated in that, we 
would have the same problem in that line that we have in every 
other line.
    Mr. Connors. Well, again, for the good of the order, you 
are taking people out of that main line and putting them into 
this other line that hopefully will expedite things. You do not 
have to go through the background checks and all that sort of 
thing.
    Mr. Rogers. Yes, yes.
    Mr. Isom, did you want to say something?
    Mr. Isom. Just real quick, you know, I can speak 
specifically about the Minneapolis test, and that was a 
program, again, that was designed for 2,300 customers--only 
2,300--one single dedicated checkpoint line. On any given day, 
you know, the average number of those customers traveling 
ranges between 100 and 300, a lot of capacity dedicated for one 
specified group, and, of course, there was very seldom line 
waits.
    But to expand that, you will be drastically cutting into 
the checkpoint capacity of the vast majority of customers that 
travel through Minneapolis or any other airport, and that is 
the primary benefit today, is the line wait, and we understand 
that, we like that, but you cannot duplicate it across the 
entire system.
    Mr. Rogers. Do any of you see any benefit other than a 
shorter line?
    Mr. Verdery. Well, Congressman, essentially, there are 
three ways to get to the same goal. If the goal is to speed 
people through who have gone through some vetting, there are 
three ways essentially to do that.
    You can either speed up the actual physical check, you 
know, at the magnetometer, what happens there, which is key, as 
I mentioned.
    The second is to have some type of dedicated lane and/or 
additional screeners. I mean, you could have these private-
sector pilots paying for screeners, federally trained, 
federally hired, but paid for off budget.
    The third is kind of the way that it works now, that 
essentially you go through the same process, but you go to the 
head line.
    I mean, that is the three ways to do this, all of them or a 
combination. Different ones may work in different places.
    Mr. Rogers. Okay.
    Thank you, Mr. Chairman.
    Mr. Lungren. The gentleman from Washington, Mr. Dicks, is 
recognized for 5 minutes.
    Mr. Dicks. Basically, you are saying that not all of the 
airports are going to have this program. Is that right? I mean, 
it would have to be universal if it is going to be effective, 
right? And that is going to cost a lot of money, I would think, 
as well. Who pays for this?
    Mr. Isom. Congressman, may I respond?
    Mr. Dicks. Yes.
    Mr. Isom. You know, when you speak of ``It is not 
universal,'' it really is a problem. Take an airport like 
Kansas City, okay, where there are three separate terminals, 
and, actually, the security checkpoint checking is done at 
every single gate. It would be impossible to have a Registered 
Traveler line and also a normal passenger line for screening 
purposes. It would be very difficult.
    In response, Mr. Chairman, to a question you asked earlier, 
how will it be paid for, the models that we have seen have 
solely been reliant on ancillary services, and I can speak to 
discussions with Mascorp and also discussions with Verified ID 
who approached Northwest as well to sponsor a program for one 
of our two major hub airports, Minneapolis and Detroit. 
Certainly, in those proposals, it was a way to get additional 
revenues for non-core services and certainly services that did 
not pertain to security.
    Mr. Dicks. But you are saying there that the companies 
would pay for it themselves and get money back from the fee 
that is paid by the participants. So it would be self-
sustaining where it was existent?
    Yes, Ms. Goersch?
    Ms. Goersch. The TSA currently has the five Registered 
Traveler Program pilots that they have initiated which are 
about 2,000 people at each airport with one air carrier, and 
that is funded by the TSA. That is a federally funded pilot 
program.
    This is the first self-funded, in other words private-
sector, partnership where it is funded by the private sector. 
TSA does not pay for any part of this program. In fact, they 
make sure that we say that any monies that are collected are 
not to go to TSA. These are self-sustained programs. So it is 
paid by the users.
    This is the first program that TSA has authorized as a 
private-sector pilot program. So it is the first airport TSA 
has said, ``Okay. We are going to try this at one airport.'' So 
TSA is going to be the one who authorizes the expansion of the 
program to other airports.
    Mr. Dicks. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lungren. Mr. Linder is recognized for 5 minutes.
    Mr. Linder. Thank you, Mr. Chairman.
    Mr. Connors, you went through a background check?
    Mr. Connors. Yes, sir.
    Mr. Linder. And you get a thumbprint through the speedy 
line?
    Mr. Connors. Yes, sir.
    Mr. Linder. Does that mean they assume you are probably a 
pretty honest guy and you are not going to bomb the airplane?
    Mr. Connors. I hope so.
    Mr. Linder. Then why do you have to take off your shoes?
    Mr. Connors. Well, that is a good question, sir, and my 
understanding is as these programs roll themselves out, whether 
they are public, private, that perhaps there will be 
technologies where we will not have to take off our shoes.
    Again, I think it is up to you as lawmakers to make the 
decisions. Again, our association is no different than anybody 
else. We have people in our association who are very concerned 
about privacy issues and who would never be part of this 
program in a million years, but we have probably a majority of 
our folks who say, ``I will do anything to get in this program. 
I will give you background. I will give you a lock of my hair. 
I will give you DNA samples. I will do whatever it takes to 
save a couple of minutes at that airport.''
    So the voluntary nature of this is really the key to its 
success, I think, and, if it is successful and if people are 
willing to pay for it--and we think people will be willing to 
pay for it--perhaps there will be ancillary benefits 
thereafter.
    Mr. Linder. If that is the case then, Mr. Isom, let me ask 
you this. Why are you so offended that somebody wants to make a 
profit?
    Mr. Isom. It is a profit on security, and security, in our 
opinion, is something that is certainly a basic right of 
everyone. To the extent that we can speed customers up, that is 
fantastic, we love that idea, but not to the extent that there 
is an artificial mechanism for a private entity to use security 
to profit.
    Mr. Linder. Only the people who volunteer for it.
    Mr. Isom. Only people who volunteer for it, but, if the 
mechanism is in the airport and you can regulate how long lines 
are, for instance, making a very short Registered Traveler line 
at the expense of all other lines, in doing that almost setting 
the dial to how much revenue you want to bring in, how much 
discomfort you want to put other customers through, that is 
where the problem comes in.
    Mr. Linder. Mr. Verdery, why do we care what the name is of 
the person on the airplane?
    Mr. Verdery. Why do we care what the name is?
    Mr. Linder. Yes.
    Mr. Verdery. Well, you want to do a check and see if they 
are on the no-fly or terrorist watch list.
    Mr. Linder. Do you think they are going to come in with 
their own identification?
    Mr. Verdery. Well, they very well could. There are many 
folks that, you know, do not know that we have good 
intelligence on them.
    Mr. Linder. Many people do not know, but do you think the 
terrorists know?
    Mr. Verdery. Some of them probably do, and some do not. 
That is the point of the layered system, and that is why they 
are trying many different mechanisms. Again, this is a layered 
system of security, and this is only one part of it.
    Mr. Linder. But we cannot profile?
    Mr. Verdery. Well, the CAPPS system is a profiling system 
in a sense. It depends what you mean by that, but it does 
profile based on ticket characteristics.
    Mr. Linder. But not on personal characteristics?
    Mr. Verdery. It does not. It is based on how you bought the 
ticket largely.
    Mr. Linder. Why are we always looking for things when we 
should be looking for people?
    Mr. Verdery. Well, again, I am not here to defend the 
department that I do not work for anymore, as much as I enjoyed 
my time and think we did a good job, but, I mean, when I was 
there, there were a number of programs being developed to try 
to get more names into watch lists and like-to-finds to build 
out systems that would allow you to target resources.
    Mr. Linder. If you think for a moment a terrorist is going 
to get on there without a fake ID and disclose himself to the 
public and be caught, I think you are nuts!
    You wanted to comment, Mr. Harper?
    Mr. Harper. I did, Mr. Linder, in response to your 
question, why would a Registered Traveler have to take off 
their shoes. That goes to the weakness of identity-based 
security, the study at MIT called the Carnival Booth because it 
is ``Step right up. Step right up.''
    A terrorist cell runs all of its people through the travel 
lanes, especially Registered Traveler because it is a little 
bit faster and easier, and they figure out who is not being 
selected for screening. That is the group that they send 
forward when they want to actually act.
    Identity-based security seems stronger, but it is quite 
brittle. It is very breakable. You have to have a perfect 
system in order for it to work. So the better approach is not 
to identify people, take their names. If you are going to do 
that, it needs to be perfect and it cannot be.
    The thing to do is to look for tools and methods of attack, 
screen for weapons, screen for residues, that kind of thing. 
That is going to be the only real solution.
    The faith we have put in everybody has to be identified, it 
fits with ordinary life because in ordinary transactions, the 
fact that we know who somebody is makes them accountable to us 
a little bit. We can track them down again. We can call the 
cops if we need to. It's not true in the case of terrorism. 
That is why they were so astoundingly successful on 9/11.
    Mr. Linder. What bothers me most about this country is we 
are always fighting the last war, spending the vast majority of 
our money on airlines when 10 times as many people travel on 
trains and more people have been killed on trains. It is almost 
as though this Department of Homeland Security has become a 
wholly-owned subsidiary of the airline industry. There is no 
proportionality whatever to it.
    Thank you, Mr. Chairman.
    Mr. Lungren. The gentleman from Oregon, Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Connors, I think you are familiar with this statistic. 
It is a fairly small percentage of people take a large number 
of flights. Can you give me that number?
    Mr. Connors. Well, I cannot give it to you specifically, 
Congressman, but I know about 18 percent of all travel is 
frequent business travel. I do not have that number.
    Mr. DeFazio. The number I have seen in the past has been 
somewhere between 6 percent and 7 percent take nearly a quarter 
of the flights, and that is our target group here, as I 
understand it.
    I do not know how much you travel, Mr. Isom, and, granted, 
it is a really lame program the way it has been implemented by 
TSA. I go an extra hour early for very early flights at 
National because sometimes the lines are half the length of the 
terminal.
    I have seen one person use the Registered Traveler Program, 
and they went to the front of the line. They did not have to 
stand in line an hour, and they did not have to go there an 
extra hour early. That is an incredible benefit, the 
predictability of that is an unbelievable benefit, and I would 
pay a lot of money for that!
    But, since I do not fly American out of National, I cannot 
do it. I fly United or America West or Delta out of National, 
so I am not eligible for the program.
    I mean, the way it has been implemented is unbelievably 
lame, so I do not think you have a good sample to judge it on, 
and, to me, it is pretty simple. Business travelers want 
predictability. You are going to get more predictability.
    If we can take a small percentage of the people who take a 
large number of the flights and divert them from the passenger 
flow, then the TSA can spend all of their time going over the 
people who fly infrequently, your grandchildren, and those 
people who they see are potential threats because they are not 
registered.
    I would not be quite as de minimis about the potential of 
it. I mean, as run so far, it is useful. We are piloting a 
technology that is in commercial use. It is used in nuclear 
plants. It is used at military bases. It is used by some 
corporations.
    But we have to do pilots and test out this technology and 
see how it might work before we can move forward. It has been 
unbelievably frustrating to me that we have not been able to 
just implement a national program.
    Mr. Isom. Congressman, I could not agree with you any more 
in terms of the benefits that we want to offer. Our customers 
tell us exactly the same thing, okay. However, we do not see 
any efficiencies in the way the program is structured. We have 
not heard anything about any improvement.
    The only thing that we have heard about is how this new 
program for this select group in the same system will be 
funded, and, ultimately, we view that as yet another tax on the 
airline business. Our customers that now have to pay to receive 
security screening, okay, through the very entities that, you 
know, in the past, whether it be clubs or whether it be retail 
shops that have paid part of the bill of the airport. And now 
we are setting up this special club in which an outside vendor, 
a third party now, can take a skim off the top, and that is a 
problem.
    Mr. DeFazio. I share your concern about that. In 
particular, if it starts to become some sort of amenity card 
with amenities I do not want, then we are going to have to 
regulate the private vendors and say, ``Look, you are going to 
have to give basic service.''
    Business travelers who just want to get to the front of the 
security line do not want to pay for the club membership over 
here because they already belong to the Red Carpet Club or they 
already belong to, you know, whatever. I mean, there is all 
that.
    So there is, I think, a potential problem, and, if the 
government refuses to adequately fund the program, put in 
enough screeners, expedite the process. The Appropriations 
Committee has acted totally arbitrarily to restrict the number 
of screeners, if we are looking at some sort of private-sector 
emollient to that, it is going to have to be regulated pretty 
closely because I do not think a lot of your business travelers 
are really interested in all that ancillary junk, right?
    They want to get to the front of the line. They want to get 
through the airport. That is all they care about. They can take 
care of themselves.
    Mr. Verdery. Right.
    Mr. Connors. I think the marketplace will take care of 
certain issues that I know Congressman Rogers raised, that if 
you just move everybody out of one line and go to the other 
line, you are not going to save any time.
    But my hunch is that the marketplace will take care of 
that. If the line got so long that it is not worth me paying 
100 bucks anymore, I am not going to pay 100 bucks. The same 
thing happens with airport lounges right now. If they become 
overcrowded, they are going to jack up the price a bit.
    So I think the marketplace will take care of some of the 
issues that I think you raised, Congressman.
    Mr. DeFazio. Yes. Or it may need to be better run by the 
government.
    Just on the basic issues that Mr. Harper raised, you know, 
I am in some agreement there. If we had better technology, a 
lot of this problem would go away, and, if we were screening 
for actual threats, as opposed to non-threats, a lot of the 
problem would go away, I mean, if we had technologies in place 
that can detect explosives, expedite people through.
    Look at just the primitive X-rays they are using. I am sure 
you have been there. They say, ``Can I take your bag and put it 
back through?'' Yes. That means you have to have a screener 
dedicated to walking the bag back to the beginning, 
interrupting the flow, putting it on, the person looking at it, 
turning it in a different dimension because they do not have a 
machine like we have right downstairs here that can look at the 
bag in different dimensions because we have not paid for it.
    So, I think you are right. Ultimately, we want to have a 
system where we can move everybody through quickly, and we can 
go after the real threats on those people, but I still think, 
at that point, there will still be a place in a voluntary 
system for Registered Travelers.
    Mr. Harper. True, but I think the weakness of Registered 
Traveler, like the weakness of most government programs that 
use personal information, is that the terms of the deal can 
change arbitrarily. Federal Register Privacy Act notices can be 
changed with the new issuance of a Privacy Act notice. That is 
something that does not occur in the private sector. You folks, 
good intentions notwithstanding, can change the law that 
affects what happens with data about travelers any time you 
want. Under duress, no doubt that can happen.
    Mr. DeFazio. Yes, but the private sector has had some 
problems. I mean, I think ChoicePoint had a little problem with 
people's data recently.
    Mr. Harper. I did not hear about that one.
    [Laughter.]
    Mr. DeFazio. Yes. So I am not quite as confident as you 
are. Personally, there are times when I am more comfortable 
with the government having the personal information.
    Mr. Lungren. I would just like to ask a question of the 
entire panel, and that is my sense is that, right now, since it 
is a pilot project and not too many people use it, the main 
benefit is you get to go to the front of the line. If we had an 
expanded program where you would have lines of some 
significance, it may lose its utility.
    So the question would be: Could they possibly allow you not 
to take your shoes off, to have your coat on the rack, those 
sorts of things? Based on your unique perspectives, each of 
you, would you see a fundamental problem with the TSA allowing 
that to happen?
    We are going to ask TSA that, too, but I am talking about 
from your perspectives right now, would you see a fundamental 
problem with that being part of it?
    In other words, there is enhanced security protection given 
by virtue of the identity. I know it is not 100 percent, but 
our machines are not 100 percent either. Does that calculus 
goes into the fact that we, therefore, let these people do 
these other things, maybe not have to take their shoes off, 
maybe keep their coats on, that sort of thing?
    Mr. Verdery?
    Mr. Verdery. Mr. Chairman, in my testimony, I talked about 
exactly those things of trying to ratchet back the security, 
and, again, you think of each little point as you go through 
there, and they need to look at each single one and see which 
one of those could be essentially dialed back or turned off.
    There may be particular ones due to specific threat 
intelligence at a particular time you would not want to do, but 
I think, in the main, if you think of all the little things 
that happen at the checkpoint, some of those could be ratcheted 
back for people that we have a good sense of security about.
    Again, it should not just be people who, you know, want to 
enroll at a private thing. It should be the people who have 
already gone through some other vetting by the government--
HAZMAT drivers, security, federal workers who have security 
clearances. We ought to get as many people off of the haystack 
as we can and into the quicker process.
    Mr. Lungren. Mr. Connors?
    Mr. Connors. Well, Stewart mentioned the haystack, and, if 
you look at the current system, you have a huge haystack of 
multiple people going through the system, and, therefore, it is 
like looking for a needle in a haystack.
    If you can vet out a significant number of those people and 
put them in a quicker line--again, those are regulatory issues, 
whether or not you wear your coat and take your shoes off--I 
would think, just having gone through the vetting system myself 
of enrolling in this program where they ask you all sorts of 
questions, where your last five addresses were, personal 
interview, actual photo, iris scan, at least with those 
protections, you would actually be enhancing security a little 
bit and allowing the TSA to concentrate on a smaller haystack 
of people who are unknown.
    Mr. Lungren. Mr. Harper?
    Mr. Harper. Can people keep their shoes on and their coats 
on? You can do that. But recognize the risk that you adopt when 
you do that. It has to do with how well the machines can scan 
under those circumstances, and you make the program that much 
more attractive to somebody who wants to do harm.
    The way to do real identity-based security is to do deep, 
deep background checks into people, know everything about them, 
where were they educated, what do they think about stuff, how 
many kids do they have.
    Mr. Lungren. Right, but we are not going to do that. You 
know that.
    Mr. Harper. That is exactly right. We are not going there. 
Total information awareness is premised on that. CAPPS II tried 
to do that and just completely created it on a privacy basis. 
So you actually cannot rely on identity-based security. People 
do not trust the government.
    Mr. Lungren. But if you are going to have a pilot who is 
going to take over the aircraft, which seems to me to be a far 
more dangerous weapon than if the pilot is bringing a 
fingernail clipper on or even a knife on, does it make sense to 
have that pilot remove his shoes or his coat and so forth? 
Then, after he does, you put him behind the aircraft with all 
that amount of fuel. I mean, that, to me, is just dumb. Maybe I 
am wrong.
    Ms. Goersch?
    Ms. Goersch. Passengers have told us that this is what they 
want as a real benefit. If you take the time to register, give 
all this background information, private information, they want 
to see some real benefits come out of it. So, yes, I think that 
is something that the passengers definitely want and can be 
done if TSA allows it.
    Additionally, this may be a venue to, on these Registered 
Traveler lanes, look at new technologies as you are looking at 
not just using identity, but integrating your technologies as 
new ones evolve that are more efficient. Maybe these are the 
lanes to bring those new and to showcase and to try those out.
    Mr. Lungren. Maybe part of the money that would be required 
for you to pay to participate in the program would go towards 
the development or the purchase of some of these machines such 
that they would be used earlier rather than later.
    Ms. Goersch. I think some of those concepts are definitely 
worth exploring.
    Mr. Lungren. Mr. Isom?
    Mr. Isom. Mr. Chairman, in terms of overall security, we 
will continue to work in conjunction with the TSA to try to 
figure out what is best and most appropriate.
    If the question is in regard to efficiency of processing 
customers and speed at which you can transit, by all means, the 
continuous running of X-ray belts, reducing the amount of 
secondary screening, clearing selectees, not having to take PCs 
out of bags, not having to take off coats, not having to take 
off shoes, all those will absolutely improve the efficiency of 
processing customers. All those are essential to putting 
together an effective Registered Traveler Program.
    Mr. Lungren. Thank you very much.
    Mr. Thompson, any further questions?
    Mr. Thompson. Yes, Mr. Chairman.
    Mr. Connors, you went through the Registered Traveler 
Program according to your testimony. How long did it take you 
to get approved?
    Mr. Connors. I want to say about 4 weeks.
    Mr. Thompson. About 4 weeks. Okay.
    Ms. Goersch, if we bring this program on line in July in 
Orlando, do you have any idea how long it is going to take to 
get someone cleared?
    Ms. Goersch. We have asked TSA that question. They have 
told us 8 to 10 days to get the security threat assessment back 
from TSA, and then we need to issue the card, which will take, 
let's say, a week, so it would be 2 to 3 weeks.
    Mr. Thompson. So we have gone from 4 weeks to 2 weeks.
    Mr. Connors. I was in the very first initial pilot program. 
So glad to hear that it is more efficient.
    Mr. Thompson. You have about 50 carriers operating out of 
your airport. Am I correct?
    Ms. Goersch. Yes, sir.
    Mr. Thompson. You are going to have about 30,000 people who 
come under the program?
    Ms. Goersch. TSA has initially limited us to 30,000 for 
this year.
    Mr. Thompson. So how do you plan to pick them?
    Ms. Goersch. They have authorized another 30,000 for next 
year, and we are hoping to expand the program. If we need more, 
we were told to come back and ask them for an increase.
    Mr. Thompson. So have you picked the 30,000 for this year?
    Ms. Goersch. We have not started enrollment yet. It is on 
the 21st.
    Mr. Thompson. Is it voluntary?
    Ms. Goersch. It is a voluntary program, yes, sir. It is a 
voluntary program, so we are hoping to capture all 30,000 this 
year.
    Mr. Thompson. They will pay a fee, and that fee will afford 
them the opportunity to get in the fast lane?
    Ms. Goersch. That is correct.
    Mr. Thompson. How many terminals do you have?
    Ms. Goersch. We have two security checkpoints. Four 
airsides, but two security checkpoints.
    Mr. Dicks. Would the gentleman yield?
    Mr. Thompson. Yes.
    Mr. Dicks. Would you have a Registered Traveler Program in 
each of the security checkpoints?
    Ms. Goersch. That is correct. Each security checkpoint will 
have a Registered Traveler kiosk where you check in, where you 
present either your iris scan or your fingerprint.
    Mr. Dicks. So that would cover all 50 airlines? So 
everybody would be in the program?
    Ms. Goersch. That is correct. The unique thing about this 
pilot program is it is on all carriers, so all passengers can 
participate, not just limited to Northwest.
    Mr. Dicks. Even Mr. DeFazio could get on this one, right?
    [Laughter.]
    Ms. Goersch. You are welcome in Orlando, Mr. DeFazio.
    Mr. Dicks. Thank you.
    Mr. Thompson. Mr. Isom, can give me your experience with 
getting people into the program if the carrier did not 
participate in that?
    Mr. Isom. All right. We did participate in that program. We 
offered incentives to sign up customers, and we focused on our 
most recent business travelers, not only because they would see 
the benefit, but also because they are frequent travelers, they 
know how to approach a security checkpoint, they know what they 
should have on their person and what they should not, and 
having that select group has actually been very beneficial. If 
we were to continue a Registered Traveler Program, we would 
look to our frequent travelers again, but it required some 
enticement with mileage in our frequent flyer program to 
encourage them to sign up.
    Mr. Lungren. Mr. Dicks?
    Mr. Dicks. If 4 million people enter the program as some 
have projected, does TSA have the capacity to do background 
checks on 4 million people?
    Mr. Verdery, do you want to take a crack at that?
    Mr. Verdery. The number is not the hard part. Running a 
name-based and fingerprint-based check is not time consuming. 
The dilemma is when you have a name hit. It could be a false 
positive.
    You know, if Fred Smith applies and there is a Fred Smith 
on the watch list, do you bother to figure out if it is the 
same guy or do you just say no? I think most Americans would 
want you to do a little due diligence and find out if it is the 
same guy. It is probably not, but you want to check.
    Those kind of background investigations take time. If you 
are just going to do the first scrub, though, it is very quick 
and running those names is not hard. It costs money. I mean, 
TSA is going to have to be compensated, and this has to be a 
fee-based system at some point with TSA being paid to run those 
checks. They do cost money.
    Mr. Dicks. So that would be part of the membership cost, I 
mean, being a RT?
    Mr. Verdery. Under most theories, yes. Yes.
    Mr. Dicks. You know, there has been mentioned here there is 
a cap of 45,000 airport screeners. Does TSA have the screener 
capacity to operate designated lanes for these 4 million 
people? Obviously, they would be coming out of the total, but 
do you think they can handle that, Mr. Isom?
    Mr. Isom. Yes. I think I can speak to that just from 
experience at Memphis and Minneapolis and Detroit and all the 
other airports that we operate at in the United States, over 
180, and, by and large, we run into issues in almost every 
airport that we serve, because of restrictions to the 
throughput and capacity of overall screening.
    I would venture a guess that there are very few airports 
that would tell you that they have line waits that are always, 
you know, below 5 minutes, and, in fact, at many airports in 
the United States, we still have lines on a regular basis far 
exceed 20 and 30 minutes.
    Part of the problem that goes with that, if we were to 
invest in another program that does not offer any kind of 
increase in efficiency, is it will take up real estate that 
would have otherwise been used and then again exacerbate the 
problem we are having at other airports.
    Mr. Dicks. So it actually could make the situation worse in 
some cases?
    Mr. Isom. Potentially.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lungren. Peter, do you have something?
    Mr. DeFazio. Ms. Goersch, I guess we have a problem. We had 
Mr. Linder extolling the virtues of the free market, but it is 
not a free market when you choose a monopoly vendor and the 
monopoly vendor then charges whatever they want.
    How is this fee going to be set, their profitability going 
to be set, and your take going to be set, since you are getting 
a percentage of it?
    I am a little concerned here that when we choose a monopoly 
vendor, and even if we expanded it beyond your airport it is 
not likely TSA is going to want to have to administer contracts 
with some kind of secure system with a whole bunch of different 
vendors who are actually driving market prices.
    So can you tell me how this fee is going to be set because 
I understand people are going to have to pay for the background 
check and then pay for the card?
    Ms. Goersch. That is correct. Competition is very good. It 
is a good thing.
    Mr. DeFazio. But it is not competition because it is a 
monopoly vendor chosen by you and you get a percent of their 
take! How is that competition?
    Ms. Goersch. This is the first pilot program, the first 
airport. It is the starting point.
    Mr. DeFazio. Right, but how is the fee going to be set at 
your airport?
    Ms. Goersch. The service fee is set at $79.95.
    Mr. DeFazio. How was that determined?
    Ms. Goersch. It was determined by a market survey and 
analysis done.
    Mr. DeFazio. That is what people would pay, but, I mean, 
how does that relate to the cost, the profitability or your 
take? You figured out people will pay that much, so that is 
great. So you are extracting what would be called the maximum 
rent from these people in a monopoly system because they want 
to get to the front of the line. Does that relate to the cost 
of the program?
    Ms. Goersch. I understand. As the program expands to other 
airports, we anticipate that there would be a market that is 
created for not just one vendor, or service provider, but 
others to enter into this. The key is that TSA has to set the 
standards of how it operates from airport to airport so many 
others can participate and not just one vendor.
    Mr. DeFazio. But if you are going to have interoperability 
and multiple vendors, enough to establish a free market, I am 
not sure how that is going to work.
    Mr. Harper, did you want to say something?
    Mr. Harper. When I first saw the system, I looked at it and 
I said, ``Rent seeker. Rent seeker. Rent seeker,'' riding on 
top of this government program, the inefficiencies created by 
this government security to extract money. Based on the 
estimates that Verified Identity Pass put forward, they are 
planning to extract $330 million per year out of inefficiency 
created by this security system.
    My solution, which made me more content with the problem, 
is neutral standards put forward by the TSA for the readers, 
the cards, the algorithms, the biometrics. Then anyone can 
enter into the card business and knock what I think looks like 
a windfall profit down to size. Ideally, you get a lot of card 
issuers in there, and the amount of money the user pays is just 
a hair above the actual cost of providing the service.
    Mr. Verdery. Congressman, can I just jump in for just one 
second?
    I mean, I think the absolute key thing is that it is great 
if you have vendors out there, whether they are operating in a 
single location or lots of locations, but, from the enrollees' 
perspective, it has to work everywhere.
    That is where TSA or, actually, even better the new 
screening and coordination office, which I think should really 
run this, in DHS would allow cross-enrollment across all the 
pilots, so it would work anywhere you go. Otherwise, I think 
the public is going to be confused, and it will not make any 
sense.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Lungren. Okay. I thank the witnesses for their valuable 
testimony and the members for their questions.
    The members of the committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
them in writing if we would send them to you. The hearing 
record will be held open for 10 days.
    We, once again, thank the members of the committee and our 
witnesses, and the committee stands adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]



                   THE PROMISE OF REGISTERED TRAVELER



                                PART II

                              ----------                              


                        Thursday, June 16, 2005

                  House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:00 p.m., in 
Room 210, Cannon House Office Building, Hon. Dan Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Linder, Rogers, Pearce, 
Sanchez, Dicks, DeFazio and Thompson (Ex Officio). ???

    Mr. Lungren. The Committee on Homeland Security 
Subcommittee on Economic Security Infrastructure Protection and 
Cybersecurity will come to order.
    The subcommittee is meeting today to hear further testimony 
on the Registered Traveler Program. Before I say something 
about that, I would just like to say that 16.5 years ago, I 
left the House of Representatives as someone who had profound 
respect for this institution and the Members in it. That has 
not diminished in any way, shape or form.
    After 9/11 decided to come back to this institution. I came 
with the idea that I would work on a bipartisan basis with all 
Members to solve the challenges that are before us and, as 
Chairman of this subcommittee, I intend to treat Members with 
full respect and give them all opportunity to ask questions and 
participate in the process.
    Yesterday, when we had a meeting scheduled for 2 o'clock, 
bells rang at 1:55 calling us over to the floor, and I made 
decision that we would go over to the floor and come back as 
quickly as possible for Members to vote.
    When we did come back, I exercised my discretion to allow 
the ranking member to come back rather than start it 
precipitously, which I thought was the appropriate thing to do, 
I was then called to go over to the floor to debate other 
issues. Every effort was made to try and make sure that Members 
had full opportunity to ask questions as we will continue to 
do.
    We had unusual circumstances yesterday with a series of 
votes at 2 o'clock, which caused us not to convene until 3 
o'clock. We then had a series of votes at 5, and also an 
invitation to attend an event at the White House for all 
Members of Congress, Republican and Democrat, including their 
families It was my sincere desire that Members fully 
participate but also have the opportunity to enjoy their 
families at the White House.
    That was our effort yesterday. And that will continue to be 
our effort, granting Members full opportunity to ask questions, 
including several rounds of questions. We will continue to 
proceed that way. I would hope that we could continue to work 
in a bipartisan basis in that way, showing respect for one 
another.

         Prepared Statement of the Honorable Daniel E. Lungren

                             June 16, 2005

    [Call hearing to order]
    I would like to welcome everyone to our second hearing on the 
Registered Traveler Program. Last week, we heard from Registered 
Traveler's stakeholders and outside experts as to how the program may 
be made more effective. This afternoon, we will hear the Transportation 
Security Administration's (TSA) perspective on these ideas, and its 
plan for improving and expanding Registered Traveler.
    Congress envisioned the Registered Traveler (RT) program to be an 
important risk management initiative, which, if implemented correctly, 
would improve the effectiveness and efficiency of the airport security 
screening process, while reducing threats to aviation security.
    Congress originally envisioned the RT program as an additional 
layer of voluntary screening that would reduce the number of unknown 
individuals, alleviate much of the need for secondary screening and 
other checkpoint inconveniences and indignities, and--most 
importantly--permit TSA resources to focus on the small percentage of 
travelers who are not frequent travelers and who do not voluntarily 
submit adequate information to confirm identity.
    Unfortunately, the Registered Traveler program has not progressed 
to become the effective passenger screening and resource allocation 
tool that Congress had intended.
    As it is currently structured, RT may not provide any real 
operational benefits to TSA, the airlines, or the traveling public.
    Last week, we heard from stakeholders and commentators about the 
concerns with the current pilot programs and problems that may loom 
ahead.
    Chief among those concerns were the lack of any measurable benefits 
for program participants and interoperability of the system.
    Today, we will hear from a senior Transportation Security 
Administration official regarding the Registered Traveler program's 
current and future status.
    In particular, I would like to discuss how TSA will address the 
concerns raised by industry stakeholders.
    I thank our witness for appearing before us today and now 
recognize, the Ranking Member of the Subcommittee, Ms. Sanchez.

    Mr. Dicks. Mr. Chairman, I want to just say that I want to 
commend you for having these hearings. I think it is very 
important that we have these hearings. And I know there was a 
misunderstanding yesterday on the part of one Member. But I 
just want you to know, that at least from my perspective, I 
think having those hearings is very important, and I encourage 
you to keep it up.
    Mr. Lungren. I thank the gentleman. I should just inform 
the Members that we are probably scheduled to have votes on 
floor in about 30 to 40 minutes. So we will proceed until that 
time, then we will have a series of votes on the floor, and 
then come back, if necessary.
    So with that, I would like to welcome everyone to our 
second hearing on the Registered Traveler Program. Last week, 
we heard from registered traveler stakeholders and outside 
experts as to how the program may be made more effective from 
their standpoint.
    This afternoon, we will hear the TSA's perspective on these 
ideas and its plans for improving and expanding Registered 
Traveler. Congress envisioned the Registered Traveler Program 
to be an important risk management initiative which, if 
implemented correctly, would improve the effectiveness and 
efficiency of the airport security screening process while 
reducing threats to aviation security.
    Congress originally envisioned the RT program as an 
additional layer of voluntary screening that would reduce the 
number of unknown individuals, hopefully alleviate much of the 
need for secondary screening and other checkpoint 
inconveniences and indignities and, most importantly, permit 
TSA resources to focus on the small percentage of travelers who 
are not frequent travelers and who do not voluntarily submit 
adequate information to confirm identity.
    Unfortunately, in the view of some, including myself, the 
Registered Traveler Program has not progressed to become the 
effective passenger screening and resource allocation tool that 
Congress had intended.
    As it is currently structured, it may not provide any real 
operational benefits to TSA, the airlines or the traveling 
public. Last week, we had the opportunity to hear from 
stakeholders and commentators about concerns with the current 
pilot programs and problems that may loom ahead.
    Chief among those concerns were the lack of any measurable 
benefits for program participants or interoperability of the 
system. In the first instance some were suggesting that if in 
fact you had a full program, there would be no benefit, because 
while you would go into one line, it would not make it any 
faster than the other lines that were available. As for the 
interoperability of the system, it is a system that one must 
have access to at more than one or several airports and more 
than one of the airlines.
    Today, we will hear from a senior Transportation Security 
Administration official regarding the Registered Traveler 
Program's current and future status. In particular, I would 
like to discuss how TSA will address the concerns raised by the 
industry stakeholders. We certainly thank our witness for 
appearing before us today.
    I would recognize now for any time she may consume, the 
ranking member of the subcommittee, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And, again, I would 
like to say, just about yesterday, that you and I have been 
able to agree on most things, and I appreciate yesterday when I 
was a little tardy coming back from the House floor on votes 
and you waiting for my arrival before you began. I know that 
most of the afternoon you were on the House floor, and Mr. Cox 
was able to chair the committee for you.
    And I just want to again to thank you for the fact that you 
have been working with us and that we are doing many more 
hearings than we certainly did in the last couple of years that 
I was on the Select Committee, even though we asked for those 
hearings over and over. It is about time we got to work. I am 
just glad that we are doing this together.
    This past week, this subcommittee heard testimony on the 
Registered Traveler Program from a wide group of stakeholders. 
Unfortunately, I was detained in another hearing and was unable 
to make it to that hearing. But I am sure, as I was told by 
some of my colleagues, that they painted the picture that 
Registered Traveler is not all it was promised to be.
    And as a frequent flyer myself, I have a special interest 
in this program. Three years ago, back when the program was 
first being discussed, the promise of a Registered Traveler 
Program was that any American who submitted to TSA's known 
traveler program could clear airport security checkpoints 
faster.
    So the interest in this program, believe me, is still high. 
It is high by people like me who use airports all of the time, 
and it is high by many of our business travelers, in particular 
because the business of America is business. And we do it face 
to face. I think it is incredibly important that we get this 
program done the correct way in order to ease the pain of this 
for our business travelers.
    But that is not the reason why we should be interested in 
it. In particular, we should be interested because we have 
limited resources. We have a lot of people to check through at 
the airport, and we should devote those limited resources to 
people who are real potential problems for us, and that is why 
we were so interested in making this program work.
    So far, it has only got about 10,000 travelers that are 
able to participate. There are 1,300 United frequent flyers 
that participate at LAX who have the benefit of being processed 
at a separate designated lane. They go to kiosks where, once 
their biometric cards are matched against their iris and 
fingerprint scans, they are waved over to a special security 
line.
    But they still go through the same screening as everybody 
else. They still have to take off their shoes, their coats, 
their laptops, their computer bags. The process for them is a 
little bit quicker, but we are still spending a lot of 
resources on going through these people.
    And unfortunately, when they come back to LAX, they do not 
have the same privilege at whatever airport they have gone to, 
to try to get back to LAX. So I think we need to, I am hoping 
you are going to tell me we have really thought this out and 
that we are really going towards a program that in particular 
helps us to eliminate or to move faster those people that do 
not have an associated risk with them, quite frankly, and 
allows us to use our limited resources on those people that we 
really need to check out.
    When I look at a report that the USA Today published that 
Registered Travelers at Orlando, the new program that you are 
putting in, will not only be provided expedited processing but 
incentives, like preferred parking and access to special 
lounges, I mean, those add-on programs are not a security 
program. And I don't think that is a business that TSA, and we 
should be in.
    We need to talk about how we move people through so that we 
can concentrate our real resources on those people who mean to 
do the system harm. So I am anxious to hear how the program is, 
from your standpoint, moving along, and I thank you for being 
before us today.
    Mr. Lungren. I thank the gentlelady.
    And the chair now recognizes the ranking member of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for 
any statement he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman, and 
ranking member.
    And I want to welcome our witness here today. I appreciate 
you being here at this time of transition for TSA. I understand 
that TSA is in between administrators right now.
    Unfortunately, for the country and this committee, 
transition at TSA seems to be the rule and not the exception. 
And, in fact, Mr. Hawley will be the fourth TSA administrator 
in just over 3 years. Those of us who serve on the committee 
are not surprised that the Registered Traveler Program has not 
lived up to its expectations.
    Without consistent leadership and an active strategic 
vision, there is little hope that the promise of Registered 
Traveler will ever be realized. Congress directed TSA in 2001 
to create a known traveler program; 4 years later, TSA has only 
managed to do a 10,000 participant pilot. Why has TSA failed to 
get very far on Registered Traveler? Were there technology 
limitations? Is it that TSA lacks the budgetary resources to 
get the job done? Or is it that TSA lacks the vision and 
leadership to get the program deployed?
    These are questions that Congress and the American flying 
public deserve to have answered. I, like so many of my 
colleagues in Congress, am on airplanes every week. On days I 
fly home to Mississippi or back to Washington, I spend a good 
portion of my time in airports standing in line waiting to be 
screened. Unfortunately, we do not have Registered Traveler at 
Jackson, Mississippi, nor do I fly American Airlines out of 
Reagan National, so I don't have the benefit of the Registered 
Traveler Program that is being experimented with at National.
    But I have talked to some people, and they said, well, it 
is good, but it is an experiment. What happens if all of us 
belonged to the Registered Traveler Program? The ranking member 
talked about Orlando. I think that is something that we look 
forward to studying. With that many individuals going through 
the airport, we just might have long lines with Registered 
Travelers.
    As I understand it, you still have to take your shoes off 
and do a lot of other things that you have to under the other 
programs. So I just wonder what happens under that? So I look 
forward to the testimony that we are here for this afternoon. 
And I look forward to some of those questions being answered. 
Thank you, Mr. Chairman.
    Mr. Lungren. I thank you. The other Members of the 
committee are reminded that opening statements may be submitted 
for the record. We are pleased to have a distinguished witness 
before us today on this important topic.

      Prepared Opening Statement of the Honorable Christopher Cox

                             June 16, 2005

    Thank you, Mr. Chairman.
    It has been three and a half years since Congress directed the 
Transportation Security Administration to develop a registered traveler 
program.
    I have been a strong supporter of the Registered Traveler (RT) 
concept since the beginning. In fact, I volunteered to take part in the 
pilot program at Reagan Washington National.
    The Registered Traveler program should be the cornerstone of TSA's 
effort to improve airport screening and minimize long waits at security 
checkpoints. Congress intended for TSA to use RT, as the program is 
known, as a risk management tool, whereby TSA could improve overall 
security by decreasing the pool of unknown travelers and focusing 
security resources on higher-risk passengers. Unfortunately, that has 
not been the case.
    Today's hearing continues our oversight into whether the Registered 
Traveler program, as operated by TSA, is living up to the promise 
envisaged in the Aviation and Transportation Security Act. From reports 
to the Committee so far, including last week's hearing, the answer to 
this question appears to be a resounding ``No.''
    I am deeply disappointed by the current pilot programs. They have 
been so limited and constricted that they provide no benefits to TSA 
and few, if any, measurable benefits to the Registered Travelers in 
terms of expedited screening and reduced security procedures.
    We should note that TSA routinely uses background checks as a layer 
of security and, in some cases , as the only layer of security for 
other purposes. A background check can get you unescorted--and often 
unscreened--access to the aircraft, the ramp, and other sensitive areas 
of the airport. With a background check, you can drive a tanker full of 
chlorine gas into a heavily populated area. With a background check, an 
alien can come into the United States and learn to pilot an aircraft. 
So why isn't a background check sufficient for a Registered Traveler to 
keep his shoes on?
    Despite the difficulties faced thus far, the concept behind 
Registered Traveler is quite simple and sound--individuals who 
voluntarily submit personal background information, including biometric 
samples, successfully undergo security background checks, and who 
travel frequently without incident or raising any concerns should not 
be treated as though they were a potential terrorist. TSA should be 
able to streamline the security screening process for these fully-
vetted individuals.
    Frequent flyers represent roughly 10 percent of all travelers and 
account for nearly half of all passenger trips. This fact suggests that 
an optimally functioning, voluntary Registered Traveler program could 
enhance security, save money, improve efficiency, and reduce 
frustration and inconvenience for all passengers by permitting TSA to 
focus its resources where they belong--on unknown or suspicious 
travelers.
    I would like to thank Mr. Blank for appearing today. I look forward 
to hearing TSA's perspective on this vital program and how we can work 
together to improve it.

    Mr. Lungren. It is now my pleasure to recognize Mr. Thomas 
Blank, the acting deputy director of the TSA at the Department 
of Homeland Security to testify.
    And, Mr. Blank, your written testimony will be put in the 
record in its entirety. And you may proceed as you wish.

                   STATEMENT OF THOMAS BLANK

    Mr. Blank. Thank you, Chairman Lungren, Congresswoman 
Sanchez, Members of the subcommittee, thank you for the 
opportunity to speak with you on our domestic Registered 
Traveler Program.
    The RT Program now being tested in five and soon to be six 
pilots should prove to be an important part of our layered 
system of systems approach to aviation security.
    The mission of the RT Program is to expedite travel for 
those who qualify to participate while enhancing aviation 
security. RT provides TSA with valuable information to conduct 
threat assessments and verify traveler identity enabling TSA to 
concentrate its resources more effectively.
    Participating travelers voluntarily provide personal 
information that serves as the basis of security assessments 
and biometric data which are used for identity verification. 
When approved participants travel from their host airports, 
their identity and participating status is confirmed at RT 
kiosks located near the security checkpoint.
    They then go through normal security screening at the 
checkpoint, but unless they alarm the screening equipment, they 
are not subjected to additional screening. Because RT travelers 
are largely exempt from selectee screening and have access to 
dedicated or designated security lines and lanes, they move 
through the checkpoint screening system more quickly than the 
general public.
    TSA is successfully operating five RT pilots in partnership 
with four airlines and with the management assistance of two 
private contractors. Beginning in the summer of 2004, pilots 
were rolled out in Minneapolis St.--Paul, Los Angeles, Houston, 
Boston, and Washington, D.C.
    We have extended all five pilots through September 2005 to 
allow further operational analysis. The pilot programs were 
structured specifically to test different operational and 
technological configurations, and so were not intended to be 
interoperable. In developing the biometric component of the RT 
pilot program, TSA incorporated the use of dual biometrics, 
fingerprint and iris, using both current and emerging biometric 
standards.
    The use of advanced commercial off-the-shelf (COTS) 
technology for gathering and authenticating biometrics and 
biographical information has allowed the program to avoid 
delays in launching the pilots.
    TSA has been able to concentrate its energies on testing 
different configurations of COTS systems and various 
operational models, assessing the results and compiling best 
practices.
    TSA understands that the traveler's ability to take 
advantages of the benefits of the program at any RT-capable 
airport is critical for the program's success. TSA is fully 
engaged with its vendors on creating interoperability at all 
five original RT pilot airports in the current second phase of 
the pilot. We anticipate demonstrating interoperability by the 
end of Fiscal Year 2005.
    We are now building upon the experiences of the five 
Federal pilots and exploring whether to incorporate greater 
private-sector participation. Development of the Private Sector 
Known Traveler Pilot, in partnership with the Greater Orlando 
Aviation Authority (GOAA) at Orlando International Airport, 
began in September 2004, and we anticipate it will become 
operational this summer.
    In this pilot, the GOAA and its contracted entities will be 
responsible for procurement and operational and marketing 
functions consistent with TSA guidelines. However, all 
essential security functions will be performed by TSA. The 
operational aspects of the Orlando pilot are designed to be 
similar to the five federally- run RT pilots so that Orlando 
may eventually become interoperable with the existing RT pilot 
sites if the model proves replicable and sustainable for 
nationwide rollout, and if that is the direction of the 
Department of Homeland Security when final policy decisions are 
made later this year.
    We want to ensure that RT can achieve the necessary 
interoperability, scalability, privacy protection, data 
transmission and storage, and public-private sector 
partnerships to fulfill RT's objectives of enhancing customer 
service and achieving greater efficiencies in screening at 
airport security checkpoints.
    A fully operational program would be expected to be self-
sustaining through the generation of fees from the voluntary 
participants. In addition to the pilots I have already 
discussed, we are very close to approving several new RT sites 
that will operate under a public-private partnership model. A 
schedule for the roll out of these sites will be finalized by 
the end of Fiscal Year 2005.
    We are also preparing an options package for consideration 
by the DHS leadership regarding easing some security measures 
for RT participants. Possible elements might include RT 
participants' exemption from requirements to remove jackets, 
coats, and shoes, and to have to take computers out of their 
cases.
    Ultimately, TSA's primary mission is to secure our Nation's 
transportation networks. The Registered Traveler Program offers 
an enhanced travel experience for travelers who wish to 
participate with no compromise of security.
    This concludes my oral statement. I will be pleased to take 
any questions you may have.
    [The statement of Mr. Blank follows:]

                    Prepared Statement of Tom Blank

    Chairman Lungren, Congresswoman Sanchez, and members of the 
Subcommittee. Thank you for this opportunity to speak with you on our 
domestic Registered Traveler (RT) Program. The Transportation Security 
Administration's (TSA) mission--to protect the Nation's transportation 
systems to ensure the freedom of movement for people and commerce--
continues to be a vital one, nearly four years after the tragic events 
of 9/11 that motivated TSA's creation. As you know, since its inception 
TSA has relied upon a layered ``system-of-systems'' approach to 
aviation security, because no single security layer can be guaranteed 
to be 100% effective.
    The RT Program should prove to be an important part of our layered 
system-of-systems. The Aviation and Transportation Security Act (ATSA), 
P.L. 107-71 directed TSA to explore options for expedited travel at 
airports. The mission of the RT Program, now being tested in five 
pilots, is to expedite travel for those who qualify to participate 
while enhancing aviation security.

The Registered Traveler Concept and Benefits
    The RT Program is a security program that provides customer service 
benefits, while enhancing aviation security. The program provides TSA 
with valuable information to conduct threat assessments and verify 
identity, and enables it to concentrate its resources more effectively, 
while offering qualified applicants an expedited travel experience. To 
participate, applicants provide personal information which will serve 
as the basis of a security assessment. That assessment includes a name-
based check against Federal government watch lists and databases of 
outstanding wants and warrants. Applicants also provide biometric data 
(fingerprints and iris data) which are used for identity verification. 
When an approved participant travels from his host airport, his 
identity and status under the program is confirmed at RT kiosks located 
near the security checkpoint.
    While approved participants experience expedited security 
screening, they still go through normal security screening at the 
checkpoint. However, unless they alarm the screening equipment, they 
are not selected for additional screening. Because RT travelers are 
largely exempt from selectee screening and have access to dedicated or 
designated security lines and lanes, they move through the checkpoint 
screening system more quickly than the general public. Additional 
benefits to participants, including exemption from requirements to 
remove shoes and jackets and to take computers out of their cases, will 
be considered in the future. The decision on whether to include these 
or other benefits will, of course, be security based.
    The RT Program enhances security by allowing TSA to concentrate 
resources where they will be most effective. Essentially, because RT 
Program participants are ``known,'' that is they have already undergone 
a security threat assessment and biometrically verify their identities 
every time they fly, TSA can focus enhanced screening at the airport on 
``unknown'' individuals. Reducing the population of ``unknown'' 
travelers enhances security by allowing a greater correlation between 
resource allotment and passengers who are more likely to potentially 
pose a threat.
    Furthermore, less time spent on ``known'' low risk travelers frees 
resources to process the general public more rapidly, creating a 
secondary benefit in terms of easing checkpoint congestion. Thus, 
Registered Traveler should strengthen both security and customer 
service at the Nation's airports. A more efficient screening should 
benefit not only Registered Travelers directly but also the traveling 
public as a whole.
    And, overall, TSA is committed to protecting the privacy interests 
of travelers. The respect for these interests infuses all our decision-
making, including determinations of how we collect personal data and 
how that data is stored. I would like to emphasize that that the RT 
Program is and will be wholly voluntary and eventually will be funded 
through fees to participate in the program--only those who wish to take 
advantage of the program will be required to provide personal data. 
Participation in the program is in no way required as a condition of 
travel.

Five Federal Pilot Programs
    TSA, in partnership with Northwest, United, Continental, and 
American Airlines, and with management assistance of private 
contractors, Unisys and EDS, is currently successfully operating five 
Registered Traveler pilots. Beginning in the summer of 2004, the pilots 
were rolled out in Minneapolis-St. Paul (MSP), Los Angeles (LAX), 
Houston Intercontinental (IAH), Boston (BOS), and Washington, D.C. 
(DCA). Each pilot has enrolled roughly 2,000 participants. The pilots 
were designed to be consistent with the objectives they sought to test. 
Due to the variances of systems being tested at each airport, re-
enrollment of the pilot populations was deemed likely once the end 
solution was determined. The total number of enrollees of approximately 
10,000 ``very frequent'' fliers was selected in order to minimize any 
inconveniences (i.e., time, cost, and confusion) necessitated by more 
sizeable re-enrollment population. While originally planned to be 90-
day pilots, we have extended all five pilots through September 2005 to 
allow further operational analysis.
    The RT Pilot Program introduces the use of biometric technology and 
a voluntary security assessment process for the U.S. domestic traveling 
population. In developing the biometric component of the RT Pilot 
Program, TSA incorporated the use of dual biometrics (fingerprint and 
iris). In establishing the pilots, TSA incorporated current and 
emerging biometric standards. The use of advanced commercial-off-the-
shelf (COTS) technology for gathering and authenticating biometrics and 
biographical information has allowed the program to avoid unwarranted 
delays in launching the pilots. Consequently, the agency has been able 
to concentrate its energies on testing different configurations of COTS 
systems and various operational models, assessing the results, and 
compiling best practices.
    The efficacy of the pilot programs, in terms of effect on both 
security and service, is being analyzed this summer. This analysis will 
include a metrics analysis examining enrollment, checkpoint operations, 
overall operations, biometrics, call centers/customer service, security 
assessments, systems integration, and use of tokens/cards.
    The pilot programs were structured specifically to test different 
operational and technological configurations; therefore they are not 
interoperable. As a result, we learned a key lesson. COTS technologies 
are not necessarily interoperable--even if they fully comply to the 
same Federal standards. TSA is working with the pilots' vendors to 
create a replicable path to interoperability at the pilot airport 
sites. While this process requires more time than it would to require 
vendors to use a set of specific products, TSA believes that our 
approach will achieve interoperability without sacrificing the 
potential for technological innovations.
    Ultimately, TSA understands that the traveler's ability to take 
advantages of the benefits of the program at all RT-capable airports is 
critical for the program's success. TSA is fully engaged with its 
vendors on creating interoperability at all five original RT pilot 
airports in the current second phase of the pilot. We hope to 
demonstrate interoperability by the end of FY 2005.
    In conjunction with the RT pilots, we are operating Registered 
Armed Law Enforcement Officer (LEO) ``proof of concept'' pilots in Los 
Angeles and Washington, D.C. These pilots began in the fall of 2004; 
the Intelligence Reform and Terrorism Prevention Act of 2004 
subsequently mandated the establishment of a travel credential for 
armed LEOs that incorporates biometric identifier technology. Although 
this program is not identical to the RT Program, we are able to 
successfully share the program elements and assets that are common to 
each.

Public-Private Sector Pilot Program
    The five current pilots have successfully proven the operational 
feasibility of the RT concept, processes, and technologies in a 
practical environment. We are now building upon the experiences of 
these pilots and exploring whether to incorporate greater private 
sector participation, by launching the Private Sector Known Traveler 
(PSKT) pilot. Development of this pilot in partnership with the Greater 
Orlando Aviation Authority (GOAA) at Orlando International Airport 
(MCO), began in September 2004, and we anticipate it will become 
operational this summer.
    Although the PSKT Pilot will be privately administered at the 
airport, TSA will remain in control of all of the security aspects of 
the program. The airport authority and its contracted entities will be 
responsible for procurement, and operational and marketing functions, 
consistent with TSA guidelines. They will advertise the program, enroll 
participants and incorporate the mechanics of the biometrics (cards, 
kiosks, etc.), and maintain staffing at the PSKT line and kiosk. 
However, all essential security functions will be performed by TSA, 
including defining policies and operational and technical standards for 
all aspects of the pilot; conducting the security assessments and 
adjudications for all enrollees; maintain checkpoint operations at the 
PSKT lane; and overseeing PSKT pilot performance and compliance.
    TSA is exploring the private sector partnership portion because it 
has potential to offer many benefits over a purely Federal model. The 
private sector is able to offer greater flexibility in meeting customer 
expectations and has a financial incentive to do so. It can allow more 
rapid expansion due to its ability to provide rapid decisions on 
capital investment. Finally, it is often able to operate much more 
closely to the local market than a centrally managed system.
    The operational aspects of the PSKT pilot are designed to be 
similar to the five federally-run RT pilots, so that Orlando may 
eventually become interoperable with the existing RT pilot sites. TSA 
is closely monitoring the progress and performance of this public-
private sector sub-pilot to determine if it will provide a replicable 
and sustainable model for a nationwide rollout, should the Department 
choose to move in this direction.

The Next Steps
    TSA is currently in the process of analyzing the data from the 
pilot airports (and PSKT data when available) to incorporate best 
practices into future plans regarding Registered Traveler. In 
cooperation with stakeholders and other agencies in DHS, TSA is 
developing solutions to facilitate full-scale implementation of the 
program. These efforts seek to ensure that RT can achieve the necessary 
interoperability, scalability, privacy protection, data transmission 
and storage, and public-private sector partnerships to fulfill RT's 
symbiotic objectives of enhancing customer service and achieving 
greater efficiencies in screening at airport security checkpoints. If 
the program becomes fully operational it is envisioned as becoming 
self-sustaining through the generation of fees from participants.

Relationship to Other Department of Homeland Security (DHS) Initiatives
    Our focus with respect to the RT program, of necessity, is on the 
continued refinement of a fully operational domestic program. However, 
we continue to work with other DHS components to determine where 
systems, equipment and database sharing might be feasible, with a view 
toward potential future integration with various international travel 
facilitation programs managed by Customs and Border Protection (CBP) 
and the U.S. VISIT Program.

Conclusion
    Ultimately, TSA's primary mission is to secure our Nation's 
transportation systems. The RT Program offers an enhanced travel 
experience for travelers who wish to participate. But, there is no 
compromise on security.
    In 2005, TSA has pursued several avenues to further refine and 
enhance the Registered Traveler Program. TSA has been gathering and 
analyzing data from the five federally run pilots to ensure an accurate 
and secure solution that is accessible to the U.S. domestic traveling 
population. TSA has developed and will shortly deploy the PSKT subpilot 
at Orlando International Airport to test the functionality of a private 
sector partnership model and conduct market analysis with a larger 
population. The program is undertaking the preparatory work needed to 
meet all regulatory requirements necessary to implement the 
Department's and Congress's decision about the future of Registered 
Traveler. Finally, in partnership with other vetting programs, TSA has 
been developing a scalable infrastructure for data screening and 
vetting to provide the capacity to allow program expansion, if 
approved.
    Thank you for the opportunity to provide this information. TSA 
looks forward to working with the Subcommittee as we continue our 
efforts to strengthen homeland security. I will be pleased to answer 
any questions you may have.

    Mr. Lungren. Thank you very much, Mr. Blank. I appreciate 
it. I will start off the questions with 5 minutes.
    And I mean this seriously, but, I just mentioned a 
conversation I had with my dad. He would have said, ``we rolled 
across Normandy and we defeated Germany in less time than it 
has taken to do five pilot programs on the Registered Traveler 
Program.''
    What I am trying to say is, why has it taken so long? It is 
not the volume that you would have to deal with? We certainly 
have enough passengers to work through over a period of time. 
Has there been a lack of attention, a lack of direction? Has 
there been a fear on the part of TSA that this is something 
imposed by the Congress that you would rather not do? Or is it 
an integral part of your approach to trying to deal with the 
problem of security without unduly affecting the efficiency and 
effectiveness of the traveling public?
    Mr. Blank. TSA and DHS support, fully support, the 
Registered Traveler Program. We have proceeded as we have 
because, as you know, TSA in ATSA was given an awful lot of 
priorities, and for the first 2 years of our existence, we were 
pretty much subject to the three deadlines for the program, the 
baggage checks and nationalizing the checkpoints and so forth.
    The Registered Traveler Program is in ATSA as something 
that we are authorized do, but not required to do. It is in a 
section of the law where we are authorized to do things, but we 
are not required to do them. So it did not rise to the level of 
a vital program.
    But we did begin, in 2004, in April of 2004, to conceive 
the pilots and to get them rolled out last summer. And what we 
have been doing during this period of time is building an 
infrastructure, which is not a plug-and-play infrastructure. In 
other words, if we are going to have a gateway whereby we can 
receive biometrics from airports all across the country, it 
takes some time, from a technology perspective, to be able to 
build that gateway.
    Likewise, if we are going to be able to properly maintain 
the biometric and other data that we get in our transportation 
vetting platform, it takes some time to get that organized and 
to develop it from a technological perspective. And so we have 
been consumed with doing that.
    We now have the infrastructure to be able to run a 
Registered Traveler Program, and it is scalable. And we know it 
works. We just got our evaluation from BearingPoint this week, 
and we are beginning to see their assessment of the various 
technologies and so forth.
    We are at a point where we are beginning to get the data to 
give the DHS leadership so that they can make informed policy 
decisions on a variety of matters. We should be able to present 
to you the precise path ahead and answer the questions by the 
end of the fiscal year.
    Mr. Lungren. By the end of the fiscal year?
    Mr. Blank. Yes, sir.
    Mr. Lungren. You mentioned two things as the purposes of a 
Registered Traveler Program. One is to expedite the process; 
the other is to enhance security. There are some that have 
suggested that by expediting the process, we run necessarily 
into a contradiction with enhancing the security. And that is, 
even though we have all of this background information on these 
people, even though we have identified them as lower risk, that 
this would not allow us to give them any benefit at the time 
that they actually go through by some lesser standard of check.
    But yet you state in your testimony that TSA is considering 
the provision of additional benefits, quote, ``including the 
exemption from the requirements to remove shoes and jackets and 
to take computers out of their cases,'' to RT participants.
    I take it from that, you do not find a necessary 
contradiction between those two aims, in that at least you are 
seriously considering the possibility that a true benefit would 
be that one would not have to take coats off, one would not 
perhaps have to take shoes off or computers out of their cases.
    Mr. Blank. Those are critical policy decisions that we will 
be working on with the DHS leadership. Both the Secretary and 
Deputy Secretary are fully engaged and supportive of RT, and we 
are working with them to come to the necessary conclusions 
about the kind of benefits that we would see.
    We are at a place in our domestic civil aviation system 
where we are seeing increasing passenger loads. We are seeing 
new passenger terminals come on line. We are seeing increased 
demands for TSA security services. As we rely more on RT and 
expanding the Registered Traveler Program, that will allow us 
to pay less attention, to those known passengers and focus more 
attention with the resource base that we have out there, on the 
unknown passengers. That would become a very real benefit both 
to security and to convenience.
    Mr. Lungren. I thank the gentleman.
    The gentlewoman from California is recognized for 5 
minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. Mr. Blank, I guess I 
want to start off by asking you the question, if we had--if we 
were able to put in a program that really worked, I mean, 
worked from all of our viewpoints--because the Business Travel 
Coalition recently did a survey where business travelers said 
they would be willing to pay a little bit more or pay some fee 
or something if they could have easier access to get through 
the airport, et cetera.
    But I am very concerned about this issue that the Chairman 
brought up with respect to, why would we not have them take off 
their coats, take off their shoes, et cetera? I guess I am 
trying to figure out, what does the Department really think an 
expedited traveler looks like?
    Because, I mean, I am a congresswoman. You would think that 
I could sign up for this travel program. I still think it would 
be a good thing if you really thought that people hide bombs in 
their shoes or what have you, or you got a bad computer, why 
would you think you would exempt even somebody like me because, 
you know, I could get mad some day and maybe go crazy and bring 
something on?
    Mr. Blank. Well, Congresswoman, I indicated that we were 
going to consider that. Now, it may be that, in the context of 
that consideration, looking at the threats that the leaders of 
the Department may come out and say, we are not comfortable in 
doing that.
    But if we are not able to do that, then there may be some 
reason to question whether the Registered Traveler Program has 
a real value. I might also say that one of the reasons that we 
have brought this along at the pace that we have is the fact 
that TSA has been able to maintain pretty reasonable wait times 
across the system and received pretty high customer service 
marks, meaning that the idea of being able to offer only a 
short line there hasn't been a great pressure to do that.
    But you are right on the policy decision. That is 
absolutely critical. And we do not think we could make the 
decision without some experience in handling these people and 
doing the background checks, and rerunning them periodically. 
In other words, if you are a Registered Traveler, periodically 
we are going to see if you have done something that would cause 
us to question your security viability. We will rerun that. 
Until we get some experience with all of that, we were not 
comfortable in making these policy decisions about what lesser 
security measures are acceptable.
    Ms. Sanchez. When do you think we may have some policy 
changes of that type coming out of the Department?
    Mr. Blank. The end of the fiscal year is when we have 
committed to providing a clear path forward with a policy 
decision. We are now at the point where we have the 
infrastructure built, the gateway; the platform is there, and 
it is scalable. It can handle 30,000 people now in Orlando, 
30,000 more in 2006, and we can begin to do incrementally more 
as we get the program opened up.
    Ms. Sanchez. I have two other really quick questions. One 
is, what do you have planned after Orlando so far, given one 
policy or the other? And, secondly, you know, when I go to the 
airport, there is the special line, but when I go, which is 
usually to take the red eye, the special line is closed.
    So I might be a Registered Traveler, but I end up being in 
the long line. Do you not keep it open 24 hours at these 
places? Is there a limited amount? I mean, how are you working 
that?
    Mr. Blank. There are operational differences in each of the 
five pilots. Are you talking about Los Angeles?
    Ms. Sanchez. Yes.
    Mr. Blank. I can get you the precise times that the lanes 
are open. But it is not a 24-hour service. We are too limited 
in the available resources to make it 24 hours.
    Ms. Sanchez. Okay. And then plans for after Orlando.
    Mr. Blank. There are a couple of things. We, first of all, 
have to see how this private-sector pilot works. We have a 
Federal program at five now. We are going to do a partnership, 
and we have to see how we feel about that.
    The Members of the subcommittee have raised some questions 
about that already. And we want to see how that works out. Then 
we have got to get the five and possibly the sixth one 
interoperable. That is not a small thing. Most people who use 
biometrics do not want more than controlled access at an office 
building or some other limited application that does not 
require inter-operability.
    And then we would like to be able to examine the 
feasibility of going to a couple of other airports over the 
next several months with some additional pilot programming.
    Ms. Sanchez. Thank you.
    Mr. Lungren. Mr. Linder.
    Mr. Linder. Thank you, Mr. Chairman.
    Last week we had testimony from an individual who is part 
of the Registered Traveler Program here in Washington at Reagan 
Airport. And he said he puts his thumbprint or fingerprint in 
the kiosk and then walks in a line and takes his coat off and 
takes his computer out of the case and goes through the normal 
screening. Is that still the case?
    Mr. Blank. He would--it is. But he would not be subjected 
to secondary screening unless he alarmed.
    Mr. Linder. What is the point--.
    Mr. Blank. Well, the point--.
    Mr. Linder. What is he gaining over going through a regular 
line?
    Mr. Blank. Well, for purposes of the pilot program, he is 
gaining about 4 to 5 minutes in line time, according to the 
results that we are getting. That is the benefit for right now.
    Mr. Linder. When you do the background check, do you find 
out whether this is an honest guy and not a bad actor? Is that 
what it is all about?
    Mr. Blank. We do a name-based background check. And I would 
consider classified exactly what would disqualify somebody, but 
we would be pleased to provide that information to the 
subcommittee outside of the public setting. But we are looking 
for ties to terrorism.
    Mr. Linder. If you clear the background check, you think 
the guy might still get on the airline and blow it up?
    Mr. Blank. Well, we would have less concern about that, 
which is why we would not have that individual going through 
secondary screening unless there was an alarm for purposes of 
the pilot program.
    Mr. Linder. We spend about one-fifth--one-eighth of the 
entire budget of the Department on airlines; that was for 690 
million passengers in 2004.
    We spend one-forty-fifth of it on rail that had 9 billion 
passengers. Where is your sense of proportion here?
    Mr. Blank. I don't think that, when we look at what we put 
into rail, that we can count just Federal dollars. I think that 
for TSA's part, our role is risk mitigation, vulnerability 
assessment, planning, information exchange, and intelligence 
analysis. That does not necessarily cost a lot of money.
    But, if I take that information and I give it to the 
operations center at the American Association of Railroads or 
the Union Pacific Corporation Operations Center, they use it to 
give to their private police force to provide track security; I 
am leveraging it.
    So I think that you have to look at a lot of other private 
and local police at the State level, and what that costs you, 
so you can get a picture of what resources we are really 
putting into that.
    Mr. Linder. If a terrorist was going to make a trip on an 
airline, do you think he would come in with his recognizable 
identification, or do you think he would get a fake ID?
    Mr. Blank. Well, we do not know. That is why--.
    Mr. Linder. What do you think?
    Mr. Blank. What do I think?
    Mr. Linder. Yes.
    Mr. Blank. I think that we have a system of layered 
security, because there are some of those layers out there that 
can be penetrated; that is why we are not doing one thing. So I 
wouldn't rely on identification that gets printed. And that is 
why I would not rely on just a background check. It is why we 
have hardened cockpits, pilots with guns, Federal Air Marshals, 
and the like.
    Mr. Linder. So do you not think that those, the hardened 
doors, the pilots with guns, Federal marshals, do you not think 
they would be able to stop any airplane from hitting a building 
again, not to mention the passengers who would stop it as they 
did in Pennsylvania?
    Mr. Blank. Well, I think it is better to be safe than 
sorry. I think that we have a good solid line of defense for 
the cockpit. I think we have dropped down the likelihood, but 
we always say that security is a filter, not a guarantee.
    And I am not prepared to tell you that a hardened cockpit 
door and some of those other things alone are a guarantee that 
a bad thing will never happen again.
    Mr. Linder. Nor is there a guarantee that somebody won't 
put a bomb in the cargo and blow up the plane. You do not even 
look for that, do you?
    Mr. Blank. Yes, we do. The electronic baggage screening is 
looking specifically for explosive devices in checked baggage.
    Mr. Linder. What percentage of the cargo is screened?
    Mr. Blank. Well, again, you are asking me for some numbers 
that are classified, that I would be happy to give you.
    Mr. Linder. Why is that classified?
    Mr. Blank. Because we do not want to let any bad guys know 
the amounts. But we would be happy to give it to you. I will 
tell you this, that as of the middle of the next month, the 
amount that is physically inspected will be tripled over what 
it was at the beginning of the year.
    Mr. Linder. You mentioned you are getting high customer 
service--.
    Mr. Dicks. Will you yield? Is that cargo or baggage? Can 
you give us an either/or on that?
    Mr. Blank. 100 percent of all checked baggage is screened 
electronically using explosive detection system equipment or 
explosive trace equipment.
    But the cargo that is carried in the belly of a passenger 
aircraft is screened by the Known Shipper Program, and then a 
percent of that is also physically screened. When we have 
resources in the airports at non-peak times, we do use our 
screeners and our EDS equipment to provide additional 
electronic screening.
    Mr. Dicks. Thank you for yielding.
    Mr. Linder. One point, Mr. Chairman.
    You mentioned you get high customer service remarks. I 
would like to meet that person.
    Mr. Blank. Okay. I will provide you with the BearingPoint 
study results, sir.
    Mr. Lungren. The gentleman, Mr. Dicks, from Washington is 
recognized.
    Mr. Dicks. You know, in your statement, you say in your 
written statement, Mr. Blank says, if the program becomes fully 
operational.
    If? Now, that tells me you are not yet sure. I think that 
is reasonable based on what we heard. I am not sure this is 
worth doing, frankly. I know it would be helpful to Members of 
Congress and other people and a lot of my friends. But is there 
some doubt about going forward with this?
    Mr. Blank. There is no doubt that it will go forward. The 
question and the caveat I am getting at is how quickly it will 
go forward, how quickly it will expand, and how quickly will it 
ramp up. That has to do with a couple of things. One, I am not 
prepared to tell you whether we will commit to a Federal 
program model or a public-private partnership model.
    That policy decision has a great deal to do with how 
quickly the program expands. I also am not prepared to tell you 
precisely what the resource level is that we are able to put 
toward it. I need to get a rulemaking completed and put in 
place before we can collect fees.
    So there are a couple of questions that we have to get to 
before I can tell you or give you a solid feel for how quickly 
we are going to go from where we are now to fully operational.
    Mr. Dicks. At some airports today that are not part of the 
pilot, they are letting frequent flyers for particular airlines 
go through a special lane. Are you aware of that?
    Mr. Blank. I am. And that is according to policy of TSA in 
this sense. TSA's responsibility begins at the checkpoint. The 
line belongs to the airline, and that person that is checking 
ID and your boarding pass ahead of the line is an airline 
contractor that we require to be there to do that function.
    Where airlines have determined that they want to have a 
special line available for their frequent flyers, we permit 
them to do that within reason in some places.
    Mr. Dicks. Now, that may be an alternative. Could not that 
be an alternative strategy to dealing with this issue?
    Mr. Blank. Well, if we look just on the customer service 
side, sir, yes. But what we are trying to get to here is that a 
Registered Traveler program has a real security value, because 
if we can pay less attention to these people, we can do a more 
thorough job for people that are not known.
    Mr. Dicks. But you still have the same level of security 
checking them, the RTs, as you do with the regular person, 
which I am not necessarily against.
    Mr. Lungren. The one point that you did make, though, is 
that they are taken out of automatic secondary screening.
    Mr. Blank. That is correct.
    Mr. Lungren. So if their name pops up under the other 
program we have, where they would go to secondary screening, 
they bought the ticket late, they are one way and so forth, 
they would not have the automatic. That is the only thing that 
I see that is different right now.
    Mr. Dicks. I appreciate you making the point.
    Now, let me go to the hard realities of all of this. What 
is the limit that we have on the number of screeners now, 
45,000? What is the number?
    Mr. Blank. Well, the number is 45,000 FTEs. That is a 
dollar number. But it is a hard limit. It is not a body count; 
it is a dollar number.
    Mr. Dicks. Now, if we have that hard limit, and we go ahead 
with the Registered Traveler Program, are we not just going to 
make the line that the average citizen has to go through 
longer? Because, we do not have the resources to add additional 
people if necessary to put this thing in place.
    Mr. Blank. Well, first of all--.
    Mr. Dicks. Do you guys support this 45,000 limit?
    Mr. Blank. We have just in this year hired up to that 
number. This is the first fiscal year that we have had that 
amount deployed. What we are seeing across the system, with 
that amount deployed, is very favorable wait time numbers 
across the system.
    Now, are we concerned about the summer when we are going to 
see load factors go up? Yes, we are concerned about that. We 
are working closely with the airlines and airports to figure 
out what it is that we are going to do about that. We have 
concerns, because of the 4 to 6 percent growth that we are 
seeing in passenger loads right now, and what the impacts on 
customer service will be as we see that growth.
    But it is something we will have to look at and deal with 
accordingly.
    Mr. Lungren. The gentleman's time has expired.
    Mr. Pearce, the gentleman from New Mexico, is recognized 
for 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman.
    As one of the holders of the Registered Traveler Program, I 
would hope that you continue to do it, because I can see the 
benefit for me. I fail to see the benefit for TSA. How many 
random checks, as a percent, do you impose in the system?
    Mr. Blank. Once again, that is a classified number, which I 
will be happy to give you.
    Mr. Pearce. It is very small.
    Mr. Blank. It is very small.
    Mr. Pearce. That is the only benefit. So you take the 
number of Registered Travelers, and multiply times a very, very 
small percent, that is the benefit.
    What is the cost of the Registered Traveler Program right 
now? What does it cost?
    Mr. Blank. By the end of the fiscal year, we will have 
spent $17 million.
    Mr. Pearce. So you get $17 million, and you then figure the 
benefit, one small percent, classified, times the number of 
Registered Travelers. So if there are 1,000 Registered 
Travelers, and you save 1 percent, you saved the amount of 
secondary screening time for 10 people basically, which, if 
secondary screening is 2 minutes, you save about 20 minutes for 
$17 million. As you expand it, you can see the geometric 
progression because I go through.
    By the way, your testimony needs to be changed. It is not 
from a host airport; it is from the host terminal.
    Mr. Blank. Yes, sir.
    Mr. Pearce. I can only depart from one terminal through the 
Registered Traveler Program. None of the other airlines 
participate.
    You have mentioned that your wait times are becoming more 
favorable. Do you have a measure of employee time that is not 
spent screening?
    Mr. Blank. I don't have it at my fingertips. I suppose that 
we can provide it.
    Mr. Pearce. My point is, if you continue to hire enough 
people, you can get your absolute wait time down to zero, but 
you could also have people standing around. And that is the 
complaint I get from airline employees. And they will show me, 
they will see I am a Member of Congress because we are met at 
the gates, and they will say, look over there. I am making $7, 
and I work my heart out all day long. They are making $16, and 
they are standing over there all day long never turning a tap.
    So if you are not measuring the amount of productive time, 
it is just another flabby government bureaucracy at play.
    Mr. Blank. Well, here is what I can say. After having 2 to 
3 solid years experience with a new function, we recognize that 
there are some airports that are not properly staffed. Some are 
understaffed, and some are overstaffed. We have begun a process 
that will continue through the summer to reallocate that 
workforce, so that it will be properly utilized and be at the 
right airport at the right place at the right time.
    Mr. Pearce. Do you have any estimates, Mr. Blank, about the 
cost of the Registered Traveler Program if you do the geometric 
expansion that you say is capable?
    Mr. Blank. Well, let me put it this way. First of all, let 
me address the $17 million. The $17 million will not be 
recurring costs. In other words, we built some infrastructure 
for this program. We have built a capability to collect 
biometrics. We have put the privacy protections in place. We 
have allocated space on a platform. So those will not recur. 
What we expect is that the cost of doing a background check, 
which will remain in Federal hands, will be someplace between 
$30 and $50 to get the background check completed.
    So it will make a big difference as to whether we choose a 
Federal program model or whether we choose a private-sector 
program model. If the Orlando model is how this goes forward, 
we will be able to go literally to a million or more people.
    If we choose the more expensive, the Federal program model, 
it will be considerably less than that.
    Mr. Pearce. Any idea of the recurring cost per person? $30 
to $50 for a background check. How much for the day-to-day 
operational components? Any ideas on that?
    Mr. Blank. Again, if it is the private-sector model, that 
would be upfront. I would have to do a little math, but I could 
get you that number, because we have the experience with the 
pilots as to precisely what that upfront cost is.
    Mr. Pearce. Again, it is important to measure the benefit. 
And the only benefit I see for the TSA is the number of random 
checks multiplied times the number of people who are in the 
Registered Traveler Program multiplied times the time that the 
random checks take, approximately 2 to 3 minutes. And you wind 
up with a large expenditure and a very small benefit. Thank 
you, Mr. Chairman.
    Mr. Lungren. Thank you.
    The gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Blank, on the--you know, you talk about the cost 
comparison between Federal and private-sector programs. I do 
not quite understand. I mean, I understand there is an 
appropriations process, and then there are capital costs which 
could be cranked into the fees.
    Why couldn't you have a Federal program that would be self-
financing? We estimate--we have the surveys. We know 
approximately how many frequent flyer travelers there are, 
business travelers, how many people would register at a 
reasonable amount.
    The Federal Government could figure that all out and figure 
out what they would need to charge to recoup the upfront 
investment costs and the costs of the program, just the same 
way the private sector is going to do. That is one question.
    The second question is, how are you going to deal with--and 
I asked this question last week--the monopoly characteristics? 
Orlando is a sweet deal for the airport; they get a cut. You 
get a private company that has got a monopoly, and they are 
charging the calculated fee, which was determined not by the 
cost of the program or the benefits of the program but by how 
much the market would bear. They did a market survey and 
figured out people would pay $79.95 to get to jump the line.
    Now, that is a heck of a way to run the system which is 
basically a security system, but it is also a system which 
hopefully will initiate a return of business travelers to the 
airlines and away from this flood toward private jets and all 
of that that we are having, which are continuing to hurt the 
industry, because I want to maintain a robust national 
industry.
    How would this expand beyond Orlando? Or are we going to 
give a nationwide unregulated monopoly to one company? Are you 
going to have multiple entrants? If you have multiple entrants, 
how are you going to control that and supervise that? Wouldn't 
it be quite expensive for the agency, if you have 50 private 
vendors who are issuing 50 different cards, but they are 
interoperable? You have got to supervise them and make sure 
that none of them are owned by al-Qa`ida.
    You make it sound like the private sector can do this and 
expand to a million just like that. So one company is given a 
nationwide monopoly? Is that how it would work? No bidding. How 
are you going to set the fees? I mean, market survey or real 
costs, rate of return on investment, all of that stuff?
    Mr. Blank. First, with regard to your comments about the 
Federal program, you are correct. We could do that. And I 
should clarify, to acknowledge, that your point is quite right.
    The issues you articulated so very well are precisely what 
is on our plate right now, to figure out and determine the 
answers to that between now and the end of the fiscal year. 
There are not simple questions or simple answers. And we had a 
lot of unexpected things happen in the pilot program and in how 
it developed in the front end in Orlando.
    But, we did not want to interfere with how the private 
sector might want to bring a product to the marketplace. But 
what I would say is, remember that it is a pilot program. It is 
not our intent to urge that it be replicated across the 
country, and certainly, we have an interest in the American 
public being provided a fair and reasonably-priced Registered 
Traveler program.
    If the private sector is to be involved, we would recognize 
the private sector is entitled to make a profit and wouldn't 
oppose that. But there is no Registered Traveler Program that 
is going to work without a TSA partnership, because they could 
not get the background check. If the natural forces of 
competition do not keep it in line, or if somebody is going to 
defraud the public or make some sort of obscene profit, we 
would always have the capability to shut that down simply by 
not recognizing that particular vendor's card, biometric, and 
not by providing them any further background checks.
    Mr. DeFazio. Orlando gets a cut. It is a sweet deal for 
them. They get $700,000 up front. They are going to get a 
percentage of every card sold at $79.95, not $80, and you so 
there would not be a perverse incentive, I think, the airport 
is also involved in the decision to have the special line.
    As far as I know, at Portland International, it was the 
airport working with the airline vendors who determined they 
could have a special line for the frequent flyers, which is as 
good as Registered Traveler for me. When I go to Portland, I 
can go to the front of the line. At my home airport, I can't.
    So if I was the airport, I would say, hey, close that down, 
we don't get a cut of the frequent flyer program from United, 
but we are going to get a cut on the Registered Traveler, get 
those people to the back of the line and make them pay $79.95 
or $109.82 for the card.
    Mr. Blank. We have to think that through very, very 
carefully. And the point is well made.
    Mr. Lungren. The gentleman's time has expired.
    Mr. Thompson, the gentleman from Mississippi, is recognized 
for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Blank, I understand the layered security comments 
earlier and what TSA is doing, and why you are doing things 
with frequent travelers.
    But all individuals are still being screened. Can you just 
tell me why we screen everybody except the people who are 
cleaning the planes?
    Mr. Blank. I am sorry? Why we are screening everyone that 
comes through the checkpoint?
    Mr. Thompson. Right.
    Mr. Blank. ATSA requires us to.
    Mr. Thompson. To screen them?
    Mr. Blank. To screen them.
    Mr. Thompson. Why do we not screen the people who clean the 
plane?
    Mr. Blank. All airline and all airport workers, again, 
because of requirements in ATSA, have been subject to 
background checks, very thorough background checks, name-based 
and criminal history records. So we feel that we can have a 
higher degree of confidence in those people because they have 
been subjected to that background check.
    Mr. DeFazio. Those are just name-based checks?
    Mr. Blank. For a Registered Travel they are name-based 
checks. I believe, Congressman, that the airline and airport 
workers--
    Mr. DeFazio. Now, some airports are doing fingerprint 
checks. Others are doing name-based checks. It is not 
consistent.
    Mr. Thompson. Well, thank you, Mr. DeFazio. I appreciate 
it. But my point is, am I screened or checked each time I go to 
a plane, or is it just one check?
    Mr. Blank. No, you are not. If you are an airline employee, 
some airline employees are screened every time they go to the 
aircraft. And those would be pilots and flight crews. Others 
that have responsibilities on the AOA, the Aircraft Operations 
Area, for purposes of practicality have been background-
checked, and we allow them to access the aircraft based upon 
their job needs.
    Mr. Thompson. Well, let me ask it another way. We screen 
Registered Travelers. We screen and check pilots and people who 
fly for the first time. But the workers do not get screened.
    Mr. Blank. That is correct, sir.
    Mr. Thompson. You do not see that as a vulnerability?
    Mr. Blank. We will continue to review our requirements in 
terms of the threats that we see that are present. We are 
trying to find a balance between security and keeping the 
aviation system operating. That inherently means that we have 
to accept some degree of risk.
    And when you think of the expense, and when you think of 
the personnel that are necessary, if we were to require a 
physical screening at every perimeter access point on an 
airport or every security identification area door, it is our 
view that, with the background check, that that is a reasonable 
risk to accept.
    Mr. Thompson. Well, if I am not mistaken, and the record 
will reflect it, are we not picking up--is not ICE picking up 
people who perform those jobs for various illegal situations?
    Mr. Blank. Along with ICE and other agencies, we would 
constantly be double-checking whether or not an individual is 
truthful about his or her immigration status. Another thing 
that we have done--
    Mr. Thompson. Excuse me. So if I am not truthful, then you 
do not stop me from working at the beginning?
    Mr. Blank. We may--it is not a perfect system. We may not 
be able to positively determine that you have lied in your 
employment application.
    Mr. Thompson. Well, you said, we do these background 
checks. I would assume that you would not employ someone before 
the background check is completed.
    Mr. Blank. For TSA's purposes, we will employ someone for a 
short period of time on a name-based check until the 
fingerprint background check is completed.
    Individuals that are airline and airport employees have the 
name-based check and, in many instances, also have the 
fingerprint check before they are allowed access to secure 
areas.
    Mr. Thompson. So in other words, I can go to work, and then 
if my background does not check out, I lose my job?
    Mr. Blank. That could potentially happen. Yes, sir.
    Mr. Thompson. But in the interim, I am working?
    Mr. Blank. Yes, sir.
    Mr. Thompson. I yield back.
    Mr. Lungren. If I can follow-up on that. We talked about 
how TSA does background checks on airport workers as the 
standard for granting unescorted access to some sensitive areas 
of the airport.
    TSA subjects Registered Travelers to background checks and 
has their identities verified through biometrics. And yet they 
have to go through the full screening right now. What are the 
differences, if you can tell us, if this is not classified, 
between the extensiveness of the background checks on the 
airport workers versus the Registered Travelers? Because it 
suggests that you do far more background checks on the workers 
than you do the travelers, therefore you grant them this 
access.
    Mr. Blank. We have to between now and the end of the fiscal 
year bring our policies into alignment. I would say that our 
policies with regard to background checks, screening levels, 
and security measures should be viewed in the context of a 
pilot program and not in what we will require when we go fully 
operational with this. We have Secretary and Deputy Secretary 
input to say--and it is a very real question--these individuals 
had a background check, they don't get screened, but the 
registered travelers do. And we would say, well, that is 
something we have look at. We have to make some sense out of 
that. But we haven't done it in the pilot phase.
    Mr. Lungren. Let me get it clear in my own mind. For 
Registered Traveler, you do not get the registration. You do 
not actually qualify for Registered Traveler until your 
background has been completed, correct?
    Mr. Blank. That is correct. For purposes of the pilot, we 
are doing a name-base check only. That can happen very quickly. 
Another policy decision we are going to have to make is, if we 
are to grant less security measures at the checkpoint, will we 
require a registered traveler to also be subjected to a 10-
fingerprint-base criminal history record check.
    Mr. Lungren. You haven't made that determination yet?
    Mr. Blank. No, sir.
    Mr. Lungren. And it would be a 10-print background check?
    Mr. Blank. If we decide to require it, it would in all 
likelihood be a 10-print.
    Mr. Lungren. If you are going to use this for a model for 
other programs, it would be my suggestion that you do go to a 
10-print, because that would be the most effective one and the 
ones most compatible with background checks that would allow us 
to utilize other databases, including foreign databases if we 
ever needed that. I would hope that we would look at that very, 
very seriously.
    Gentlelady from California is further recognized for 
further questions.
    Ms. Sanchez. Okay. I am trying to understand who has access 
to the plane. So you are telling me that if I am a--if I 
purchased a first class ticket and I didn't have an SSS on it--
whatever the symbol is for pulling me over to secondary check--
I can go through the, say, United first class premier line or 
what have you, which by the way I believe is the same line for 
registered travelers to get expedited--given if that line is 
open--if that line is open during the time that I happen to be 
at the airport. So I can either be a first class ticket holder, 
I can be a registered traveler, if it happens to be a program 
that is in there and I go through that line; otherwise I sit in 
the normal line, but we all get checked in the same way when we 
go through the security. The only thing I am going to get as a 
registered traveler is not have a secondary check on me; is 
that correct?
    Mr. Blank. That is correct, for the pilot program, yes, 
ma'am.
    Ms. Sanchez. If I am a worker that is putting meals on the 
plane or what have you, I get a background check. I may be 
hired before the background check is completed. I am hired by 
the airline, so it is not a TSA program and I have an ID. And 
when I come to the airport to work for the day, do I pass 
through any type of security screen that says this is me?
    Mr. Blank. When you come you have a credential which you 
must display. You are subjected to being confronted by other 
employees and ground security supervisors that are employees of 
the airlines. It is called challenge procedures. They are 
required to do this. But when you come to work, you will pass 
through a door that we regulate as part of the airport security 
program. It will have some sort of security on it. In some 
airports it is a biometric. At other airports it will be a 
swipe card. So you will come through a security door. Some are 
observed by cameras. And you will come in and perform your 
responsibilities as a baggage screener or a baggage handler or 
what have you.
    Ms. Sanchez. It is a possibility that I could get a job at 
the airline without my background being completely checked out, 
start to work, have a card, a swipe card or what have you, go 
in through--not have a metal detector or anything so I could be 
possibly bringing a gun through this screen door or this 
security door that you have, because you didn't tell me that 
you have a checkpoint like you do with the flyers.
    Mr. Blank. Right. I want to make sure that I am precisely 
accurate on this, Congresswoman. And I want to verify this, 
because I am not certain as I sit here whether the airline and 
airport workers can access the secured identification area 
before the full background check is completed.
    Ms. Sanchez. But I certainly can go through whatever the 
security point is, and isn't necessarily checking to see if I 
am carrying a gun for the day?
    Mr. Blank. That is correct. Now let me tell you what we 
have done.
    Ms. Sanchez. The pilots have to go through the normal 
process.
    Mr. Blank. The flight crew.
    Ms. Sanchez. We have postal workers. There is a saying, he 
went postal. The same thing could happen with an airline person 
who goes through the day with a gun strapped to their leg and 
what have you, and we don't have that screening for them.
    Mr. Blank. Two things. Number one, I testified earlier that 
security is a filter and not a guarantee. We are not ever going 
to take the risk down to 100 percent until we put the airplanes 
on the ground. Now, what we can do--and Congressman DeFazio was 
very instrumental in this--we can and have greatly reduced the 
number of access points. We have closed a lot of doors. What we 
can do is make sure that the security forces that we have in 
place--whether those be LEOs that are on patrol there, and they 
are required to do that: whether it is airline security 
officers, and they are required to do that: on challenge 
procedures and so forth--that we concentrate them on just the 
bare minimum number of access points at a particular airport so 
that it can maintain proper functioning.
    Ms. Sanchez. I understand. And I think it is a good idea 
that we have limited access, and this is not the registered 
travel program, but this is just because I am interested in 
this other subject, but what you are really telling me is I can 
be somebody--this system is assuming that if you are an 
employee of the airport or the airline that doesn't go through 
the checkpoints but goes through this other door, that because 
I have had a security background, I am going to have less of a 
security check when I come to work than anybody else, where, in 
fact, as an employee, I may not have had my background checked 
yet. That is a possibility, right?
    Mr. Blank. That is what I want to verify.
    Ms. Sanchez. That is not the subject of this congressional 
hearing, but it is an interesting fact that I have just heard.
    Mr. Lungren. Lady's time has expired. The gentleman from 
Georgia, Mr. Linder, is recognized for 5 minutes.
    Mr. Linder. If a person goes through one of these portals 
at some airport where the swipe card is used instead of a 
thumbprint or a fingerprint, does that swipe card show up on 
some monitor the face of that person who is holding it?
    Mr. Blank. That is one of the technologies we have tested 
as far as the pilot is concerned. That occurs at a number of 
the airports, but not at every one. So we have that capability.
    Mr. Linder. Is there somewhere that the swipe card is used 
and it doesn't show a picture?
    Mr. Blank. Yes.
    Mr. Linder. What is the point?
    Mr. Blank. Well, because we have biometric data. The 
picture is a higher and better degree of security, but you 
don't often fool the fingerprint biometric. It pretty much 
identifies you every time.
    Mr. Linder. I thought you said that some places the 
fingerprint is used, and other places just a swipe card is 
used.
    Mr. Blank. I am sorry. I thought we were back to the 
registered traveler program. There are some airports that have 
access to secured areas that use a swipe card. We are about 
ready--but some airports have not gone to the biometric 
technology. Most will, because they have the concern that 
standards haven't been published. We will have standards 
published to assist these airports, and moving to biometrics 
within the next several months. That is a requirement of the 
intel reform bill.
    Mr. Linder. You mentioned a BearingPoint study that just 
recently has been done. There is another Bearing Point study 
that I would like you to refer to. It was studying Kansas City 
screening operation which is privately run--one of the five 
pilots in this country that are privately run. And my 
recollection is that the Bearing Point study said that the 
privately run TSA screening operation with TSA's regulations, 
but privately run hiring and overseeing staff, saved $8 million 
that year in Kansas City versus the cost of government running 
it. Is that true?
    Mr. Blank. I am familiar with that BearingPoint study, but 
I am not familiar with that finding. I would be pleased to 
check and come back to the committee.
    Mr. Linder. Please.
    Mr. Lungren. Would the gentleman yield? I have been 
informed we have eight votes on the floor. So I would be 
predisposed not to come back, but we will keep going for a few 
minutes if that is the pleasure of the committee.
    Mr. Linder. I have two more comments on the Bearing Point 
study. Is it still the case that you have on any given day 17 
percent of your screeners that just don't show up for work?
    Mr. Blank. I don't believe that is correct, but I am not 
familiar with that statistic.
    Mr. Linder. Is it still the case you have about a 28 
percent annual turnover?
    Mr. Blank. That is not correct. It is about 23 percent 
annualized. That is the same as the Ritz Carlton Hotel chain, 
for example.
    Mr. Lungren. That is the first comparison I have heard of 
TSA to the Ritz Carlton.
    Mr. Dicks is recognized.
    Mr. Dicks. When is the decision going to be made about this 
registered traveler? You say by the end of the next fiscal 
year?
    Mr. Blank. Yes.
    Mr. Dicks. And the decision will be whether we go 
nationwide or how we are going to ramp it up?
    Mr. Blank. How we are going to ramp it up, what is the role 
of the private sector, how will we achieve interoperability, 
what will you have to submit, 10 prints plus a name check, and 
whether less security measures would be acceptable.
    Mr. Dicks. By the way, on the fingerprints there is no 
doubt in my mind, having heard a lot of testimony in this 
committee that the 10 prints are much more reliable than the 
two prints we use for U.S. VISIT, which I think was a terrible 
tragic mistake. But what are you going to do on that? Are you 
going to use 10 prints?
    Mr. Blank. I think it is entirely likely that we will. That 
is a decision that belongs to my bosses to make, but I think it 
is highly likely we will.
    Mr. Lungren. Will the gentleman yield? I think you will 
find support on both sides of the aisle on that.
    Mr. Dicks. I think the case here is overwhelming. We made a 
big mistake on U.S. VISIT. Even though we did let them know 
ahead of time that this was mistake, they still went ahead and 
did it, which I think we will have to pay for and change. I 
yield back.
    I just say to Mr. Pearce, one other benefit of this is the 
short line. That, to me, for all the guys way back, and you are 
up there right quick, I think that is benefit.
    Mr. Lungren. Gentleman from New Mexico, Mr. Pearce, is 
recognized.
    Mr. Pearce. Absolutely. That is the reason I said please 
keep it in effect. But if everyone has a registered traveler--
and I think something like 80 percent of the travelers are 
frequent fliers and so they would probably be registered 
travelers--now the lines are going to be just as long for the 
registered traveler program.
    Mr. DeFazio. It is 8 percent of the people take 25 percent 
of the flights. So it is a large percentage of people who are 
infrequent travelers.
    Mr. Pearce. My question, I suspect if you are going to 
implement something the first of the year, Mr. Blank, you 
probably have estimates of what the costs would be to implement 
that nationwide. We have discussed the cost of the pilot 
program. What are the costs of the full program?
    Mr. Blank. It is going to be run by fees. Our 2006 request 
is for 422.5 million in fees. We expect to have some carryover 
money to sustain the program in 2006. And if we use the private 
sector model, and we are at that fee level, we could 
potentially get up to a million registered travelers.
    Mr. Pearce. If you have a million travelers and 22.05 
million in fees, what is--how many airports will you be taking 
care of?
    Mr. Blank. We have to figure that out between now and the 
end of the fiscal year. But I would say we would very likely 
concentrate on category X and category 1 airports where we have 
most of the passengers and where we would have most of the 
strains on resources.
    Mr. Pearce. Mr. Blank, the number of airports you would 
guess would be how many?
    Mr. Blank. Eighty.Sec. 
    Mr. Pearce. Eighty airports. Okay. Thank you, Mr. Chairman.
    Mr. Lungren. Mr. DeFazio is recognized for 2 minutes.
    Mr. DeFazio. Hopefully in establishing the registration 
process, however, you won't restrict it to people who are 
resident and originating in those airports, as the current 
program I described last week, where, although I fly out of the 
same terminal that has a registered traveler device at 
National, I can't use it because I wasn't on that airline at 
that airport. I am just a 180,000-mile-a-year guy with other 
airlines. Hopefully you will accommodate a wider perspective.
    At London Heathrow, their philosophy was, as I was being 
very vigorously frisked as a Member of Congress with a member 
of Parliament being vigorously frisked, every time we went in 
and out of security. They make no exceptions. They go through 
everybody's toolbox and go through everything that goes in or 
out of the secure area of the airport. I said, well, why would 
you do that? They said, Yeah, but a guy got in trouble, got 
blackmailed or whatever else, and he is smuggling something in 
today. So situations change. They don't consider the one layer 
or the background check.
    On background checks, my understanding is that at San 
Francisco they fingerprint everybody. Other airports, they just 
take your name, you work for this catering company, the 
catering company clears you by name check only and no prints at 
all. That, it seems to me, should be consistent among airports 
and should be something more meaningful and not just a name 
check, but a name check where the fingerprints are associated 
with the criminal and other databases, and that is not being 
done.
    Mr. Blank. I would like to come back to the committee on 
that, because I am not fully familiar with the regulations.
    Mr. DeFazio. I think there is some discretion that is 
given. We need to distinguish here. You get a name and you 
don't know that that is that person. I tried to explain that to 
another representative at TSA. But she never got the idea that 
someone could have her name and clear it through a background 
check and it may not be her. The point is that associating at 
least with employees' fingerprints, you might find you can 
still fake the name, but you may be in the databases for other 
purposes. That still isn't foolproof, because without doing a 
real FBI background check, we don't know that you are that 
person or have been that person at those residences, et cetera, 
et cetera. So thank you.
    Mr. Lungren. I thank the gentleman. We would like to thank 
Mr. Blank for your valuable testimony and the Members for their 
questions. The members of the committee may have additional 
questions for you and we would ask you to respond to these in 
writing. The hearing record will be held open for 10 days.
    And, without objection, the committee stands adjourned.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
                             For the Record

                     U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                       Washington DC, June 23, 2005

Re: June 9 Testimony: The Promise of Registered Traveler

    To Whom it May Concern:
    I appreciated the opportunity to share my views with the 
Committee at the June 9 hearing entitled ``The Promise of 
Registered Traveler.''
    Since that time, allegations have surfaced that the 
Transportation Security Administration has collected and 
maintained extensive personal information about airline 
passengers for testing of the Secure Flight program even though 
Congress forbade it and the TSA said it would not do so.
    While the exact allegations are unclear and have not been 
proven, I believe the consequences may be quite serious. The 
American public and Congress rely on agencies' Privacy Act 
notices and related publications as describing accurately what 
they will do with Americans' personal information.
    In preparing for the June 9 hearing, I reviewed and relied 
on the TSA's June 1,2004 Privacy Act System of Records Notice, 
69 Fed. Reg. 30948, regarding the Registered Traveler program 
and the Registered Traveler Pilot Privacy Impact Assessment 
dated June 24, 2004. My testimony assumed that such documents 
bind the TSA.
    Had I known of allegations that the TSA ignores the Privacy 
Act's requirements and its own promises about American 
travelers' privacy in the Secure Flight program, I certainly 
would have included this information in my testimony. Unaware 
of the allegations, I may have misinformed the Subcommittee, 
understating the risks to privacy from programs like Registered 
Traveler and. Secure Flight.

        Sincerely,

                                The Cato Institute,
                                                Jim Harper,
                                     Director of Information Policy

                                 <all>

</pre></body></html>
